NO:
IN THE
SUPREME COURT OF THE UNITED STATES
Sandra Harmon- Petitioner
VS.
Dept. of Finance Sussex County, Delaware et. al.- Respondents

ON PETITION FOR A WRIT OF CERTIORARI
THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

APPENDIX FOR PETITION FOR WRIT OF CERTIORARI
INCLUDES
Exhibit 1 Consist of three (3) pages- Electronically filed case closed notice w/ 2 pages of the
docket which shows the court's reopening of the case to accommodate counsel for defense Februar 16, 2021 Court filing, filed well after the appeal was filed in the case.
Exhibit 2 Consisting of one (1) page letter to district court preserving my right to appeal, noticing them to docket my appeal for February 9, 2021.
Exhibit 3 Consisting of 91 pages- Third Circuit Appeals Case 0:21 cv 01021 Docket Entry dated
March 2, 2021
I
OPINIONS INCLUDED
US Court of Appeals for the Third Circuit No: 0;21-cv-01317. Sandra Harmon v. Dept. of Finance et. al., judgment entered June 9, 2021.

US District Court for the District of Delaware No. 1-18-cv -01021. Sandra Harmon v. Dept. of
Finance et. al., judgment entered 2/02/21.

US Court of Appeals for the Third Circuit No: 19 cv 03191. Sandra Harmon v. Dept. of Finance
et. al., judgment certified 06/4/2020.

US Court of Appeals for the Third Circuit No: 19 cv 03191. Sandra Harmon v. Dept. of Finance
et. al., judgment entered 4/27/2020.

US District Court for the District of Delaware No. 1-18-cv -01021. Sandra Harmon v. Dept. of
Finance et. al., judgment entered 8/19/2019.

Dated: July 2, 2021

andra. Harmon
815 F Street
Hartsville, SC 29550
302-245-0299

0

CM/ECF LIVE - U.S. District Court:ded
Utility Events
1:18-cv-01021-RGA Harmon v,

•

ft
“
I
.*1

Department of Finance et al

CASE CLOSED on 02102/2021

CLOSED;PRO-E. -,

st„,5
U.S. District Court
District of Delaware
Notice of Electronic Filing

The following transaction was entered on 2/16/2021 at
4:19 PM EST and filed on 2/16/2021
Case Name:
Harmon v.
bf Finance et al
Case Number:
1 :18 -:cv-01021-RG A
Filer:
.1
WARNING: CASE CLOSED on 02/02/2021
Document'Number:Nn document attached
Docket Text:
CORRECTING ENTRY: The opening brief
and

t.

appendix filed as attachments to the
motion at D.I. 44 have been removed from
that Ming. Motions, briefs and appendices
are
to be filed independent of each other. Cou
nsel is to refile the brief and appendix
,.accordingly. (nma)

1:18-cv-01021-itGA Notice has been electronically

mailed to:

Kevin J. Connors'i.. kjconnots@mciweg.com, dapa
F.,

tiebianco@mdwcg.com

Artemio• C. Aranilla, R /acarardlla@indwcg.com
, frparis@mdwcg.cotn, Isjconnors@tridweg.com,
ekrips@mdwcg.com
1:18-cv-01021-RGA Filer will deliver document by

other means to:

Sandra Hamioa
815 F Street
Hartsville, SC 29550 '•

https://ded-ecf.sso.dcn/cgi-bin/Dispatch.pl?1309633726

If

66174

2/16/2021

55

Fit

appeal

USCA Order Terminating Appeal

Wed 06/09 8:35 AM

USCA Certified Order Terminating Appeal as to48 Notice of Appeal to the Third Circuit filed by Sandra Harmon. USCA Decision: The
Appellees' Motion to dismiss the appeal for lack of appellate jurisdiction is Granted. (ai)

Thursday, March 11, 2021
54

Thu 03/11 8:39 AM

Oral Order

order

ORAL ORDER: The motion to deny reopening (D.I.53 ) is DENIED. As the docket reflects, the case was closed in error after the entry of a nonfinal order. Nevertheless, there is now an appeal pending, and Defendants motion to dismiss (D.I.44 ) is DISMISSED without prejudice and with
leave to refile when there is no longer any appeal pending. Ordered by Judge Richard G. Andrews on 3/11/2021. (nms)

Thursday, February 25, 2021
53

motion

Miscellaneous Relief

Thu 02/25 2:58 PM

MOTION to Deny Reopening of Case, filed by Sandra Harmon. (amf)

Monday, February 22, 2021
52

Tue 02/23 11:51 AM

Letter

misc

Letter to Clerk for the Court of Appeals, 3rd Circuit, from Clerk of Court, forwarding filing.(sam)
forwarded filings

Att: 1

51

appeal

NOTICE OF APPEAL - Third Circuit

Tue 02/23 11:37 AM

NOTICE OF APPEAL to the Third Circuit re42 Memorandum Opinion, and43 Order (Duplicate of D.I.48 ). Appeal filed by Sandra Harmon.
(sam) Modified on 2/23/2021 (nms)

50

appeal

Transcript Purchase Order - Appeal to Third Circuit

49

appeal

-- Notice of Docketing ROA - 3rd Circuit

Tue 02/23 11:34 AM

Fri 02/19 10:19 AM

NOTICE of Docketing from USCA for the Third Circuit. Re48 Notice of Appeal to the Third Circuit filed by Sandra Harmon. USCA Case
Number: 21-1317 USCA Case Manager: Anthony Infante. (DOCUMENT IS RESTRICTED AND CAN ONLY BE VIEWED BY COURT STAFF)
(ai)

Thursday, February 18, 2021
47 la n

USCA Letter to District Court Clerk

appeal

11 pgs

Thu 02/18 12:18 PM

USCA Letter to District Court Clerk forwarding Notice of Appeal on behalf of Sandra Harmon to District Court.(Id)
Att: 1 n

45

G

90 pgs

pgs

misc

Letter

Appendix

Tue 02/16 4:16 PM

APPENDIX re44 MOTION to Dismiss, by Jason Adkins, Dale Callaway, Department of Finance, Ellen Magee, J Bruce Mears, John Mills, E.
Brent Workman. (Connors, Kevin) Modified on 2/16/2021 (nms)

44

motion

Dismiss/Other

Tue 02/16 4:14 PM

MOTION to Dismiss - filed by Jason Adkins, Dale Callaway, Department of Finance, Ellen Magee, J Bruce Mears, John Mills, Sussex County
Administration, E. Brent Workman.(Connors, Kevin) Modified on 2/16/2021 (nms)
Att: 1
Att: 4

pit Proposed Order,
Certificate of Service

[ utility

- CORRECTING ENTRY

Tue 02/16 4:19 PM

CORRECTING ENTRY: The opening brief and appendix filed as attachments to the motion at D.I. 44 have been removed from that filing.
Motions, briefs and appendices are to be filed independent of each other. Counsel is to refile the brief and appendix accordingly. (nms)
utility

- CORRECTING ENTRY

Tue 02/16 4:23 PM

CORRECTING ENTRY: The case has been reopened as it was closed in error. (nms)
utility

- CORRECTING ENTRY

Tue 02/16 4:35 PM

42 ty

7 pgs

order

41

2 pgs

appeal

2 pgs

misc

Mail Returned

pgs

misc

Letter

40

e

38

37

appeal

Opinion - Memorandum Opinion

USCA Mandate

Tue 02/02 11:29 AM

Thu 06/04 4:53 PM

Tue 05/19 3:22 PM

Thu 04/30 3:06 PM

Transcript Purchase Order - Appeal to Third Circuit

Tue 10/15 8:20 AM

TRANSCRIPT REQUEST: Already on file in the District Court Clerk's office by Sandra Harmon (mal)

Tuesday, October 08, 2019
36

e

1 pgs

order

Order

Tue 10/08 12:25 PM

ORDER: The motion for reconsideration (D.I.25 ) is DENIED. Signed by Judge Richard G. Andrews on 10/7/2019. (nms)

35

e

3 pgs

order

Opinion - Memorandum Opinion

Tue 10108 12:23 PM

MEMORANDUM. Signed by Judge Richard G. Andrews on 10/7/2019. (nms)

Case 1:18-cv-01021-r

DOcument 47-1 Filed 02/18/21 — qe 1 of 1 PagelD #: 754

(PLA-J-Lolivur
OFFICE OF THE CLERK
PATRICIA S. DODSZUWEIT

CLERK

UNITED STATES COURT OF APPEALS

FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA 19106-1790

TELEPHONE
215-597-2995

February 18, 2021
John A. Cerino, Clerk
United States District Court
J. Caleb Boggs Federal Building
844 North King Street
Wilmington, DE 19801-3570
Re: Harmon v. Department of Finance, et al.
D. Del. No. 1-18-cv-01021
Dear Mr. Cerino:
Pursuant to Rule 4(d), Federal Rules of Appellate Procedure, and Rule 3.4, Third
Circuit Local Appellate Rules, we are forwarding the attached Notice of Appeal from the
District Court Memorandum Opinion (#42) and Order (#43) entered 2/2/21 which was
filed with this office in error. See Rule 3(a)(1), Federal Rules of Appellate Procedure and
Rule 3.4, Third Circuit Local Appellate Rules. The notice was received in this Court
on 2/9/21 and should be docketed as of that date.
This document is being forwarded solely to protect the litigant's right to appeal as
required by the Federal Rules of Appellate Procedure and Rule 3.4, Third Circuit Local
Appellate Rules. Upon receipt of the document. kindly process it according to your
Court's normal procedures. If our °Ince 1ms already rsceived the same documentA
ease disregard the enclosed L:up) to plc\ L.111 cluplintid
Pursuant to Rule 3(a)(1), Federal Rules of Appellate Procedure, a notice of appeal
must be filed with the Clerk of the District Court. This Court.may not act on an appeal
until the notice has been docketed in the District Court and certified to this Court by the
District Court Clerk.
Thank you for your assistance in this matter.
Very truly yours,

PSD/Ild
Enclosure
cc: Sandra Harmon (w/out enclosure)

By: /s/ Patricia S. Dodszuweit
Clerk

Case: 21-13--

Document: 12 Page: 1

Date

d: 03/02/2021

MA

CASE NO. 21 CV 1317

? 2021

Li)

U.S. C.A. 3rd

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

Sandra Harmon Plaintiff below- Appellant
VS.
Department of Finance Sussex County, Delaware et. al.
Defendant below- Appellee

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Docket No. 18 cv 01021
The Honorable Richard Andrews

APPELLANT'S OPENING BRIEF

ahle

/40411Cirld

Sandra Harmon
815 F Street
Hartsville, SC 29550
302-245-0299

Dated: 2/24/2021

Page 1 of 23

Case: 21-13' Document: 12 Page: 2

Date

,d:03/02/2021

TABLE OF CONTENTS
TABLE OF AUTHORITIES

3

JURISDICTIONAL STATEMENT

3-4

STATEMENT OF ISSUES PRESENTED

4

INTRODUCTION

5

STATEMENT OF THE CASE

5-13

STAGE OF THE PROCEEDINGS

13-17

STANDARD OF REVIEW

17

QUESTIONS PRESENTED

17

SUMMARY OF THE ARGUMENT

17-18

ARGUMENT

18-20

CONCLUSIONS AND RELIEF REQUESTED
CERTIFICATE OF SERVICE

20-21
22

APPENDIX ENTRIES
23
State Court Docket Sl8T-01-002
Nov. 6, 2018 emails from State Court Judge Stokes- 3 pages
July 6, 2018 Order- Noting MOOT Sl8T-01-002
Nov. 7, 2018 STAY ORDER- Sl8T-01-002
August 20, 2018 Letter from Judge Stokes
S17 M-10-019 Docket
Third Circuit Appeals Court April 20, 2020 Opinion filed April 27, 2020 in CA, 19 cv 3191
June 17, 2018 Docket for Sl8T-01-002
June 26, 2018 Docket for S181-01-002
Docket S17 M 10-018
Delaware State Code Title 25 Liens Ch. 29- 3 pages
Delaware State Code Title 9 Ch. 87 Monitions -2 pages
Notice of Fictitious Lien Affidavit
Letter to District Court Judge filed October 26- detailing fraudulent conduct of Sussex County Atty. Jason Adkins
Plaintiff Below/ Appellant Motion for Summary Judgment filed December 13, 2018
Initial Complaint filed in US District Court 18 cv 01021- includes 6 pages
District Court Docket- Document 21, pages 38-44 extra- additional information to add to punitive damages
September 14, 2017 Email from Sussex Co. Atty. Jason Adkins- Proof that I Appellant was
not an unknown owner- a requirement for using the Monition

Page 2 of 23

Case: 21-13"

Document: 12

Page: 3

Date

,d:03/02/2021

The Proceedings proceeding was undertaken in bad faith, to include fraud, theft, arson, unlawfullness, and personal greed. ALL ACTS COMMITTED WERE COMMITTED UNDER THE
COLOR OF STATE LAW
CONCLUSION AND RELIEF REQUESTED
CERTIFICATE OF SERVICE
APPENDIX OF EXHIBITS ATTACHED

Start at

TABLE OF AUTHORITIES
28 USC 1332
28 USC 1291
42 USC 1983
Art II US Constitution
14th Amendment of US Constitution
1st Amendment of US Constitution
Title 9 De. Code 8722(d)
Delaware State Law Title 9 Del Code Chapter 87 Collection of Delinguent Taxes Subchapter II.
Monition Method of Sales, Specifically Code 8722 Praecipe, Judgment, Monition
Title 25 Chapter 29 specifically codes 2901(a)(1)(k), 2901(b)(1), 2901(b)(1)(7), 2903(b).
Title 25 Delaware State Codes CHAPTER 29. Liens of the State and/or Its Political Subdivisions
Delaware Superior Court Civil Rule 69
Delaware Court Rules of Civil Procedure Section II, Rule 3 Commencement of Civil Action.
Service Process.
CASE LAW
Moses H. Cone Mem. Hosp. v. Mercury Constr. Co., 460 U. S. 1, 15 (1983)
Noonan South, Inc. v. County of Volusia, 841 F. 2d 380, 383 (111h Cir. 1988)
Brand Marketing v. lntertek,No. 14-3010, . Decided: September 10, 201
Mitchell v. Forsyth, 472 U.S. 511, 524-30 (1985)

JURISDICTIONAL STATEMENT
( A ) The District court had subject-matter jurisdiction of this case under 28 USC 1332 because
there is complete diversity of citizenship between the parties, and the amount in controversy exceeds $75,000.

Page 3 of 23

Case: 21-13-- Document: 12 Page: 4

Date ---1c1: 03/02/2021

( B ) This appeal is from the district court's dismissing Plaintiff- Below- Appellant Motion for
Summary judgment as premature, leaving it dismissed, and terminating the civil case, without
addressing my, Plaintiff -Below- Appellant's constitutional claim that gave rise to this complaint
being filed in federal court. The termination of the civil case is a final order, and this Court has
jurisdiction under 28 U. S. C. 1291. See Mitchell v. Forsyth, 472 U.S. 511, 524-30 (1985). United States Courts of Appeals " have jurisdiction of appeals from final decisions of the district
courts of the United States....." 28 U. S. C. 1291.
( C ) The District. Court entered the Order Denying Defendant's Below- Appellees Motion to
Dismiss and held that Plaintiff's Motion for Summary Judgment is premature, and it was to remain dismissed on February 1, 2021, and filed in the docket on February 2, 2021. Plaintiff- Below- Appelland timely filed a Notice of Appeal that was docketed on February 9, 2021.
STATEMENT OF ISSUE PRESENTED
The District Court terminated the civil case filed by Plaintiff- Below- Appellant dismissing Plaintiff Below- Appellant Motion for Summary Judgment ruling it to be Premature, and
knowingly Judicially noticed the State Court Case C. A. S18T-01-002, in which the state court
violated Plaintiff Below- Appellant's Constitutional Rights, and completed its adjudication of the
case, despite referencing the term STAYED on the docket. See Plaintiff Below- Appelland Copy
of State Court Docket marked as Appellant Exhibit No. 1.
The effect of the district court's action in this case is to deprive me, the Plaintiff- Below/
Appellant of not just a federal forum, but any forum for the resolution of the issues raised in my
complaint to the district court in which my constitutional rights were violated by the DefendantsBelow- Appellees.
Accordingly, did the district court err when it refused to exercise its jurisdiction over this
case and resolve the issues raised, when there is no risk of piecemeal litigation, and there is no
other forum presently available for resolution of this case which involves my constitutional
rights being violated.

Page 4 of 23

Case: 21-13-- Document: 12 Page: 5

Date --id: 03/02/2021

INTRODUCTION
This case involves criminal conduct, fraud, deceit, intentional infliction of emotional distress, bad faith, unconscionable, shocking, knowingly malicious, tortious interference with private property rights, deliberate indifference, and outright blatant and flagrant willful misconduct
by the Defendant- Below Appellees who intentionally violated clearly established state laws and
rules of court procedure, mislead and misrepresented facts to the court, fabricated documents for
the sole purpose of taking away Plaintiff- Below- Appellants Rehoboth Beach private property
for the benefit of wealthy developers- Downs & Hudson who Plaintiff- Below- Appellant refused
to sell her private property too.
The appeal involves Plaintiff- Below- Appellant attempt to find a federal forum to resolve the issues raised in my complaint and pleadings to the court, so that I, Plaintiff- Below- Appellant can obtain a final judgment on the merits of my claims, obtain a monetary award for the
conduct engaged in by the defendants against me, as well as an award of punitive damages for
the delay in justice resulting from the defendants intentionally misleading the court - causing a
delay in justice, and intentional infliction of emotional distress on me, the Plaintiff- Below- Appellant and my family for several years now. Appellant appeal also involve Appellant engaging
in a long rigorous battle to have my private property rights protected and preserved against the
fraudulent, heinous, shocking, malicious, and unconscionable acts of the defendants-below/ appellees in this case.
STATEMENT OF THE CASE
This case involves the unlawful taken of my Plaintiff- Below- Appellant private property
(Real Estate) by the defendants below/ appellees using fraud and deceit, putting forth false and
misleading information to the tribunal, in violation of my 14th Amendment Constitutional Rights
as guaranteed by the United States Constitution, and the district court terminating the case, without hearing the merits of my claims, judicially noticing and deferring judgment to the State Court
case C.A. S 18 T-01-002, despite having jurisdiction for hearing constitutional claims.
The District Court on Page 4-5 of its Memorandum Opinion dated February 1, 2021, and
filed on the docket on February 2, 2021, stated, "The Court takes judicial notice that the Superior
Court case remains pending and is awaiting resolution. see Department of Finance of Sussex

Page 5 of 23

Case: 21-13'

Document: 12 Page: 6

Date

d: 03/02/2021.

Cty., v. Harmon Heirs, Civ. A. No. S 18T-01-002 (Del. Super. June 12, 2020)
The District Court Judge judicial notice of a completely adjudicated case, as noted by the
attached State Court Docket Civ. A. No. S 18T-01-002, is contrary to due process of law, the district court's finding of fact, as well as the federal court's obligation to hear cases arising under
Section 2 Article III of the United States Constitution. This is an intentionally false and misleading statement by the court. See Appellant Exhibit No. 1.
Based on this district court willful and flagrant misrepresentation of the facts, regarding a
pending state court case that's awaiting resolution, the district court noted that my Motion for
Summary Judgment was premature, and dismissed it and terminated the civil case, effectively depriving me, Plaintiff- Below- Appellant of not just a federal forum but any forum to have my federal rights litigated.
The district court made these statements with full knowledge that the state court's adjudication was complete because he reviewed the docket in order to judicially notice it. The district
court was aware that the state officials disregarded the stay , and continued with their unlawful
conduct that gave rise to Plaintiff seeking federal court intervention in this case.
The State Court via the Presiding Judge Stokes email to both myself and Mr. Rutt, dated November 6, 2018 at 4:34pm, noting, " Please provide me with your phone numbers to arrange a conference call tomorrow. I want to know your positions on whether the hearing set for Friday afternoon should be stayed given the federal case and if more hearing time would be necessary
should the case proceed...." See Appellant Exhibit No. 2.
This represents the basis of the teleconference held on November 7, 2018. The Court did
not hear nor entertain any motions as entered on the docket entry dated Nov. 7, 2018. The wording "Motion to Invalidate and Dismiss heard." This statement represents a false and misleading
docket entry. The court held only a teleconference, and his mails to the Plaintiff-Below Appellant prove this fact.
Defendants falsely misled the district court that the Judge held a hearing, even abusing
his discretion to have the Court Reporter to transcribe the teleconference and falsely used the
term hearing, when a hearing over the issues was never had in the case. The State Court in its order dated July 6, 2018 noted all challenges to the monition were MOOT, (see Appellant Exhibit
No. 3) and noted that I, the Appellant could only file an objection to the sheriff sale if I chose to
do so by July 19, 2018. Further, in the state court's November 7, 2018 order, the state court,

Page 6 of 23

Case: 21-13' Document: 12 Page: 7

Date — d: 03/02/2021

stayed its proceeding to allow the federal court to adjudicate Appellant's federal claims ( see
Nov. 7, 2018 State Court Order Appellant Exhibit No. 4). Yet, the district court refuses to adjudicate Plaintiff below/ Appellant federal constitutional claims in this case.
Further the State Court letter from the presiding Judge Richard Stokes dated August 20,
2018, recognized the issues that were to be addressed on November 9, 2018. They were the Notice of Objection to the Sheriff sale, The Dept. of Finance of Sussex County's Response, my
plaintiff below appellant Amended Notice of Objection, and my Motion to Dismiss. (See Appellant Exhibit No. 5)
The State court via Judge Stokes issued an order on November 7, 2018, recognizing the
fact that a teleconference, not a hearing, as intentionally mischaracterized, as well as intentionally skewed by the defense counsel in this case in his pleadings to the district court, was held. (see
Appellant Exhibit 4.)
More important, the State Court noted in its order dated November 7, 2018 that, "....Proceedings on this matter, {refering to Notice of Objection to the Sheriff sale, The Dept. of Finance
of Sussex County's Response, my plaintiff below appellant Amended Notice of Objection, and
my Motion to Dismiss} are STAYED, awaiting resolution of the related cases pending in United
States District Court, District of Delaware CA 17 cv 01817 and CA 18-cv-1021..." See Appellant Exhibit No. 4.
A Stay by legal terms is the stoppage of an entire case or a specific proceeding , in the
State Court Case. The Judge's November 7, 2018 order is clear that the case was to be STAYED,
awaiting resolution of the related cases pending in United States District Court, District of Delaware CA 17 cv 01817 and CA 18-cv-1021. Clearly, litigation is not complete in CA 18-cv1021, because an appeal was made. Yet, the docket entry shows evidence of continued disregard
of the State's Court own order. The State docket is complete, and the case is effectively closed.
Plaintiff below/ Appellant after seeing the unlawful entries of the progression of the case,
requested to have the stay lifted, only to be denied by the State Court as noted by the state court
docket entries. See Appellant Exhibit No. 1.
The entry STAYED on the docket is for the sole purpose of misleading the federal court
officials. There remains no case pending or waiting resolution as stated on page 4-5 of the district court Memorandum Opinion dated February 1, 2021.
However, the long standing practice in Delaware when land is sold pursuant to an appro-

Page 7 of 23

Case: 21-13' Document: 12 Page: 8 Dated: 03/02/2021

priate execution process is as follows, "when there are no objections made to the sale, the sale is
confirmed at the return term of the writ, as a matter of course, without any act or decree of the
court; and a sale so confirmed is final in its character and effect, and cannot afterwards be inquired into, nor can its validity be controverted collaterally."Delaware Superior Court Civil Rule
69 echoes this practice, providing that, "sheriff's sales not objected to ... shall ... be confirmed
as a matter of course."
In my Plaintiff Below- Appellant case, a timely objection was made and the Judge Stayed
the proceedings. The procedures leading to the sheriff sale were not followed as the land taxes
were not in default, the water and sewer bill was paid in full prior to the Court order authorizing
the sheriff sale, and the Dept. of Finance never issued the first request for payment on the demolition cost, although Plaintiff Below- Appellant voluntarily paid money towards the demolition
fees. The demolition took place after September 14, 2017, and defendants sought the cost of the
demolition with legal fees and interest on October 16, 2017, according to the state court docket
entry SI7M-10-019 which was never legally litigated nor served on the property owners in accordance to Delaware Court Rules of Civil Procedure- Service Process.
The defendants did not follow applicable state laws Title 9- 8722 (d) monition & Title 25
Del. Code. 2903 & 2901 (LIENS), Delaware Rules of Civil Procedure Section II, Rule 3 Commencement of Civil Action. Service Process, and Delaware Rules of Civil Procedure 69. The
laws and rules of court procedure were all violated by the defendants below/ appellees as well as
the presiding judicial officer, and the State Court disregarded it's own STAY order.
Further, The district court noted that the Monition action was properly before its court but
the district court failed to adjudicate the merits of the claims of constitutional deprivations that
were properly before it. I, the Plaintiff below/ appellant continue to be distressed by the defendants handling of the Monition at the core of this case, and their manipulation of the judicial process via their deception and false and misleading pleadings to the tribunal.
This Appeals Court Opinion, in the first appeal of this district court action in the same
case ( C.A. 18 cv 1021 RGA), which was given the Third Circuit Appeals Docket No. 19-3191
dated April 27,2020, and filed in district court on June 4, 2020, clearly defined the facts that
formed the basis of this federal case for the district court Judge to aid him. (see Appellant Exhibit No. 7)
The Third Circuit , stated, "...Harmon owned real property in Rehoboth Beach, Delaware.

Page 8 of 23

Case: 21-13"

Document: 12 Page: 9

Date Thd: 03/02/2021

In January 2018, Sussex County commenced a monition 1 action against Harmon to collect delinquent sewer and water bills and costs incurred when it demolished her fire-damaged home. Harmon claims that she paid the sewer and water bills, but that Sussex County and the individual defendants never consulted with her about the demolition costs, failed to give her notice of the
monition action, charged excessively high interest on the demolition costs, and sold the property
at a sheriff's sale without providing her with a reasonable time to pay the outstanding costs. She
filed a complaint in District Court under 42 U.S.C. § 1983 alleging that the defendants had violated her constitutional rights

1 "Monition" is "a legal process in the nature of a summons or

citation to appear and answer (as in default of performing some certain act)." Monition, Merriam-Webster's Unabridged Dictionary (2016). (See Appellant Exhibit No. 7)
When I found out about the Monition through a pleading filed by defendants in C. A. 171817-RGA, I realized that I had to file another claim in federal court, as a result of the unlawful
action that culminated into a Monition, that was not mentioned in C. A. 17-1817- RGA because I
did not have knowledge of the existence of the Monition. I had to file this action which formed
the basis of my complaint in this case 18 cv 01021.
The State Court Docket on June 17, 2018 referenced the Monition as New. There were no
docket entries listed for the Monition on June 17, 2018, as noted by downloaded copy of the
docket taken from the Delaware Court Website on June 17, 2018. This docket entry is evidence
of foul play, and indicate that the defendants engaged in deception by creating documents to
make up a docket. It was sometime between the dates of June 17, 2018 and June 26, 2018, that
docket entries were added to create the appearance that court action had taken place on January
12, 2018. Yet, no one in the state prothonotary office saw the need to docket the pleadings in the
case until sometime between the dates of June 17, 2018 and June 26, 2018, as noted by copies of
the docket referenced in this appendix as Exhibits No. 8 - the June 17, 2018 Court Docket & Exhibit No. 9 -the June 26, 2018 Court Docket.
Likewise, the defendants also manufactured two additional state court cases in an effort
to fabricate a lien in Civil Action Numbers S 17M-10-018 (See Exhibit No. 10) Referencing a
Water & Sewer bill for $3021.84, a wholly exaggerated amount, and S17M-10-019 (See Exhibit
No. 6) referencing the demolition fee of $10888.93 which included interest and legal fees with
less that 30 days after the actual demolition. There have been multiple amounts quoted on various documents for the demolition fee(s).

Page 9 of 23

Case: 21-13'

Document: 12 Page: 10

Dates —l ed: 03/02/2021

It appears that the defendants fabricated and created dockets and cases, when they became aware that 1, Plaintiff Below- Appellant filed federal action in US District Court- Delaware. There are no indications on the docket that the defendants below/ appellees gave notice
and the opportunity to be heard on the merits of the defendant below/ appellees allegations. The
staff at the County water and sewer office in Sussex County, had no knowledge of the State action filed by Jason Adkins for the Water and Sewer. They could not give me Plaintiff below/ Appellant any information about the action. They were aware that I was making payments on the
Water & Sewer balance without issue to their department.
The defendants below/ appellees violated clearly established Delaware Court Rules of
Civil Procedure Section II, Rule 3 Commencement of Civil Action. Service Process, and Rule
69:
A lien was manufactured for show for the court, but never obtained in accordance with
the law as noted by the State Court Dockets S 17M-10-018 and S I7M-10-019, nor did the defendants adhere to the Delaware State Law Title 25 Del. Code. 2903 Duration of lien. Section (b)
notes that,"... In Kent and Sussex Counties, the lien for county and state taxes shall remain a lien
for the period of 2 years..." (See Exhibit No. 11)
Code 2901(a)(1) of Title 25 addresses Lien of taxes and other charges, noting that (c) &
(d) that charges from sewer and water systems fall within the category of liens that shall remain a
lien for a period of two years.
In this case the defendants never properly obtained a lien on Oct 16, 2021, and acted with
deliberate indifference to my federal right, outright failing to comply with Delaware State Law in
this case. Their conduct is shocking to the conscience, that they can willfully, maliciously, and in
bad faith and fraud, violated Delaware state laws and Rules of Court Procedure in flagrant disregard of my constitutional rights as guaranteed by the 14th Amendment to the United States Constitution, as if the US Constitution don't apply to me, Appellant. Their conduct in this case warrants the filing of criminal charges. The defendants represent a threat to the public and the judicial system at large. (See Exhibit No. 6 & 10)
The Monition that resulted from the above referenced misconduct was premised on fraud,
deception, bad faith, ill will and intent, shocking to the conscious, blatant misrepresentation to
the courts.
Delaware State Law Title 9 Code 8722(d) ...Monition states, " ....The tax collecting au-

Page 10 of 23

Case: 21-13

Document: 12 Page: 11

Dat

ed: 03/02/2021

thority for New Castle, Kent, and Sussex Counties may initiate and complete the monition process against any property designated by the authority as having an unknown owner for a continuous period in excess of 5 years...." I, Plaintiff below? Appellant was never an unknown owner.
The defendants in bad faith, with ill intent, willfully violated clearly established state law in using the Monition in the State Court Case. See Exhibit No. 12.
Despite the fact that I, Plaintiff below/ Appellant had been in regular contact with the defendants prior to the Monition that was dated January 12, 2021, the defendants below/ appellees
used the monition to avoid service of the Petition on the property owners. The defendants below/ appellant had my, appellant email address, phone number, and physical address as to where
I was living at the time of the Monition. (See Exhibit No. 18: Email dated September 14, 2017
from Attorney Jason Adkins) Sadly, the defendants used the Monition, as opposed to legally
serving the complaint in accordance to applicable Delaware Court Rules of Civil Procedure Section II, Rule 3 Commencement of Civil Action. Service Process. They secretly processed the
Monition. By the time 1, Plaintiff below/ Appellant was made aware of their conduct, any challenge to the Monition in the State Court was rendered MOOT. See Plaintiff Exhibit No. See Exhibit No. 3.
The defendants knowingly engaged in intentional/ willful dishonesty, fraud, deceit, and
misrepresentation of facts to the district court in this case. Their conduct ultimately resulted in
the unlawful taking and sheriff sale of my privately on real estate, for a grossly inadequate price
for commercially zoned beach real estate. The language of the Fourteenth Amendment requires
the provision of due process when an interest in one's "life, liberty or property" is threatened.
The effect of the district court conduct in ruling that my Plaintiff below/ Appellant Motion for Summary Judgement was premature, and terminating the case, resulted in me, Plaintiff
below/ Appellant not just ----not having a federal forum to address the deprivation of my constitutional rights by the Defendants' below/ Appellees, but not having any forum to address my
federal rights.
To justify an award of punitive damages, the courts note that a fact-finder must determine
that the defendant acted with a culpable state of mind, i.e. the fact finder must determine that the
defendant acted with a culpable state of mind, i.e with reckless indifference to the rights of others. As noted above and throughout the pleadings in this case, the defendants under color of state
law intentionally inflicted emotional distress and acted with specific intent to cause plaintiff be-

Page 11 of 23

Case: 21-13"— Document: 12 Page: 12 Dallied: 03/02/2021

low/ appellant harm, by committing the above tortious acts accompanied with fraud, ill will,
recklessness, wantonness, oppressiveness, and a flagrant/ willful disregard of not only the Model
Rules of Professional Conduct for Lawyers, but Plaintiff below/ Appellants Constitutional
Rights. They engaged in overall criminal conduct to further aggravate the injury they caused to
the Plaintiff in acting as if the constitution did not apply to the Plaintiff below! Appellant in this
case. The defendant's repeated and multiple law violations and actions described in this case is
so outrageous as to demonstrate willful, wanton, or reckless conduct.
In Brand Marketing v. Intertek,No. 14-3010, . Decided: September 10, 2015, The Third
Circuit Court of Appeals, recognized that punitive damages are an "extreme remedy." They are
penal in nature and are proper only in cases where the defendant's actions are so outrageous as to
demonstrate willful, wanton, or reckless conduct. The penal and deterrent purpose served by punitive damages is furthered when the outrageous conduct occurs in a case sounding in negligence
no less than when an intentional tort is at issue. The defendants knowingly and willfully acted
with a culpable state of mind, with an evil motive, and showed reckless indifference to my Plaintiff- Below/ Appellants Constitutional Rights on multiple occasions in this action.
ADDITIONAL FACTS:
"The defendant's below/ appellants conduct was openly decietful from the beginning with using
the Monition Petition to avoid service of the monition by summons to the Plaintiff below/ Appellant. The defendants were in contact with the Plaintiff below/ Appellant by email, US Mail, and
telephone contact. The Monition Petition that is used exclusively for unknown owners that
have been unknown for 5 years- allowed the defendants to leave notice on a vacant lot, as oppose to servicing the Monition petition in Accordance to Court Rules of Civil ProcedureThere conduct is knowingly and intentionally fraudulent and unlawful- the district court has
evidence to support their unlawfulness, but continues to ignore the facts in this case, going
against all the Federal Courts were created for, to uphold and defend the constitution, an be a
federal forum for citizens to have their constitutional claims adjudicated. I have multiple
emails and written communication which proves that the defendant below/ appellees improperly used the monition petition for unknown owners- that was moot before I, the plaintiff below/
appellant new of its existence. This conduct rise to the level of a crime) yet, in order to take
possession of Plaintiff property, they filed a Monition petition which Title 9 C 8722(d) of Dela-

Page 12 of 23

Case: 21-13

Document: 12 Page: 13

Dat

ed: 03/02/2021

ware State Law notes is suppose to used for unknown owners that remained unknown for 5 consecutive years. The requirements to use the monition was not met. The home was demolished,
so they left the monition petition on a vacant lot, to hide their conduct from the owners. There
despicable conduct became known for the first time during discovery in case 17 cv 01817-RGA.
By this time, challenging the petition was moot. Within 30 days of the dernilition, the defendants sought full payment of the demolition cost, despite plaintiff below/ appellant making regular
payment on her own to pay on the demolition cost while the district court addressed my federal
complaint. There was never proper liens filed, and Delaware State Law governing the duration
of the lien was violated by the defendants in this case. Federal intervention is needed to prevent
a travesty of injustice that has taken place in this case. Cleary the conduct of the defendants is
arbitrary and shocking to the conscience, and a violation of me and my families substantive and

procedural due process rights, as well as my rights to equal protection under the law in conjunction with my 1St amendment right to the peaceful enjoyment of my privately owned beach property without government interference in this case.
STAGES OF THE PROCEEDINGS

On July 11, 2018, Plaintiff Below- Appellant Sandra Harmon, initiate this civil action against the
Defendants Below- Appellees in US District Court- Delaware..

The action was filed due to the escalating and uncontrolled conduct of the defendants in selling
my, Appellants privately owned Rehoboth Beach property at Sheriff Sale on June 19, 2018 in violation of my constitutional rights to due process both procedural and substantive, as well as my
right to equal protection under the law, despite my water and sewer bill being paid in full, and
the demolition of my home was being challenged in a related Civil Action -1:17 CV 01817.

On September 7. 2018 Defendants Below / Appellees answered by way of a Motion to Dismiss
Based on Younger Abstention Doctrine.

On September 21, 2018 Plaintiff Below/ Appellant submitted an Answering Brief in Opposition
of Defendants' Motion to Dismiss.

Page 13 of 23

Case: 21-13

Document: 12 Page: 14

Dalled: 03/02/2021

On October 26, 2018, Plaintiff Below/ Appellant sent a letter to Delaware District- US Attorney
David Weiss, Delaware Dept. of Justice Attorney Matt Denn, US Dist. Court Judge Richard Andrews, and Delaware Superior Court Judge Richard Stokes notifying them of intentional misconduct of Jason Adkins- Attorney for Sussex County Administration Dept of Finance intentional
misconduct and fraudulent date entered on the State Court Records. Specifically, the defendants
fabricated a judgement for Water and Sewer in the name of my deceased husband LaMont Harmon. At the time of the fictitious judgment allegedly recorded 9/27/1999, that the defendants created for water and sewer, property owners in the Rehoboth Beach area were not required to pay
for water or sewer because our home used a private well and septic system. Sussex County Administration did not require water and sewer to be connected to the county utilities until around
2008, when they adopted their ordinance 12/16/2008. See attached Docket Entry 11, marked as
Appellant Exhibit No. 14.
On December 13, 2018, Plaintiff Below/ Appellant filed a Motion for Summary Judgment with
Opening Brief in support. (Appellant Exhibit No. 15).
On December 27, 2018 Defendants Below/ Appellant filed an Answering Brief in Opposition to
Summary Judgment.
On January 2, 2019 Plaintiff Below/ Appellant filed a Reply Brief for the Motion for Summary
Judgment.
On January 8, 2019 Plaintiff Below/ Appellant filed a Corrected Reply Brief for the Motion for
Summary Judgment.
Due to some level of confusion created by the defense counsel which appear to have been omitted from the docket, as there were corrections that the court required of Counsel for defense to a
brief that was submitted by defense that necessitated a follow up response. Therefore, On February 11, 2019 I, Plaintiff Below- Appellant submitted a Reply Brief, which was labeled SUR-Reply Brief in Support of Monition for Summary Judgments along with an appendix of exhibits.

Page 14 of 23

Case: 21-13'

Document: 12 Page: 15

Date —"ed: 03/02/2021

On August 20,2019 the Court filed its Memorandum Opinion dated 8/19/2019 Granting Defendants Below/ Appellees Motion to Dismiss under Younger Abstention Doctrine; Dismissing Plaintiff Summary Judgment as moot, and terminating the civil case.

On August 26, 2019 Plaintiff Below- Appellant filed a Motion for Reconsideration.

On September 9, 2019 Defendants Below- Appellees filed a response to the Motion for Reargument.

On September 16, 2019 Plaintiff Below- Appellant filed a Reply to Motion for Reconsideration.

On September 23, 2019 Plaintiff Below- Appellant filed a Notice of Appeal to the Third Circuit.

On September 26, 2019 Plaintiff Below- Appellant Appeal was docketed in the Third Circuit
Court of Appeals, Given it Case No. C.A. 19-cv-3191.

On October 7, 2019 the District Court Stayed the Appeal.

On October 8, 2019 The District Court filed its 10/7/2019 Denial of Plaintiff Below- Appellant
Motion for Reconsideration.

On October 18, 2019 The Third Circuit Court of Appeals issued a Briefing Notice.

On October 30, 2019 Plaintiff Below- Appellant Opening Brief was filed.

On December 16, 2019 Defendant's Below- Appellee's Response Brief was filed.

On December 23, 2019 Plaintiff Below- Appellant Reply Brief was filed.

On April 20, 2020 The Appeal documents were submitted to a Three- Panel: SHWARTZ, RE-

Page 15 of 23

Case: 21-13' Document: 12 Page: 16 Dallied: 03/02/2021

STREPO, NYGAARD - Circuit Judges.

On April 27, 2020 Judgment was filed by the Court. It was Judgment, Ordered, and Adjudged
that the Judgment of the District Court entered August 20, 2019, be vacated and the matter remanded. The Judge in its order gave aid to the district court by summarizing the basis of the case
for the District Court Judge, specifically stating, " Harmon owned real property in Rehoboth
Beach, Delaware. In January 2018, Sussex County commenced a monitionl action against Har7
mon to collect delinquent sewer and water bills and costs incurred when it demolished her firedamaged home. Harmon claims that she paid the sewer and water bills, but that Sussex County
and the individual defendants never consulted with her about the demolition costs, failed to give
her notice of the monition action, charged excessively high interest on the demolition costs, and
sold the property at a sheriff's sale without providing her with a reasonable time to pay the outstanding costs. She filed a complaint in District Court under 42 U.S.C. § 1983 alleging that the
defendants had violated her constitutional rights

"Monition" is "a legal process in the na-

ture of a summons or citation to appear and answer (as in default of performing some certain
act)." Monition, Merriam-Webster's Unabridged Dictionary (2016)."

On June 4, 2020 The Appeals court issued the mandate to the District Court.

On February 2, 2021, the District Court filed its Opinion and Order denying Defendant's BelowAppellant Motion to Dismiss, Ordering that Plaintiff Motion for Summary Judgment remain dismissed, and terminating the case.

On February 3, 2021 Plaintiff placed a Notice of Appeal of the District Court decision filed February 2, 2021 in US Mail Prepaid postage. The Notice of Appeal was delivered and signed for on
February 8, 2021, and was subsequently not able to be found by the Appellate Court Clerk's Office. After speaking with a supervisor at the Clerk's Office, I, Plaintiff Below -Appellant was
asked to forward a copy of the Notice of Appeal and other documents sent along with the Appeal
along with the United States Postal Services receipt of Delivery and Mailing. I, Plaintiff BelowAppellant forwarded the information through the emergency motions email. The Court representative was able to locate my filing, and apologized recognizing she didn't understand how or why

Page 16 of 23

Case: 21-13' Document: 12 Page: 17 Dallied: 03/02/2021

my information was not filing into the docket. She assured me that the information will be uploaded and properly docket for February 9, and after she made contact with the District Court to

open the case on their end, and noted that she would provide me with a case number, which she
did.
Therefore, on February 1.8, 2021, My Notice of Appeal was docketed for the date of February 9,
202L

STANDARD OF REVIEW

The standard of review in this case is de novo.

QUESTIONS PRESENTED

Whether the district court erred in taking judicial notice of and basing its decision on a
completely adjudicated/ closed Superior Court Case Civ. A. No. S 18T-01-002 that did
not afford me, the Plaintiff/ Below -Appellant, an opportunity to raise my federal claims
before a tribunal; deceptively stating in its order dated 2/1/2021 that the State case remains pending and awaiting resolution? See Exhibit No.
Whether the District Court erred when it terminated the civil case depriving me the Plaintiff- Below/ Appellant of not just a federal forum, but any forum to obtain a resolution of
my federal clairns, and obtain final judgment from the violations to my constitutional
rights by the Defendants- Below- Appellees in this case?

SUMMARY OF THE ARGUMENT

The district Court erred in terminating this case dismissing Plaintiff Below/ Appellant
Motion for Summary Judgment ruling it was Premature, stating that, ""The Court takes judicial
notice that the Superior Court case remains pending and is awaiting resolution. Department of Finance of Sussex Cty., v. Harmon Heirs, Civ. A. No. S 18T-01-002 " when adjudication completed
in the case; thus, depriving me, Plaintiff Below - Appellant of any forum to have my federal

Page 17 of 23

Case: 21-134— Document: 12 Page: 18 Dallied: 03/02/2021

rights adjudicated. The U.S. Supreme Court has stated that federal district courts have "virtually
unflagging obligation" to exercise the jurisdiction given to them. Moses H. Cone Mem. Hosp. v.
Mercury Constr. Co., 460 U. S. 1, 15 (1983). The extraordinary step of staying or dismissing an
action in deference to a parallel state proceeding "should not be undertaken absent a danger of a
serious waste of judicial resources." Noonan South, Inc. v. County of Volusia, 841 F. 2d 380, 383
(116 Cir. 1988)
In this case, not only was there no danger of a waste of judicial resources, there is no
state court case pending nor awaiting resolution. Simply put, there is no open state court case in
this matter. The district's court order left me, Plaintiff Below/ Appellant with no forum for the
resolution of my federal claims, and no forum to obtain a final judgment on the federal claims
raised in my complaint to the US District Court- Delaware.

Accordingly, the district court erred when it terminated this case dismissing Plaintiff Below/ Appellant Motion for Summary Judgment ruling it was Premature, taking judicial notice of
a completely adjudicated Superior Court Case Civ. A. No. S 18T-01-002, falsely stating that the
Superior Court case remains pending and is awaiting resolution, when again it is completely adjudicated and closed.

ARGUMENT

1.
The district court erred in taking judicial notice of and basing its decision on a completely adjudicated/ closed Superior Court Case Civ. A. No. S 18T-01-002 that did not afford me. the
Plaintiff/ Below -Appellant. an opportunity to raise my federal claims before a tribunal: decependingand awaitingresolutively stating in iLsLdgi2_._.latth?StaitsainainLi
dated 1/2021 ti
E
tion? See Exhibit No.

The district court noted on page 4-5 of its Memorandum dated 2/1/2021, that, "....The
Court takes judicial notice that the Superior Court case remains pending and is awaiting resolution See Department of Finance of Sussex Cty. v. Harmon Heirs, Civ. A. No. Sl8T-01-002...."
This statement is deceptive, and false and misleading, and egregious, because it violates

Page 18 of 23

Case: 21-13 — Document: 12 Page: 19 Dallied: 03/02/2021

my constitutional rights , to a fair and impartial review of the facts in this case. It reflects bad
faith. The Judge given deference to and relying on the counsel for the Defendants Below/ Appellees deception and misrepresentations believed that the state court case remained pending and
awaited resolution, when in fact it was completely adjudicated and closed. see Exhibit

The State Court Docket in the Department of Finance of Sussex Cty. v. Harmon

Heirs, C iv. A. No. Sl8T-01-002.
The Judge failed to use his own skills to read over and become familiar with the facts of
the case, although the Third Circuit Panel Judges gave him a summary of the case in it's decision
dated April 27, 2020 in C. A. No. 19 cv 3191. The district court in this case, is clearly evading
ruling on my, Plaintiff Below- Appellant's Motion for Summary Judgment in this case. The
courts conduct in this case, as well as another related case presided over by the same Judge in
volving these defendants displays racial bias, partiality, wilful misconduct, abuse of process, and
lack of integrity and candor, and demonstrates prejudicial conduct which bring the judicial office
he hold in disrepute.

2.
The District Court erred when it terminated the civil case depriving me the Plaintiff- Below/ Appellant of not just a federal forum, but any forum to obtain a resolution of my federal
claims, and obtain final judgment from the violations to my constitutional rights by the Defendants- Below- Appellees in this case.

The Supreme Court has instructed, if a state court forum does not present an "adequate
vehicle for the complete and prompt resolution of the issues between parties, " then it is error for
the district court to abstain in deference to the state court case. Moses H. Cone, 460 U.S. at 28.
I, the Plaintiff Below/ Appellant was left without any forum for the resolution of my constitutional deprivation claims raised in my complaint to the district court, when the district court terminated this case. Again, the state court completely adjudicated its case without affording me, the
Plaintiff -Below Appellant the opportunity to present and have my federal claims heard, and
failed to have an administrative proceeding to hear my, Plaintiff Below- Appellant Objections to
the Sheriff Sell of my privately owned real estate that was taken in violation of my, Plaintiff- Below/ Appellant Constitutional Rights.

Page 19 of 23

Case: 21-13' Document: 12 Page: 20

Dat

ed: 03/02/2021

Section 2 of Article III notes that fedral courts are to hear all cases that arise under
the Constitution, the laws of the United States or its treaties.
For the Constitution to have any meaning, there must be a forum to vindicate federal
rights.
The U.S. Supreme Court has stated that federal district courts have "virtually unflagging
obligation" to exercise the jurisdiction given to them. Moses H. Cone Mem. Hosp. v. Mercury
Constr. Co., 460 U. S. 1, 15 (1983).
The right to an impartial judge is based on the Due Process Clause of the United States
Constitution. While a Judge performing Judicial functions may enjoy immunity, denial of constitutional and civil rights are absolutely not a judicial function and conflicts with any definition of
a Judicial function.
Accordingly, there was no justification for the district court terminating my civil case,
and failing to hear my Motion for Summary Judgment in this case. By terminating this case, the
district court has deprevided me, Plaintiff Below! Appellant not only of my chosen forum, but of
any forum, for resolution of my federal claims. The district court erred when it terminated this
case in deference to a state court case that it falsely claims is pending and awaiting resolution
when in fact the ligition is complete and the case is closed with no more action. See Exhibit No.
1. (Department of Finance of Sussex Cty. v. Harmon Heirs, Civ. A. No. SI 8T-01-002).
cONCLUSION AND RELIEF REQUESTED

Nearly three (3) years after initiating what I thought was a fairly straight-forward Civil
Rights Violation Action, I, Plaintiff Below/ Appellant is without a forum to obtain a final judgment on my Constitutional deprivation claims that resulted in the unlawful taking of my private
property in violation of my 14th Amendment Right as guaranteed by the United States Constitution. The district's court termination of this case in deference to a closed and completely adjudicated state court case is violative of my constitutional right to seek redress of grievance to a
court of law, and in this case a federal court.
Accordingly, I, Plaintiff Below/ Appellant requests that this Court reverse the district
court decision as it relates to dismissing my Motion for Summary Judgment as premature, and is-

Page 20 of 23

Case: 21-13'-- `) Document: 12 Page: 21

Dates 'ed: 03/02/2021

sue Summary Judgment in Favor of the Plaintiff Below/ Appellant in this case, without further
delay, so that I Plaintiff Below- Appellant can obtain a final Judgment on the claims raised in my
complaint. Also, Plaintiff below/ Appellant request of this court for an award of punitive damages in the amount of $2,000000.00 to punish defendants-belovd appellees for their egregious conduct and deter them and others from future offenses as engaged in by the defendants below/ appellees in this case. As the defendants below/ appellees repeated egregious, multiple law violations, wanton, reckless conduct, intentionally inflicted emotional distress on the Plaintiff Below!
Appellant and her children. The Defendants Below! Appellees acted with specific intent to cause
plaintiff below/ appellant harm, committing the above tortious acts accompanied with fraud, ill
will, recklessness, wantonness, oppressiveness, and a flagrant/ willful disregard of not only the
Model Rules of Professional Conduct for Lawyers, biit Plaintiff beloW/ Appellants Constitutional
Rights. The defendants below/ Appellants engaged in overall criminal conduct to further aggravate the injury, they caused to the Plaintiff in acting as if the constitution did not apply to me the
Plaintiff below/ Appellant in this case. See also Appellant Exhibit No. 16, the Intial Complaint
filed in 18 cv 01021.

aielciAx tivoizeKL,
Sandra Harmon
815 F Street
Hartsville, SC 29550
Sohara1966@aol.com
302-245-0299
Dated: 2/24/2021
Additional effects of the defendants unlawful conduct engaged in against the. Plaintiff Below- Appellant.
The defendants in the process of having the home demolished had their contractor to destroy and cover
Plaintiff below/ Appellant water well that was in the grolind in the front yard no where near the fire, having the contractor to dig all of defendants sewer lines up out the ground, that were not affected by the fire,
just out right disabling the water and sewer lines to ensure that the lines could not be redirected to the
Amish Built shed that was not damaged by the fire, but used during the weekends during the summer using a generator to keep the water pump running, along with the sewer lines for waste, the defendants
made sure the property was rendered unusable. Plaintiff believe that circumstantial evidence of the defendants extreme determination to take away her property rights, using their unlawful tactics lend proof
to a circumstantial case that the home was intentionally set afire by the defendants during my families
long term absence from the home; as the strong smell of gasoline was throughout the remaining remnants
of the home. Moreover, the fire resulted after Plaintiff below- Appellant refusal to sell her real estate after
multiple requests from Down & Hudson, wealthy real estate developers that needed my Plaintiff below/
Appellant property in order to expand the beach condominiums that they are building on the street and required my property in order to expand and add more condos.

Page 21 of 23

Case: 21-13"

Document: 12 Page: 22

Datr "ed: 03/02/2021

CERTIFICATE OF SERVICE

I, Plaintiff below/ Appellant Sandra Harmon certify that a true and correct copy of
my, Plaintiff below/ Appellant Opening Brief was mailed US Mail prepaid postage to the
following counsel for the Defendant below/ Appellee's on February 24, 2021.

Kevin Conner & Artemio Aranilla Esq.'
1007 N. Orange Street Ste. 600
Wilmington, Delaware 19899
Dated: February 24, 2021

Respectfully submitted,
andra Harmon
815 F Street
Hartsville, SC 29550

Page 22 of 23

Case: 21-13' Document: 12 Page: 23

Dallied: 63/02/2021.

CASE NO. 21 CV 1317
UNITED STATES COURT OF APPEALS FOR THE THIRD
Sandra Harmon Plaintiff below- Appellant
VS.
Department of Finance Sussex County, Delaware et. al.
Defendant below- Appellee

APPENDIX OF EXHIBITS ATTACHED
APPENDIX ENTRIES
State Court Docket S18T-01-002
Nov. 6, 2018 emails from State Court Judge Stokes- 3 pages
July 6, 2018 Order- Noting MOOT Sl8T-01-002
Nov. 7, 2018 STAY ORDER- Sl8T-01-002
August 20, 2018 Letter from Judge Stokes
S17 M-10-019 Docket
Third Circuit Appeals Court April 20, 2020 Opinion filed April 27, 2020 in CA, 19 cv 3191
June 17, 2018 Docket for Sl8T-01-002
June 26, 2018 Docket for Sl8T-01-002
Docket S17 M 10-018
Delaware State Code Title 25 Liens Ch. 29- 3 pages
Delaware State Code Title 9 Ch. 87 Monitions -2 pages
Notice of Fictitious Lien Affidavit
Letter to District Court Judge filed October 26- detailing fraudulent conduct of Sussex County Atty. Jason Adkins
Plaintiff Below/ Appellant Motion for Summary Judgment filed December 13, 2018
Initial Complaint filed in US District Court 18 cv 01021- includes 6 pages
District Court Docket- Document 21, pages 38-44 extra- additional information to add to punitive damages
September 14, 2017 Email from Sussex Co. Atty. Jason Adkins- Proof that I Appellant was
not an unknown owner- a requirement for using the Monition
61/YdAV PearraYl

Sandra Harmon
815 F Street
Hartsville, SC 29550
302-245-0299
Dated: 2/24/2021

Page 23 of 23

Case: 21-13"

Document: 12 Page: 24

Dates —led: 03/02/2021

4-

Report Selection Criteria
S18T-01-002
Case ID:
Docket Start Date:
Docket Ending Date:

Case Description
Case ID: Sl8T-01-002 - SUSSEX COUNTY VS. LEROY WILLIAM HARMON
Filing Date: Friday , January 12th, 2018
JM - MONITIONS JUDGMENT
Type:
STAYED - STAYED
Status:

Related Cases
No related cases were found.
Case Event Schedule
No case events were found.
Case Parties
Seq #

Assoc Expn Date
11

! Type

' Name

i PLAINTIFF

'DEPARTMENT OF FINANCE OF SUSSEX
COUNTY

Address: unavailable

Aliases:'none
_
---i HARMON, LEROY WILLIAM

—
31

DEFENDANT

[

Address: unavailable

4

Allasesd none

ire—

: DEFENDANT

Address:' unavailable

'

i HARMON SR, LEFTON
Allases:none
I

k

i
5

DEFENDANT

Address: 815 F. STREET
HARTSVILLE SC 29550

6

Aliases: i none
.
..AL
JUDGE

Address: SUPERIOR COURT SUSSEX
CO
1 THE CIRCLE, SUITE 2
GEORGETOWN DE 19947

7

HARMON, SANDRA J.

-

--

-

I Address: !87 READS WAY
I NEW CASTLE DE 19720

i

Aliases: none
1

-

--

---

t SHERIFF

Address: unavailable

----AT 7

*JUDGMENT,JUDGE SUSSEX

---

.iCE
--141COUNiiiHE11IFF

Aliases: Pone

! SHERIFF

NEW CASTLE COUNTY, SHERIFF
Aliases: none

Case: 21-134- Document: 12 Page: 25

L

— -

RUTT, DAVID N
Aliases:1 none

Address: 830 S. DUPONT HIGHWAY
MILFORD DE 19963
1

ADAMS, RYAN T

ATTORNEY FOR
PLAINTIFF

2

ed: 03/02/2021

•

'ATTORNEY FOR
PLAINTIFF

11;

Dat

Aliases: none

Address: MOORE AND RU1T, PA
122 W MARKET STREET
GEORGETOWN DE 199470000

DEPARTMENT OF FINANCE OF SUSSEX
COUNTY

PLAINTIFF

Aliases: none

Address: unavailable
w-

14

L

KERRICK, DANIEL C

'ATTORNEY

Aliases: none

Address: HOGAN & VEITH, P.A.
1311 DELAWARE AVENUE
WILMINGTON DE 198060000

Docket Entries
- ------Filing Date

Monetary

I Name

Description

12-JAN-2018 INIT FILING MONITIONS
' 10:18 AM
i
___
INITIAL FILING MONITIONS DATE DOCKETED: JANUARY 13, 2018
Entry:
r
12-JAN-2018 INITIAL COMPLAINT
10:18 AM
!

Entry:

1 INITIAL COMPLAINT DATE DOCKETED: JANUARY 13, 2018 COMPLAINT FOR ENTRY OF JUDGMENT ON
MONITION FILED. TAX MAP PARCEL NO.: 3-34-19:08-27.00 DESCRIPTION: 375330YSTER HOUSE
ROAD, N/RD 273-C, W/LEWES-REHO CANAL, REHOBOTH BEACH, DELAWARE 19971 TAX YEARS: 2013i 2017 AMOUNT: $14,400.77 (JASON ADKINS) EXHIBIT A TAX MAP EXHIBIT B BILLING PRAECIPE
' MONITION ACCEPTED BY: BC TRANSACTION ID: 61562087
... .._ . .

_
___ _ _ _ _____
18-JAN-2018 WRIT ISSUED
01:44 PM
Entry:

_ .

_ _ _ .. ..,

_. _

_ ______

IMONITION WRIT ISSUED ON 1/18/2018 - BC DATE DOCKETED: JANUARY 18, 2018
___________

24-JAN-2018 WRIT RETURN (GENERIC)
03:34 PM
Entry:

___,_ _ .
.
,

_______ __

________ ..
$

WRIT RETURNED: DATE DOCKETED: JANUARY 25, 2018 WRIT RETURNED 1-24-2018 MONITION WAS
POSTED ON THE PROPERTY ON 1-23-2018 ACCEPTED BY: BC TRANSACTION ID: 61606349

12-APR-2018 VEND EX (VENDITIONI EXPONAS)
01:11 PM
Entry:

1.
PRAECIPE FOR: VEND EX (VENDITIONI EXPONAS) DATE DOCKETED: APRIL 13, 2018 VEND EX
EXHIBIT A TAX MAP PRAECIPE ACCEPTED BY: BC TRANSACTION ID: 61910829

•
1

Case: 21-13' Document: 12 Page: 26

Dallied: 03/02/2021
w

16-APR-2018 j EXECUTION WRIT ISSUED
12:47 PM
Entry:

!

..)
rVEND EX WRIT ISSUED 4/16/2018 - BC DATE DOCKETED: APRIL 16, 2018

---,

c---108-JUN-2018 : MOTION TO DISMISS

i

ii

11:59 AM

1

Entry:

MOTION TO DISMISS DATE DOCKETED: JUNE 9, 2018 DEFENDANT'S MOTION TO DISM SS FILED 6-82018 MOTION FOR EMERGENCY AND PRELIMINARY INJUCTION FILED IN US DISTRICT COURT AND
' THIRD CIRCUIT COURT OF APPEALS EXHIBIT 1 EXHIBIT 2 EXHIBIT 3 ACCEPTED BY: BC
1 TRANSACTION ID: 62117391

... .._...

113-JUN-2018 CIVIL RULE 69 (G)
08:13 AM

Entry:

, ADKINS, JASON W

;
-.
.
NOTICE TO LIENHOLDERS OF SHERIFFS SALE AND PROOF OF POSTING PURSUANT TO SUPERIOR
COURT CML RULE 69 (G) FILED DATE DOCKETED: JUNE 14, 2018 AFFIDAVIT OF PROOF OF MAILING
EXHIBIT A NOTICE TO LIENHOLDERS EXHIBIT B RECEIPTS EXHIBIT C AFFIDAVIT OF POSTING
EXHIBIT 0 RETURN RECEIPT CARDS EXHIBITS E-G RETURNED ENVELOPES CERTIFICATE OF
SERVICE ACCEPTED BY: BC TRANSACTION ID: 62132659
v........
—

" 13-JUN-2018 RESPONSE
I, 02:26 PM
r

L

,

ADKINS, JASON W

• RESPONSE DATE DOCKETED: JUNE 14, 2018 RESPONSE TO MOTION TO DISMISS FILED Bi
Entry:

DEFENDANT SANDRA HARMON (JASON W. ADKINS) EXHIBIT A EXHIBIT B EXHIBIT C CERTIFICATE OF ,
SERVICE ACCEPTED BY: BC TRANSACTION ID: 62135013

r

18-JUN-2018 NOTICE
' 01:38 PM
Entry:

1.
-I NOTICE DATE DOCKETED: JUNE 19. 2018 COPY OF US DISTRICT COURT FILING OF MOTION TO
ATTACH RECEIPT FOR FULL PAYMENT FILED 6-18-2018 ACCEPTED BY: BC TRANSACTION ID:
62148941
—

18-JUN-2018 ORDER
04:15 PM
3

Entry:

:
7

i,

MOTION DATE DOCKETED: JUNE 22, 2018 DEFENDANT'S MOTION TO INVALIDATE AND DISMISS
ACTION FILED 6-21-2018 ACCEPTED BY: BC TRANSACTION ID: 62161685
....
.
-

26-JUN-2018 RESPONSE
09:29 AM
Entry:

---s

1

, NOTICE DATE DOCKETED: JUNE 20, 2018 NOTICE OF LIS PENDENS FILED IN THE RECORDER OF
DEEDS 6-19-2018 ACCEPTED BY: BC TRANSACTION ID: 62153216
S.
m
-

21-JUN-2018 MOTION
12:28 PM
, Entry:

,

-7-

ORDER DATE DOCKETED: JUNE 19,. 2018 ORDER SIGNED BY JUDGE RICHARD F. STOKES 6-18-2018
THE COURT DECLINES TO GRANT PLAINTIFF'S MOTION. THE SALE MAY PROCEED AS SCHEDULED
ON JUNE 19, 2018 ACCEPTED BY: BC TRANSACTION ID: 62150259

19-JUN-2018 NOTICE
12:58 PM
Entry:

-.1

-A

ADKINS, JASON W

•
RESPONSE DATE DOCKETED: JUNE 27, 2018 RESPONSE TO DEFENDANT SANDRA J. HARMON'S

.

Case: 21-13
.

Document: 12 Page: 27

Dat'led: 03/02/2021

MOTION TO INVr..,ATE AND DISMISS THIS ACTION EXHIBIT . -OCKET CERTIFICATE OF SERVICE
I ACCEPTED BY: BC TRANSACTION ID: 62174066
_...3

--..1. -06-JUL-2018 r LETTER
1
12:35 PM

_ ,,,...„

-

-

-

-

;

_

....,

LETTER DATE DOCKETED: JULY 7, 2018 LETTER FROM JUDGE RICHARD F. STOKES TO LITIGANT
IAND COUNSEL FILED 7-6-2018 RE: MOTION TO INVALIDATE AND DISMISS IS MOOT ACCEPTED BY: BC
TRANSACTION ID: 62209273
.......f

Entry:

--I

12-JUL-2018 NOTICE
12:16 PM

i__
NOTICE DATE DOCKETED: JULY 13, 2018 NOTICE OF OBJECTION TO SELL FILED 7-12-2018
ACCEPTED BY: BC TRANSACTION ID: 62232967
_
..
_
.. ......_ _

Entry:
•
16-JUL-2018
12:35 PM

WRIT RETURN (GENERIC)
WRIT RETURNED: DATE DOCKETED: JULY 17, 2018 WRIT RETURNED 7-16-2018 LANDS AND
TENEMENTS ADVERTISED AND SOLD ON 6-19-2018 TO WAYNE HUDSON, THEY BEING THE BEST
AND HIGHEST BIDDER, FOR THE SUM OF $113,500.00 THAT BEING THE BEST AND HIGHEST BID
: ACCEPTED BY: BC TRANSACTION ID: 62242459
_ .,

LE r i ER DATE DOCKETED: JULY 21, 2018 LEI i ER FROM RICHARD F. STOKES TO LITIGANTS FILED 7- t
20-2018 RE: THE COURT REQUESTS THE DEPARTMENT OF FINANCE OF SUSSEX COUNTY FILE A
RESPONSE TO THIS OBJECTION ON OR BEFORE FRIDAY, AUGUST 3, 2018. ACCEPTED BY: BC
TRANSACTION ID: 62261494

Ems:

--,

iADKINS, JASON W

31-JUL-2018 RESPONSE
11:12 AM

RESPONSE DATE DOCKETED: AUGUST 1, 2018 GENERAL RESPONSE TO NOTICE OF OBJECTION TO
• SELL EXHIBIT A EXHIBIT B EXHIBIT C EXHIBIT D CERTIFICATE OF SERVICE ACCEPTED BY: BC
TRANSACTION ID: 62289774
- .... -----

Entry:

i

I

f

20-JUL-2018 LETTER
03:16 PM

07-AUG-2018 NOTICE
12:53 PM
Entry:
—

— '
NOTICE DATE DOCKETED: AUGUST 8, 2018 AMENDED NOTICE OF OBJECTION TO SELL FILED 8-62018 ACCEPTED BY: BC TRANSACTION ID: 62318855
—
—
--II

09-AUG-2018 MOTION
12:13 PM

Eby,

MOTION DATE DOCKETED: AUGUST 10, 2018 MOTION TO DISMISS FILED 8-9-2018 ACCEPTED BY: BC
TRANSACTION ID: 62329527
_-

20-AUG-2018 LETTER
01:35 PM
Entry:

-1

1-

i

LE i i LR DATE DOCKETED: AUGUST 21, 2018 LETTER ORDER SIGNED BY JUDGE RICHARD F. STOKES
. 8-20.2018 THE PARTIES ARE ORDERED TO APPEAR IN PERSON ON FRIDAY, NOVEMBER 9, 2018 AT
1:00 PM TO CLARIFY ARGUMENTS ACCEPTED BY: BC TRANSACTION ID: 62364383
._ _
.._ .._. _ .._
018 SUBSTITUTION OF COUNSEL

10
713144

-

___. _ , _. ........_ .
ADKINS, JASON W

T.
1

..... _.... ....,

Case: 21-13'
,--.....---- ^*---

Document: 12 Page: 28
,-..,..--,—,

"Ier.•

Dat

ed: 03/02/2021

IF

mu—

4

r

SUBSTITUTION OF COUNSEL DATE DOCKETED: SEPTEMBER , 2018 JASON W. ADKINS
WITHDRAWS AND DAVID N. RUTT AND RYAN T. ADAMS HEREBY ENTER THEIR APPEARANCE ON
Entry:
BEHALF OF PLAINTIFF, DEPARTMENT OF FINANCE OF SUSSEX COUNTY ACCEPTED BY: BC
TRANSACTION ID: 62494920
-- —
—
—
26-OCT-2018 LETTER
02:41 PM

1

, LETTER. DATE DOCKETED: OCTOBER 27, 2018 LETTER FROM SANDRA HARMON TO THE COURT
FILED 10-26-2018 RE:( SUPPLEMENTAL EXHIBIT ) ACCEPTED BY: GGM TRANSACTION ID: 62601626

Entry:

1•"
*

02-N0V-2018 LETTER
03:09 PM
—
—
— LETTER FROM KENDRA MILLS, CASE MANAGER TO COUNSEL AND SANDRA HARMON 11-2-2018 RE:
NOTIFICATION THAT THE HEARING SCHEDULED FOR FRIDAY, NOVEMBER 9, 2018 WILL BEGIN
E
PROMPTLY AT 1:00 P.M. THE COURT HAS ALLOWED TWO (2) HOURS FOR THE HEARING. THIS
MATTER WILL CONCLUDE BEFORE OR NO LATER THAN 3:00 P.M. ACCEPTED BY: KDM TRANSACTION ,
ID: 62625403
...,4

07-NOV-2018 ± OFFICE CONFERENCE HELD
03:16 PM

L

TELECONFERENCE HELD JUDGE RICHARD F. STOKES PRESIDING DEFENDANT SANDRA HARMON'S
MOTION TO INVALIDATE AND DISMISS HEARD; THIS MATTER IS STAYED AND HELD IN ABEYANCE
UNTIL A RESOLUTION OF THE RELATED FEDERAL CASE. DATE DOCKETED: NOVEMBER 7, 2018

Entry:

07-NOV-2018 JUDICIAL ACTION FORM
03:21 PM

1

JUDICIAL ACTION FORM DATE DOCKETED: NOVEMBER 8, 2018 JUDICIAL ACTION FORM FROM
'TELECONFERENCE BEFORE JUDGE RICHARD F. STOKES ON 11-7-2018 ACCEPTED BY: KDM
TRANSACTION ID: 62645809
—

Entry:

.._
07-NOV-2018 ORDER
03:51 PM

--7----

"i

1
1

LETTER ORDER FROM JUDGE RICHARD F. STOKES TO SANDRA HARMON AND DAVID N. RUTT,
ESQUIRE 11-7-2018 FOR THE REASONS STATED ON THE RECORD AT THE TELECONFERENCE
' TODAY, PROCEEDINGS ON THIS MATTER ARE STAYED, AWAITING RESOLUTION OF THE RELATED
CASES PENDING IN THE UNITED STATES DISTRICT COURT, DISTRICT OF DELAWARE (HARMON VS.
1 SUSSEX COUNTY, CA. 17-CV-01817 AND HARMON VS. ADKINS AND DEPARTMENT OF FINANCE, C.A.
418-CV-1021) THE HEARING SCHEDULED FOR 11-9-2018 IS REMOVED FROM THE COURTS
CALENDAR. DATE DOCKETED: NOVEMBER 8, 2018 ACCEPTED BY: KDM TRANSACTION ID: 62646396

ntry--

,,.

1
t

09-NOV-2018 NOTICE
01:31 PM

NOTICE DATE DOCKETED: NOVEMBER 10, 2018 LETTER DATED 11-2-2018 ADDRESSED TO SANDRA
HARMON RETURNED BY THE POST OFFICE ON 11-9-2018 MARKED 'RETURNED TO SENDER - NO
SUCH NUMBER - UNABLE TO FORWARD" ACCEPTED BY: GGM TRANSACTION ID: 62654880

Entry:

+.------,e---

A

30-NOV-2018 NOTICE
I 11:30 AM
Entry:
I

{
—
'NOTICE DATE DOCKETED: DECEMBER 1, 2018 COPY OF MANDAMUS FILED IN SUPREME COURT
EXHIBITS 1-2 EXHIBITS 3-6 ACCEPTED BY: BC TRANSACTION ID: 62710923
,

r!6
06-DEC-2018
02:14 PM

_._...,„„__ .

.
— ,,... —

1

-0—

—

..---1

----i•

Case: 21-13' - Document: 12 Page: 29 Dated: 03/02/2021
I NOTICE DATE Dk.. -XETED: DECEMBER 7, 2018 COPY OF MAIIIRIUS FILED IN SUPREME COURT 12- ;
6-2018 ACCEPTED BY: GGM TRANSACTION ID: 62733381
-

Entry:

19-DEC-2018 I MANDATE FROM SUPREME COURT
08:47 AM

S.UPREME COURT DATE -D-O-CKETE-13: DECEMBER 20, 2018
MANDATE AND RECORD F-ROItTicE I CERTIFIED COPY OF ORDER DATED 12-3-18, TO THE CLERK OF COURT BELOW. CASE CLOSED. IT IS :

Entry:

i ORDERED THAT THE PETITION FOR THE ISSUANCE OF A WRIT OF MANDAMUS IS DISMISSED.

IACCEPTED BY: GGM TRANSACTION ID: 62783284

..

•••••••••=1.....

,
J

..

-..--t

-c

-+..--

19-DEC-20181TRANSCRIPT FILED
10:34 AM
'
Entry:

—
?TRANSCRIPT FILED DATE DOCKETED: DECEMBER 20, 2018 TRANSCRIPT OF TELECONFERENCE
; HEW ON 11-7-18 BEFORE THE HONORABLE RICHARD F. STOKES, FILED BY KATHY HAYNES,
12FFICIAL COURT REPORTER. ACCEPTED BY: GGM TRANSACTION ID: 62783780

19-JUN-2019 AFFIDAVIT OF NON-REDEMPTION
01:59 PM
Entry:

- -

TADAMS. RYAN T

1
AFFIDAVIT OF NON-REDEMPTION DATE DOCKETED: JUNE 20, 2019 AFFIDAVIT OF NON-REDEMPTION
ACCEPTED BY: GGM TRANSACTION ID: 63378513
,
---

i --

11-JUL-2019 WRIT RETURN (GENERIC)
08:06 AM
) Entry:

WRIT RETURNED: DATE DOCKETED: JULY 12, 2019 AMENDED WRIT RETURNED 7-11-2019 LANDS
AND TENEMENTS ADVERTISED AND SOLD ON 6-19-2018 TO WAYNE D. HUDSON, ROBERT J.
DOWNES AND DAVID R. DOWNES, THEY BEING THE BEST AND HIGHEST BIDDER, FOR THE SUM OF
$113,500.00 THAT BEING THE BEST AND HIGHEST BID ACCEPTED BY: BC TRANSACTION ID: 63533834

1
19-JUL-2019
05:22 PM

NOTICE

Entry:

1...._
RECEIVED FROM THE SHERIFF OF SUSSEX COUNTY, CHECK NUMBER 5554, IN THE AMOUNT OF
$88,653.29 FOR EXCESS PROCEEDS - MT DATE DOCKETED: JULY 19, 2019
.

-..".t.
t

06-AUG-2019 RECEIPT FLED
12:09 PM
Entry:

A Payment of -$88,653.29 was made on receipt SCU9332431

22-APR-2020 MOTION
09:05 AM

Entry:

MOTION DATE DOCKETED: APRIL 23, 2020 DEFENDANTS MOTION TO LIFT STAY AND PROCEED WITH ,
HEARING ON NOTICE OF OBJECTION TO SHERIFF SALE (PRO SE) ACCEPTED BY: SB TRANSACTION

04-MAY-2020 RESPONSE
04:25 PM

RUTT, DAVID N

RESPONSE DATE DOCKE I hp: MAY 6, 2020 PLAINTIFFS REPLY TO MOTION TO UFT STAY AND
PROCEED WITH HEARING ON NOTICE OF OBJECTION TO SHERIFF SALE (DAVID N. RUTT)
Entry:
PROPOSED ORDER EXHIBITS 1 THROUGH 5 TO REPLY MOTION CERTIFICATE OF SERVICE
ACCEPTED BY: SB TRANSACTION ID: 65615394
.
..,-*
1 15-MAY-2020 ftplaNSE
,
•
1

•

Dal

Case: 21-13' - Document: 12 Page: 30

Entry:

mir

j

101:02 PM

,

Entry:

L

RESPONSE DATE DOCKETED: MAY 16, 2020 DEFENDANTS RESPONSE TO DEPARTMENT OF
I FINANCE, OBJECTION TO LIFTING OF STAY ACCEPTED BY: SB TRANSACTION ID: 65639249
--

12-JUN-2020 ORDER
11
12:24 PM
lassawor

ed: 03/02/2021

.

.

-,--I

-

I
ORDER DATE DOCKETED: JUNE 13, 2020 ORDER SIGNED BY JUDGE RICHARD F. STOKES ON 6-12-20.
, IT IS ORDERED THAT MS. HARMON'S MOTION TO LIFT THE STAY IS DENIED. ACCEPTED BY: MMT
' TRANSACTION ID: 65695471 (ORDER SENT TO MS. HARMON IN ENVELOPE PROVIDED BY TINA)

1
f
1

21-SEP-2020 NOTICE
I 01:14 PM
Entry:

k-------- NOTICE OF LEFTON HARMON, SR. FILING PETITION FOR EXCESS SHERIFF PROCEEDS (S20M-09016) - TO CLAIM HALF DATE DOCKETED: SEPTEMBER 21, 2020

!
06-OCT-2020 , SHERIFF PROCEEDS DISBURSE REQ
104:58 PM
--,:,---S20M-09-016 ORDER TO DISBURSE HALF OF EXCESS SHERIFF PROCEEDS REC'D IN ACCOUNTINGEntry:
DM DATE DOCKETED: OCTOBER 6, 2020

07-OCT-2020 NOTICE
02:58 PM
Entry:

j
,
,

.1.
DISBURSEMENT OF 1/2 THE SHERIFF PROCEEDS PROCESSED - SEE ORDER ON CASE S20M-09-016- .
DM DATE DOCKETED: OCTOBER 21, 2020
------

Case: 21-13'

Document: 12 Page: 31

Datwo
• ed: 03/02/2021

Case 1:18-cv-01021-RGA Dodilfficgnear2v Ifligtnn/Nfli s t o of 50 Pagel() #: 144
Ftiorn: Stokes, Richard F (Courts) <Richard.Stokesepstate.de .uP
To: Sohara1988@aol.com <Sohara1966@aol.com>
Cc: dntuttamooreandrutt.com <dnrutt@mooreandrutt.corn>: Sanchez, Tina L (Courts) <Tina.Sanchezrastate.de.us>
Subject Dept of Finance v Leroy Harmon Heirs et al S18T-01-002
Date: Tue, Nov 6, 2018 4:34 pm

Dear Ms Harmon and Mr Rutt,

4,114;b4--

g-

nevois
it
s Pty

Please provide me with your phone numbers to arrange a conference call tomorrow. I want to know your
positions on whether the hearing set for Friday afternoon should be stayed given the federal case and if more
bearing time would be necessary should the case proceed. I will give the numbers to Tina Sanchez, my executive
assistant, and we will take it from there. Thank you. Richard Stokes

1

htIps://mailaol.com/webmitil-stdien-WPrintMessage

„r 3

1/1

Case: 21-13'

Document: 12 Page: 32

Da

• ed: 03/02/2021
3 of 50 PagelD #: 145

11/7/2018 Case 1:18-cv-01021-RGA Document 12 toger f1°/O18 P

11Nottme

t.toy Warms this a m$ sisrot.om

Nit Dm of

From: tot:8,010W -ctossrattearoset0000To: lectutrd.Storras ‹RictIont.Stokoseitstele items>
assioct ter Dept or Firmness Leroy Harms Hors ct at 818T-01.082
date: Toe, Nov 11, 21118 5:01 pm
havotalcso of tits* from work, end 1 would Pm the tutoring to ptoccod s<t otecdoisd. My context number is 302-245-11200,
—Original message—
From: Ssokos. Riehord l (Cout*)<Richord.Siotoweststo.es.us,
To: Sobanal988@nottyrn<Solutra1986@sol.cont>CetentutteimOorOanerurloorn ‹olattetellmooroandrult.corrr"; Sandoz. Tina L (Courts) <litts.&nclieVactolo.cle.us
Sent Tue, Nov 8, 20 18 434 pm
Sub1oct: °opt of Finance v Loroy Harmon Heirs ol at 518101-002

NM Ms Harmon end Mr Rod.

Memo provide me with your phone numbers to arrange a Onnfenance call tomorrow. I want to know your
positionson whether the hearIng set for Friday afternoon should be stayed givers the federal wee and If more
hearing time would be necessary should the case proceed. I will give the numbers to Tina Sanchez, my
executive eSelittant, and we will take it from them. Thank you. Ricitard Stokes

eirma

Tua 5„,

00

davt')-,
SS

re‘ tf

cci

ad

tvc.rd w

n% v.JA.

h tat tr4 5 101,
,

Jimi-e'

sc.",

vt_d

YSt

viik:d

al-civ-e..c) locktA4
IA

8.)4" r4J-r -

alek A7s

S
e-.0 r 1,41 OY1 4a\r% 19 IGLU...1r; 4h I

4"telt,

httoshresithrtscarmSmulsd:m.ses‘.40.r..sogo

fI T 1:(1

9ClA 1
it,. .0

C42,S-C.

CI,45 SC,644Aj *
1:1

1/1
file:///lItersissadraTuurnotaicturet/d%203jpeg

Case: 21-13'
11/7/2018

Document: 12 Page: 33

Case 1:18-ov-01021-P2CA

Dat' -led: 03/02/2021

DORCeiAclilfrince Vitattrogilift siFaye rtg 50

Pagel D #: 146

Frodar David Rutt e•dnrutt@mooreandrutt.com>
To: Stokes, Richard F (Courts) <Richard.Stokes@state.de.us>
Cc: Sohara1968@aolcom <Sohara1966@aol.com>; Sanchez, 'Tina L (Courts) <Tina.Sanchez@state.de.us>
Subject: Re: Dept of Finance v Leroy Harmon Heirs et al 518T-01-002
Date: Tue, Nov 6, 2018 10:07 pm

Good evening Judge Stokes,
I will be in my Milford office tomorrow. The number is 424-2240.1 have two appointments. The first is 9:30 10:30 and the second is at 3:00 - 4:00. Otherwise I will be available for the teleconference. Thank you.
David Rutt
Sent from my iPad
On Nov 6, 2018, at 4:34 PM, Stokes, Richard F (Courts) <Richard.Stokes@state.de.us> wrote:
Dear Ms Harmon and Mr Rutt,
Please provide me with your phone numbers to arrange a conference call tomorrow. I want to know your
positions on whether the hearing set for Friday afternoon should be stayed given the federal case and if more
hearing time would be necessary should the case proceed. I will give the numbers to Tina Sanchez, my executive
assistant, and we will take it from there. Thank you. Richard Stokes

httpslhuil.sol.com/webmail-stdien-us/PrintMessage

1/1

Case: 21-13''

Document: 12 Page: 34

Case: 19

II0111.111...111

Dat' —led: 03/02/2021

Document: 003113442410 Page: 36

Fled: 12/23/2019
fett, vsj

summit Cotea
OP TOE

STATE Of MAMMAS
RICHARD F. STOKES

SWIM =MY COWEEHOUSE
I THE CIRCLE. SUM I
Gloscriroww. aMAWAltE
TILIEPUOta
Ssit-s2S4

Maas

July 6, 201E
Sandra Hannon
815 F. Street
Hansaille, South Carolina 29550
Rat

hien W. Man
' Esquire
Moore & Putt. P.A.
122 West Matiret Street
Georgetown, Delmore 19947

Dowdily/at if Flames of Sin= Cosuoy v. Leroy Mtn friennort NAM

C.A. No. SUIT-01402

Tax Map Panes No. 344-19.8827.08
Deer Ms. Harmon and Counsel,
The Court is in ttoeipt of Ms. Human's Motion to Invalidge sad Dismiss This &don Doe
to Conflict of brarrest. PedutY, Violation of ?A der Rules of ProSisicaral Caution for Lawyers it
Improper hombres Used try Counsel Ebr PlaintifE dated June 18.2018.
By way ofOrder, &WI hew 18, 2018. the Court denied Ms. Himaxer s theappetading Moteou

to Dismiss this anion cal allowed the momitionitide to.proomitt as June 19, 2018. As a result, Ms.
Hanhates ht0t10010 Invalidate red Dismiss the ease is MOOT.
However. and as notad in the COMAS On* Ms. Henson may file an objection to the sale
with the Conn on or bdbre Thursday...My. 19. 2018. If Ms. Harmon elects to do so. the Court
requests that she specify witkpaniculerby the nature of her objection lathe age.

ocr Prothonotary

28118 39Vd

3314935 ssanana 3TV

tcSeic
etteEt

9TOZ162,411

Case: 21-13'
imams

Document: 12 Page: 35 Daif
• ed: 03/02/2021

Case 1:18-cv-0102.. . <GA Document 14 FsiedlaNtultitikte

.51u) iy%Iptgat.

SCI'EgIOR COURT
OP THE
STATE Or DELAWARE

RICHARD e. STOKES

ge 25 of 26 PagelD #: 219

SUSSEX COUNTY COURTHOUSE
I E CIRCLE. SUITE 2
GEORGETOWN. DELAWARE 19947
TELEPHONE 092) E$642$4

essmewrmact

November 1,2018

Swaim Harmon
815 F. Strut
Iltutsville, South Carolina 29550
Re:

David N. Itut2. Esquire
Moore &Rau, P.A.
122 West Market Street
(kowtow:4 Delcavare 15790

Department el Finance ((Sussex Coro* v. Leta, William Ilarman Heim

C.A. No. SIST-01-002
Tax Map Pared No. .344-11.08-27.00
Dear Ms. Harman and Counsel.
Por the =MOW stated on the record at the telcconfaenre that took place hoween the Court.
Ms. Harmon, and Mr. Rail on November 7, 7.018, proceedings on this; matter art STAYI1D. awaiting
the resolution of the related Ca= pending in United States District Count District of Delaware
Of PM ury Snssex County, C.A. 7-ev-01/1 I7 andIlar.vum v. Adidas& Department erinaner, C.A.

The hearing scheduled fbr Friday, November 9, 2018, is REMOVED (torn the Courri
calendar. The parties need not appear in Superior Court on %a date.
IT IS SO ORDERE)

Vcry truly yours.
fc"

FStokes

oc:

Prothortmary

cc:

Leroy William Harmon !kir*

Pat.= 14j

A—

Case: 21-13° - Document: 12 Page: 36

Dat

11/7/2018 Case 1:18-cv-01021-RGA Document 12 PAM TD36118 Pa

ed: 03/02/2021
of 50 PagelD #: 148

Cp11).19/41, V3 104 It)

SUPERIOR COURT
OF THE
srATE OF DELAWARE
RICHARD t STOKES

SUSSEX COUNTY COunTHOUSE
THE CIRCLE. Stan 2
GEORGETOWN. DELAWARE 19941
TELFTHONE (302) *56.5264

JUDGE

Angina 20, 2018
Saodru Harmon

Wara.miar
Etc

iason W. Adkins. Esquire
Moore & Rune P.A.
122 West Market Street
Deorgelown. Delaware 19047

Departmenr of Finance qrStstsex Camay v. Leroy William Harman Heirs,
C.A. No, 818T-01-002
Tax Map Pared No. 3-34-19M-27M

Dear Ms. .11:alum and Counsel,
The Court is in receipt gems. Hartntm's Notice of Objection. the Department of Finance of
Sussex Count y's Response thereto, Ms, I larracties Amended Notice orObjection, and Ms.11annon's
Motion to Dismiss. The Court A-mild like Ms. Hannon to clarify her nrgumeins. Accordingly. the
Court is ordering the axtrlics co appear in Superior Court in Sussex County, Delaware, on Friday,.
November 9, 2018, at 1:00 p.m. Ms. Hannon must appear in person; her failure to appear will
rexult in the dismissal of any objection to the monitions sole.
The Court requests that Ms. tlarmon bring whither any arid all documentation in support of
tter objection to the sale: The County should be prepared to document the notice given to she
property owners of the above-refereneed tax parcel and otherwise detail 'he process used to
elTeCluate the Monitions sale. If the parties prepare apiroprEately, the Court is hopeful it will be able.
to define what issues, if any, are properly before ii at this time.
IT (S SO ORDERED,

1/1
file:///Userrhattdra.harmondicturesk4201 jpeg

Case: 21-13' Document: 12 Page: 37

Date —led: 03/02/2021

E9portjelection Criteria
Case ID:
S17M-10-019
Docket Start Date:
Docket Ending Date:

Case Description
Case ID: S17M-10-019 - SUSSEX COUNTY VS LEROY WILLIAM HARMON
Filing Date: Monday , October 16th, 2017
Type:
MQ - SELL REAL ESTATE FOR PROP TAX
Status:
CLOSED - CLOSED

Related Cases
No related cases were found.
Case Event Schedule
No.case.events .were. found.
Case Parties
Seq # 1

Assoc Expn Date

1r

Type

Name

JUDGE

BRADLEY, E. SCOTT

Address:f SUPERIOR COURT
SUSSEX COUNTY
COURTHOUSE
1 THE CIRCLE - SUITE 2
GEORGETOWN DE 19947

Aliases: none

31

RESPONDENT

Address: 1 unavailable

4I

Aliases: 1 none

91

PETITIONER

I
Address: I unavailable

SHERIFF

6I

SHERIFF

Address: i unavailable

NEW CASTLE COUNTY, SHERIFF
Aliases: none

Address: 1 87 READS WAY
NEW CASTLE DE 19720

8

KENT COUNTY, SHERIFF
Aliases: none

Address:1 unavailable

Address: unavailable

DEPARTMENT OF FINANCE OF SUSSEX
COUNTY
Aliases: none

5

7

HARMON SR, LEFTON

•

1 RESPONDENT
1

A
RESPONDENT

HARMON, LEROY WILLIAM
Aliases: none

I

i HARMON, SANDRA J
Aliases: none

3

Case: 21-13' - Document: 12 Page: 38

Dat' —ied: 03/02/2021

—

i

9
I
r
Address: MOORE AND RUTT, PA
122 W MARKET STREET
GEORGETOWN DE 199470000

ATTORNEY FOR
PETITIONER

ADAMS, RYAN T
Aliases: none

Docket Entries
Filing Date

Description

16-OCT-2017 MISC-SELL REAL ESTATE PROP TAX
01:19 PM

Entry:

Entry:

Monetary

I ADKINS, JASON W
!

PETITION TO SELL REAL ESTATE MAP PARCEL NO. 3-34-19.08-27.00 DESCRIPTION: 37533 OYSTER
HOUSE ROAD, REHOBOTH BEACH, DE 19971 YEARS: 2017 DEMOLITION AMOUNT: $10,888.93 (JASON
W. ADKINS) EXHIBIT A DEMOLITION ORDER EXHIBIT B RETURN RECEIPT CARD EXHIBIT C FINAL
INVOICE AND NOTICE JUDGMENT IS ENTERED AGAINST: LEFTON HARMON LEROY WILLIAM
HARMON SANDRA J HARMON JUDGMENT AMOUNTS TO BE PAID AS FOLLOWS: SEPT 2017
DEMOLITION $7795.00 LEGAL FEES AND EXPENSES $3093.93 TOTAL JUDGMENT AMOUNT =
$10888.93 DATE DOCKETED: OCTOBER 17, 2017 ACCEPTED BY: KDM TRANSACTION ID: 61246721

17-OCT-2017 SIMULTAEOUS DISPOSED W/ FILING
10:17 AM
i

; Name

,

I
SIMULTANEOUS DISPOSED WITH FILING DATE DOCKETED: OCTOBER 17, 2017

1

17-OCT-2017 NOTICE
1
10:19 AM
.
Entry:
FILE ARCHIVED DATE DOCKETED: OCTOBER 17, 2017

27-SEP-2018 SUBSTITUTION OF COUNSEL
11:43 AM
Entry:

, ADKINS, JASON W

SUBSTITUTION OF COUNSEL DATE DOCKETED: SEPTEMBER 28, 2018 JASON W. ADKINS
WITHDRAWS AND RYAN T. ADAMS HEREBY ENTERS HIS APPEARANCE ON BEHALF OF PLAINTIFF,
DEPARTMENT OF FINANCE OF SUSSEX COUNTY ACCEPTED BY: BC TRANSACTION ID: 62495657

Case: 21-13'
Document: 12 Page: 39
Case: 19-3 i.-1 Document: 45-2 Page: 1

Dat 'ad: 03/02/2021
Dat_ .-iled: 06/04/2020

r)Lhibt-i- If 7
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3191

SANDRA HARMON,
Appellant
v.
DEPARTMENT OF FINANCE, Sussex Co. Delaware; JASON ADKINS, individually
and in his capacity as defense counsel for Sussex County Administration; SUSSEX
COUNTY BOARD OF ADJUSTMENT & APPEALS MEMBERS; DALE
CALLAWAY, Chairman individually and in his capacity as Chairman; ELLEN MAGEE,
individually and in her capacity as a board member; J. BRUCE MEARS, individually and
in his capacity as a board member; JOHN MILLS, individually and in his capacity as a
board member; E. BRENT WORKMAN, individually and in his capacity as a board
member; SUSSEX COUNTY ADMINISTRATION

On Appeal from the United States District Court
for the District of Delaware
(D.C. Civil Action No. 1-18-cv-01021)
District Judge: Honorable Richard G. Andrews

Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 20, 2020
Before: SHWARTZ, RESTREPO and NYGAARD, Circuit Judges
(Opinion filed: April 27, 2020)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Document: 12 Page: 40
Case: 21-13'
Case: 19-3 ,_ , Document: 45-2 Page: 2

Dat — 'ed: 03/02/2021
Da_ iled: 06/04/2020

PER CURIAM
Pro se appellant Sandra Harmon appeals the District Court's order dismissing her
complaint. For the reasons detailed below, we will vacate the District Court's judgment
and remand for further proceedings.
Harmon owned real property in Rehoboth Beach, Delaware. In January 2018,
Sussex County commenced a monition' action against Harmon to collect delinquent
sewer and water bills and costs incurred when it demolished her fire-damaged home.
Harmon claims that she paid the sewer and water bills, but that Sussex County and the
individual defendants never consulted with her about the demolition costs, failed to give
her notice of the monition action, charged excessively high interest on the demolition
costs, and sold the property at a sheriff's sale without providing her with a reasonable
time to pay the outstanding costs. She filed a complaint in District Court under 42 U.S.C.
§ 1983 alleging that the defendants had violated her constitutional rights.
The defendants filed a motion to dismiss arguing that, because the state monition
action remained ongoing, the District Court should abstain under Younger v. Harris, 401
U.S. 37 (1971). The District Court granted the motion. Harmon filed a timely notice of
appea1.2

"Monition" is "a legal process in the nature of a summons or citation to appear and
answer (as in default of performing some certain act)." Monition, Merriam-Webster's
Unabridged Dictionary (2016).
Harmon also filed a motion for reconsideration, which the District Court denied.
Because Harmon did not file a timely new or amended notice of appeal encompassing the
order denying her motion for reconsideration, we lack jurisdiction to consider that order.
See Fed. R. App. P. 4(a)(4)(B)(ii); Carrascosa v. McGuire, 520 F.3d 249, 253-54 (3d Cir.
2

2

Case: 21-13'Case: 19-s

Document: 12 Page: 41
Document: 45-2 Page: 3

Dal- -led: 03/02/2021
Da._ iled: 06/04/2020

We have jurisdiction pursuant to 28 U.S.C. § 1291. "We exercise plenary review
over whether the requirements for abstention have been met." Miller v. Mitchell, 598
F.3d 139, 145-46 (3d Cir. 2010).
We will vacate the District Court's judgment. The Court concluded that
abstention under Younger was appropriate because "(1) there are ongoing state
proceedings that are judicial in nature; (2) the state proceedings implicate important state
interests; and (3) the state proceedings provide an adequate opportunity to raise the
federal claims." ECF No. 23 at 6. These factors were set forth in Middlesex County
Ethics Committee v. Garden State Bar Association, 457 U.S. 423, 432 (1982).
However,. in Sprint Communications, Inc. v. Jacobs, 571 U.S. 69 (2013), the
Supreme Court "narrowed Younger's domain." Malhan v. Sec'y U.S. Dep't of State, 938
F.3d 453, 462 (3d Cir. 2019). "The Court explained—and we have stressed several times
since—that the 'three Middlesex conditions' are no longer the test for Younger
abstention." Id. (quoting Sprint, 571 U.S. at 81). Rather, courts must first analyze
whether the parallel state action falls within one of "three exceptional categories": (1)
criminal prosecutions, (2) "certain civil enforcement proceedings," and (3) "civil
proceedings involving certain orders uniquely in furtherance of the state courts' ability to
perform their judicial functions." Sprint, 571 U.S. at 78 (quotation marks, alteration
omitted).

2008).
3

Case: 21-1:3
Case: 19-3'1,-

Document: 12 Page: 42

Dagied: 03/02/2021

Document: 45-2 Page: 4 DaWed: 06/04/2020

The District Court therefore failed to apply the proper standard. See Hamilton v.
Bromley, 862 F.3d 329, 337 (3d Cir. 2017) (explaining, in similar circumstances, that
"[b]y not applying the correct test for Younger abstention, the District Court erred").
Accordingly, we will vacate the District Court's judgment and remand so that it can
decide, in the first instance, whether the state monition action falls within one of the three
classes of cases described by Sprint.3

3 We express no opinion about whether the monition action does fall within one of these
classes of cases, whether Harmon's claims have merit, or whether the defendants have
other meritorious defenses.

4

Case: 21-13'
Sr112014

•

Document: 12 Page: 43

Dat- -led: 03/02/2021

Case 1:17-cv-0181, -r2GA Document TAiligiletter WOO= ..Age 7 of 21 PagelD #: 197

iDeAaware State CourtConnect
\\,

PkoiSd::t19(4° 13
et_
...„

State of Delaware Courts
Judicial Case Database
fillittaltY-Person name.billtileliaxemeStEagliLlY421/
Search for judgmenti.Agairaaxtrson or business
Display case information and activities

Please note, the CourtConnect site is certified by ACS Government Solutions, a
Xerox Company, to support
Microsoft Internet Explorer, Google Chrome, !Koala Flrefox and Apple Safari
for searches to function in CourtConnect
I

tAipecouttcarand.coans.didawire.gov/petildelLpablicAmisain.quenakjdx

Ui

Case: 21-13'
61172°11Case

Document: 12 Page: 44

Da

1:17-cv-0181i-r<GA DocumerirtifIlWereeftfi.
g

eti

CKet

eporc

ed: 03/02/2021
of 21 PagelD #: 201

..••••

0*.s.

.

r

4.7au,;.1

BeRedilatadanIdleda
Case ID:
S1 8T-01-002
Docket Start Date:
Docket Ending Date:

Case ID: SI8T-01-002 - SUSSEX COUNT( VS. LEROY WILLIAM
HARMON
Ring
Friday , January 12th, 2018
Date:
Type:
JM - MONITIONS JUDGMENT
Status: NEW- NEW
Eigettrelit
No related cases were found.
Pfientthent Pttualsgh !Bassiftingba ►cistra2nettelkaa
►Itteaftitgi ►CEMEREtt Ntoctetraw
BOISIS41121
Cce*der Wm. Axt /CS rodeo XI Igo aimiteredbidevats.
0 Ifilltd
I XIS
iiipagidostisdo asizsbed idled b adithatiftessonot. ltarrathedsed
Dowe~etut 034 RP:06ft atbAxi. dm*. or Mows deinnalffid et Maxim careinklMr* ispaktitet
/1114Mitesentel Uoilasoldkposiopigkkas lial break. ma

Dat -led: 03/02/2021
Document: 12 Page: 45
7 of 18 PagelD #: 244
efftrarir .
, -r<GA Document 42
Case
1:17-cv-0181
Case: 21-13

41111116111..

•

Com Ek
S18T-01-002
DOCINtillert Date: 124AN-2018
lilikatEadling Date:

Quatliscatian
Came ID: SIST-01-002 - SUSSEX COUNTY VS. LEROY WILLIAM HARMON
Fling Datrx Friday, January 1, 2018
- MONITIONS JUDGMENT
NEW - NEW
Stalua:

Na camas** awe blend.
•

Casa Paten
Milan Das

Seg
2

tonne
OF
off*Ruseter OF FINANCE'
SUSSEX coutny

'Rips
PLARTIIFF

Aditteak anavallahfa

IWO

HARISON„ Mar 11411.11A111
DEFENDANT
Album 00110
0..•

L

DEFENDANT

Mama:

Addruarc usaigaildo

1Ntiligner"'''
V400110011_
_

MRS

I= SANDRA al.
DEFENDANT
Akasew na

I
a

I

a

Case: 21-13'
Document: 12 Page: 46
r
CI 1
1:17-cv-1181. .GA D tfigi fttigat”
F
• MO** wiaiiMabie
Aix nom
8
I
Addraak enavalaMe

SHERIFF

ed: 03/02/2021

NEW CASTLE COUNTY. SIERIFF
110149

9

ATTORNEY FOR ADKINS, JASON W
PLAINTIFF

Aden= P.MOORE 1 RUTT, PA
122 WEST. MARKET
STREET
P.O. BOX 554
GEORGETOWN DE
.

g-

Aliases: i =se

,
•t 4-„.
4r
'..4171"t
'"

5,0\st-

nackelosd.

Rine Dits Dasefiption
Name
C ':t., At r
124AN-2018 NT RUNG
P11
'KM AM
-,0
Balm
MAL FIUNG maanotis DATE DOCKETED: JANUARY 13, 2018
12,1A14.2018 INMAL
1018 AM

%,

1.
'MAL COAVLARIT DATE DOCKETED: JANUARY 13, 2018 COMPLAINT FOR
ENTRY OF JUDGMENT ON MONITION FILED. TAX MAP MRCS. NO.: 3.34. 19.08.27.00 DESCRWTION: 37533 OYSTER HOUSE ROAD, NAB 2734,
, :, r 4.,,
. :li
, ', .1:: - _ -z.i.,1' 7 4 ' 41 FANA4 RaVacal
.,
• . :iftl‘0".4";1.1” .
=4," 1
- - 4614;410,7614014
L
I!,
40
1 ==.
- pasectoe 'Aomori Accektert Bye
- , .z • i,. -' s,
E

81i

/

I

.../
18-JA1 18 WRIT
01•.414 PM
ciAld
I
1.........,
"MONITION 'MUT ISSUED ON 1/18M)18 - BC DATE DOCKETED: JANUARY 18,
Eery:
2018
24-JAN-2018 1,1IRIT RETURN - -. . 03'24 PM
BRIT RETURNEIX DATE DOCKETED: JANUARY 25;'Z018 wur RETURNED 1- I
Malay:
Impailandareipmemouisinarago

okeLaullaztiamem

2

Case: 21-1:4ed: 03/02/2021
Document: 12 Page: 47
e 9 of 18 Pa_ gel() #: 246
Case 1:i
7-cv-018.,.. .4GA Document 42 "
- 8
244018 MONITIONWAS POSTED ON THE
ON 1-23-M1
ACCEPTED ITY: BC TRANSACTION ID: 61806349
1-APR-2018
01:11 PM
'Entry:

z I .-. '
,
- EXPONAS)
,
iv ;-111
PRAEC1PE FOR:VEND EX
NurrioNi EXPONAS) DATE DOCKETID APRIL
13, 2018 VEND EX EXHIBIT A TAX MAP PRAECIPE ACCEPTED BY: BC
TRANSACTION ID: 61910829
.

18-APR•2918 EXEC
1Z47 PM
&thy:

VEND DC

ED-

.

I.
1
IT ISSUED 4/16/2018 - BC DATE DOCKETED: APRIL 16, 2018

1

......;.!, s
t,,->;;I:pvi, / ,
: ,.,: :. : in • -- - ,

--

,

t
-'

-MOTIONTO DISMISS DATE DOCKETED: JUNE 9, 20180EFEIOANTIS
TO DISMISS FILED 842018 MOTION FOR EMERGENCY
ANDPRELIMINARY
INJUCTION FRED IN US DISTRICT COURT AND THIRD CIRCUIT COURT OF
APPEALS EXHIBIT 1 EXHIBIT 2 EXHIBIT 3 ACCEPTED BY: BC TRANSACTION
ID: 82117391
, JASON W

137 JUN-20i8
3 AM

RS OF SHERIFF'S SALE AND PROOF OF POSTING
NOTICE TO
PURSUANT TO SUPERIOR COURT CIVIL RULE 89 (G) FILED DATE .DOCKETED:
JUNE 14, 2018 AFFIDAVIT OF PROOF OF MAILING atom A NoTicE TO
I, HERS EXHIBIT B RECEIPTS EXHIBIT C AFFIDAVIT OF POSTING
.E3041Bff D RETURN RECEPT.CARDS EXHIBITS E-G.FTETURNED ENVELOPES
.CaTWICATE OF SERVICE.ACCEPTED 'SC TRANSACTION ID: e2132959

71116444601fre
1

REVCOISE 00E-DOCKETED: JUNE 14 2018 RESPOMSEIMMON TO
Winslath BY DEFEHDANI* SANDRA ismatolo(ksoasw ADKINS)
EXHIBIT A EXHIBIT B EXHIBIT C CERTIFICATE OF SERVICE ACCEPTED et BC
TRANSACTION ID: 62135013
184104,2018 NancE
01:38 PM

EMI!:

Nonce DATE DOCKETED: JUNE 19, 2018 COPY OF US DISTRICT COURT
FIUNG OF MOTION TO ATTACH RECEIPT FOR FULL PAYMENT FILE 6484018
ACCEPTED BY: SC TRANSACTION ID: 62148941

tisprikessicamidearadeitaneirepillicAgibup_diaptifimee

Case: 21-13' - Document: 12 Page: 48
-

Da

Case 1:17-cv-0181 i-r<bA Document 42 " tgilretintri"

ip'led: 03/02/2021
e 10 of 18 PagelD #: 247

INION4019 ORDER
o415-POI.
ORDER DATE DOCKETED: JUNE 19,2018 ORDER SIGNED BY JUDGE
RICHARD F. STOKES 6-182019 THE COURT DECLINES TO GRANT PLAWMFPS
MOTION. THE SALE MAY PROCEED AS SCHEDULED ON JUNE 19, 2019
ACCEPTED BY: BC TRANSACTION ID: 62150259
1974944018
12:584019

$

rag.,

Q.erx) r

pOCKEIIED: ME 20, 2018 NOTICE OF LIS PENDENS FILED P4
TIE RECORDER OF DEEDS 649-2019 ACCEPTED BY: BC TRANSACTION ID:
62153216
..;;;Fe,....

MOM* DOCKETED: JUNE 22, 2018 oakBeimftisolion TO
941941.93ATE AND DISMISS ACTION FILED 6-21-2018 ACCEPTED BY: BC
TRANSACTION Et: 62161685

•

Case: 21-13'

.

Document: 12 Page: 49

Dat' -led: 03/02/2021

0

1

Report SelectioriCAteria
S17M-10-018
Case ID:
Docket Start Date:
Docket Ending Date:

CeagDassalpilon
Case ID: S17M-10-018 - SUSSEX COUNTY VS LEROY WILLIAM HARMON
Filing Date: Monday , October 16th, 2017
MQ . SELL REAL ESTATE FOR PROP TAX
Type:
CLOSED - CLOSED
Status:

Related Cases
No related cases were found.
Case Event Schedule
No case events were found.
Case Parties
Seq #

Assoc Expn Date

1I

Type

Name

JUDGE

STOKES, RICHARD F
Aliases: j none

Address: SUPERIOR COURT
SUSSEX COUNTY
COURTHOUSE
1 THE CIRCLE - SUITE 2
GEORGETOWN DE 19947
RESPONDENT

3

Aliases: none

Address: unavailable
PETITIONER
I

I

SHERIFF

6

SHERIFF

RESPONDENT

HARMON, LEROY WILLIAM
Aliases: none

Address: unavailable

Address: unavailable
1

NEW CASTLE COUNTY, SHERIFF
Aliases: none

Address: 87 READS WAY
NEW CASTLE DE 19720

8

KENT COUNTY, SHERIFF
Aliases: none

Address: unavailable

71

DEPARTMENT OF FINANCE OF SUSSEX
COUNTY
Aliases: none

Address: unavailable

5

HARMON SR, LEFTON

RESPONDENT

HARMON, SANDRA .1
Aliases: none

Case: 21-13'

Document: 12 Page: 50

Dat —ied: 03/02/2021

I.

ADAMS, RYAN T

ATTORNEY FOR
PETITIONER

i

Address: ITVI-00RE AND RUTT, PA

Aliases: none

122 W MARKET STREET
!GEORGETOWN DE 199470000

Docket Entries

Filing Date

Description

; =111111111111111111111111.
Nan

16-OCT-2017 MISC-SELL REAL ESTATE PROP TAX
01:08 PM

Entry:

Monetary i

ADKINS, JASON W

NOTICE OF LIEN MAP PARCEL NO. 3-34-19.08-27.00 AMOUNT: $3,021.84 (JASON W ADKINS)
JUDGMENT IS ENTERED AGAINST: LEFTON HARMON LEROY WILLIAM HARMON SANDRA J HARMON
JUDGMENT AMOUNTS TO BE PAID AS FOLLOWS: WATER - SEWER UTILITY BILLS AS OF 7-17-17
$3021.84 TOTAL JUDGMENT AMOUNT = $3021.84 DATE DOCKETED: OCTOBER 17, 2017 ACCEPTED
BY: KDM TRANSACTION ID: 61246658

17-OCT-2017 I SIMULTAEOUS DISPOSED W/ FILING
10:17 AM

Entry:

SIMULTANEOUS DISPOSED WITH FILING DATE DOCKETED: OCTOBER 17, 2017

17-OCT-2017 NOTICE
10:19 AM

Entry:

1

FILE ARCHIVED DATE DOCKETED: OCTOBER 17, 2017

27-SEP-2018 SUBSTITUTION OF. COUNSEL
11;39 AM

Entry:

-

; ADKINS, JASON W

SUBSTITUTION OF COUNSEL DATE DOCKETED: SEPTEMBER 28, 2018 JASON W. ADKINS
WITHDRAWS AND RYAN T. ADAMS HEREBY ENTERS HIS APPEARANCE ON BEHALF OF PLAINTIFF,
• DEPARTMENT OF FINANCE OF SUSSEX COUNTY ACCEPTED BY: BC TRANSACTION ID: 62495604

;
1

Document: 12 Page: 51

Case: 21-1:4
1,0121/201ei

Da

ed: 03/02/2021

_

a-1\lb. 11 c/V OV-7
TITLE 25

'se ,
VC,
-c&
L
"
4k,`Ctiov

Property*

osio

Mortgages and Other Liens
CHAPTER 29. LIENS OF THE STATE AND/OR US PO

NS

1 2901 Lies af taxes and other charges; Notice of Lien.
(aX1) Except as otherwise provided, 'lien" or liens" as used in this section shall arise whenever the
following charges, as defined in this section, are levied or imposed by the State or any political subdivision
thereof (including the Levy Court or county council of any county, any united, consolidated or incorporated
school district, or any incorporated town or city in this State) and such charges become due:
Real property taxes, including penalty and interest thereon;
School taxes, including taxes for a vocational-technical high school district or county vocationaltechnical center district, including penalty and interest thereon;
Service charges for maintenance or use of sewer systems, including penalty and interest thereon;
Service charges for maintenance or use of water systems, including penalty and interest thereon;
Service charges for garbage collection;
Charges for the costs of removing, repairing, razing or demolition of unsafe or illegal buildings,
structures and related building systems done through public expenditure;
Charges for duly authorized improvements or maintenance to the exteriors of buildings or
property done through public expenditure;
Assessments for the installation of sewer lines, water mains, sidewalks and curbing, including
penalty and interest thereon;
Fines and civil penalties associated with local building, property, maintenance, zoning, subdivision,
drainage, sewer, housing, sanitation, or animal code citations, tickets, or violations. When authorized
by local ordinance, the unpaid amounts of such fines and civil penalties may be added to local
property tax billings for the property which was the subject of said citation, ticket or violation. "Civil
penalties" as used in this section shall include any assessment, fee, charge, or penalty issued pursuant
to an administrative procedure adopted by any political subdivision of the State with authority to
implement such administrative procedure, the imposition of such civil penalty being final and
nonappealable. "Fines" as used in this section shall include any fine imposed by any court and any
civil judgment awarded to the State or any political subdivision thereof entered pursuant to § 41o1 of
"ride 11 or otherwise;
Fees imposed by law or ordinance of any political subdivision of the State, which shall include,
without limitation, municipal corporations, for registration of ownership of any vacant buildings
located within the political subdivision, the imposition of which fees is final and non-appealable; and
Ifltvildekodeildwareignhider251429faltlexAtod

1/5

Case: 21-1

Tiara&et

0

Document: 12 Page: 52

ed: 03/02/2021

P • ft - f f. .
•
ffa'r: t F I
•
%fitagt3aVadiesinly time and
without receiving payment of all charges owed by the chargeable, release from the lien created hereby
any or all parcels of real property owned by the chargeable by filing a writing to that effect with the
prothonotary, and such release shall be without prejudice to the right of the political subdivision to
collect the remainder of any charges from any real property of the chargeable that is subject to the lien
created under this subsection (b) and has not been so released. Any release, whether partial or complete,
shall be noted in the index for Notices of Lien.
A Notice of Lien shall be ineffective as of the date all charges owed by the chargeable have been paid
in full, subject to paragraph (b)(7) of this section.
A Notice of Lien shall be effective for a period of 3 years after the date of filing such notice, unless
the political subdivision files a subsequent Continuation of Lien against the same chargeable prior to the
expiration of the 3-year period and in such event the lien created by the subsequent Continuation of Lier
will have priority as of the date of filing of the previous Notice of Lien. A Continuation of Lien will be
effective for a period of 3 years following the initial 3-year period of the Notice of Lien and shall
constitute a lien against any real property acquired by the chargeable after the filing of the Notice of
Lien, and located in the county in which the Notice of Lien was filed. No more than 1 Continuation of
Lien may be filed for any I Notice of Lien, provided, however, that this limitation shall not preclude the
later filing of a new Notice of Lien against the chargeable which shall be effective and have priority as of
the date of such later filing.
Upon written notice by the chargeable to the political subdivision that all charges for which the
Notice of Lien was filed have been paid, the political subdivision shall enter a satisfaction of record on
the Notice of Lien index.
Nothing contained herein shall be deemed to affect or limit the ability of the political subdivision to
collect any charge through any other legal procedure including, without limitation, proceedings
pursuant to a Writ of Monition.
All liens for the nonpayment of charges (including any created pursuant to § 8701 of Tittle 9), other
than the lien upon the real property against which the charge was levied or imposed as provided in
subsection (a) of this section, are hereby extinguished, provided, however, that this subsection shall not
affect any lien obtained by any political subdivision prior to October 5,1990, by any legal procedure
including, without limitation, proceedings pursuant to a Writ of Monition.
15 Del. Laws, c. 476; 16 Del. Laws, c. 14419 Del. Laws, c. 556; Code 1915,.§ 2870; 40 Del. Laws, c. 238, §§ 1-3;
Code 1935, § 3351; 25 Del. C '953, § 2901; 62 Del. Laws, C. 374, § 1 67 Del. Laws, c. 127, § 3; 67 Del. Laws, c.
445, § 1; 68 Del. Laws, C. 279, §§ 1-3; 70 Del. Laws, c. 431, §
DeL Laws, c. 387, §§ 2-5; 74 Del. Laws, c.
382, §§ 1-3; 75 Del. Laws, c. 212, §§ 3-5; 75 Del. Laws, c. 334 § 3; 81 Del. Laws, c. 162, § 2.;
§ 2902 Attachment of lien to proceeds of sale.
In case any real estate upon which a tax lien exists is sold by an order of the Court of Chancery directing an
executor or administrator to sell the real estate to pay the debts of a deceased person or is sold by virtue of
an execution process, such tax lien shall be transferred to the fund arising from such sale in the hands of
the officer making the sale, and the real estate so sold shall be discharged therefrom. If the fund is not
sufficient to pay and discharge the tax lien, by reason of the real estate having been sold subject to another
or other lien or liens created by the taxable, the unpaid billPluv, of the tax shall remain a lien upon the land
so sold.
15 Del. Laws, c. 476;16 Del. LAWS, C. 141; 19 Del. laws, c. 262; Code 1915, § 2870; 40 Del. Laws, C. 238, § 3;
1935, § 3351; 25 Del. C. 1953, § 2902.;
T2903 Duration of lien.

Case: 21-1

Document: 12 Page: 53

ed: 03/02/2021

: S,
estate
.
_
;
(a) In NSAVAiik
within'the County for is years from July i of the year for which the taxes were levied, but lithe real estate
remat—s
".: eie property of the person who was the owner at the time it was assessed, the lien shall continue
until the tax is collected.
(b) In Kent and Sussex Comties the lien for county and state taxes shall remain a lien for the period of 2
years from July r of the year in which such tax has been imposed and no longer, and the lien for school
taxes shall remain a lien for the period of 2 years from August ro of the year in which the tax has been
imposed and no longer, and the lien for town or municipal taxes shall remain a lien for the period of 2 year
from the date prescribed by the charter of the town or city for the delivery of the duplicate of the town or
city to the collector thereof and no longer. The collectors, in collecting taxes out of real estate upon which
they are a lien under the provisions of 6 2901 of this title, shall proceed in the manner prescribed by law for
the collection of taxes out of real estate.
15 Del. Laws, c. 476;16 Del. Laws, C. 141; 19 Del. Laws, c. 556; 20 DeL Laws, Appendix, page 8, § ii; Code
1915, 66 1152, 2870. 33 Del. Laws, c. 82, § 2; 40 Del. Laws, c. 135, § 1; 40 Del. Laws, c. 238, §§ 1-3; Code 1935,
66 1348, 3354 25 Del. C. 1953, § 29034
§ 2904 Payment of tames by lienholder; action for collection.
Any person having a Hen upon any real estate located within the State may pay to the parties entitled
thereto any taxes which are by law liens upon or against the real estate. Any person who has paid any such
taxes shall be entitled to receive the full amount of such taxes so paid from the owner of the property or
properties upon which the taxes were a lien and may proceed in any court of competent jurisdiction to
collect the same in a civil action for moneypaid out and expended for the use of the defendant.
15 Del. Laws, c. 476;1.6 Del. Laws, c. 141; Code 1915, § 287o; Code 1935, § 3351; 25 Del. C. 1953, § 2904.;
§ 2905 Action by lienholder to collect tax lien; amount of recovery; affidavit of demand.
In any action brought to collect any lien upon real estate located within this State, the lienholder shall
obtain in the final judgment in the cause the amount of money paid on account of the taxes levied upon the
real estate covered by such lien or liens, provided there is set forth in the affidavit of demand filed in the
action an itemized list of the taxes paid, the total amount of the payments, that the taxes were justly and
truly due at the time of payment and that attached to The affidavit of demand are original and duplicate tax
receipts from the officer to whom such taxes were paid. The affidavit of demand shall be filed as any other
affidavit of demand is or shall be required to be filed in such proceeding. If judgment has been obtained
prior to the payment of the taxes, then, and in that event, such affidavit of demand shall be filed in the
office where such judgment is recorded and the amount thereof shall be noted on all writs issued in
execution of such judgment or judgments and shall be collected and paid by the officer to whom such writ
of execution is issued before any other part of such judgment is paid except only the costs taxed on the
proceedings as shown on the writ and any amount of taxes levied and unpaid which constitute a lien on the
real estate.
15 Del Laws, c. 476;16 Del. Laws, c.141; Code 1915, 6 287o; Code 1935, 6 3354 25 Del. C.1953, 6 2905.;
§ 2906 Priority of liens of the State and political subdivisions on real estate; extinction of such
liens.
(a) Except as otherwise provided in subsection (b) of this section, liens for taxes and other government
charges levied and imposed by the State or its political subdivisions, which liens are assessed against real
property, shall be equal in status, regardless of the time of assessment of said lien; no such lien shall have
priority over any other such lien in the distribution of proceeds of the sale of real estate pursuant to a writ
of venditioni exponis, levari facies or any other process or order of any court resulting in a sheriffs sale. In
cal

MACAO

•

Case: 21-1

14141--6

Document: 12 Page: 54

Da

1514010MIK rng.:

ed: 03/02/2021

1:411741P16141i3

TITLE 9 (0

.44

Counties
County Taxes
CHAPTER 87. COLLECTION OF DELINQUENT TAXES

Subchapter IL Monition Method of Sale
§ 87at Monition method established.
In addition to all existing methods and authority for the collection of taxes due to the tax collecting
authority, or former County Tax Collectors, or former Receivers of Taxes and County Treasurers of New
Castle or Sussex Counties, the monition method and authority is established.
Code 1935, 138141; 46 DeL Laws, c• 133, §
Laws, c• 85, § 2.5A; 60 Del Laws,
Del. C. 1953, § 8721; 55
e- 675, i1 r. 2; 61 Dd. Laws, c. 391, 1, 2; 7a DeL Laws, c. 4c1, 115.;
8722 Pmedpe; judgment; monition.
(a) The tax collecting authority may file a praecipe in the office of the prothonotary of the Superior Court in
and for the county where the property is located.
(b) The praecipe shall contain the name of the person against whom the taxes sought to be collected were
assessed, a copy of the bill or bills showing the amount of taxes due, and the property against which the
taxes were assessed. The description of the property, as the same appears upon the assessment rolls of the
county where the property is located, shall be a sufficient identification and description of the property.
Thereupon the prothonotary shall make a record of the same on a special judgment docket of the Superior
Court against the property mentioned or described in the praecipe which record shall consist of the
followinc
The name of the person in whose name the assessment was made;
The description of the property as the same shall appear upon the assessment rolls;
The year or years for which the taxes are due and payable;
The date of the filing of such praecipe;
The amount of the judgment, the same being the amount set forth in the praedpe.
Such judgment shall be indexed in the judgment docket itself under the hundred in which the property is
located as the location appears upon the assessment rolls so prepared, and under the hundred by
and by
communities where the name of the community appears upon the assessment rolls so
referring to the page in the judgment docket whereon the record shall appear.
a

.

(c) Thereafter upon a praecipe for monition filed in the office of the prothonotary by tax collecting
authority, a monition shall be issued by the prothonotary to the sheriff of the county where the property is
located, which monition shall briefly state the amount of the judgment for the tans due and the years

Case: 21-1
WICIACUlts

•?.

Document: 12 Pa e: 55
'

6.41

•

•

"

Da
414

ed: 03/02/2021

• :.!, r

•1

'

i

W.U2131 U2C

4:
IT. I se e property as appears upon
taxa ge a
(rd) The tax collecting authority for New Castle, Kent and Sussex Counties may initiate and complete the
by the authority as
an unknown owner for a
tymonitions process against
continuous period in excess
- Notwithstanding that an investigation
notwithstanding anyprovision of this chapter to the contrary, the
performed,
taxing authority shall be exempted from any obligation expressed therein that cannot be satisfied due to the
absence of a known owner, including but not limited to notification of sale to the record owner and
of copies of bills showing amounts due.
Code 193S, § 1381A; 46 Del. Laws. c. 133. § Del C. los& § 8722; 55 Del. Laws, c. § 25E; 6o Del. Laws,
675, §§ 2, 3; 61 Del. Laws, c. 391, §§ 1, 2; 71 DeL laws, c. 403., $120; 71 Del Laws, c. 4o1, § us; 75 Del. laws,
c. 119, §
§ 8723 Form of moiddon.
The monition shall be in substantially the following form:
To all persons having or claiming to have any tide, interest or lien upon the within described premises,
take warning that unless the judgment for the taxes or assessment stated herein is paid within 20 days
after the date hereof or within such period of 20 days, evidence of the payment of taxes herein claimed
shall be filed in the office of the prothonotary, which evidence shall be in the form of a receipted tax bill
or duplicate thereof, bearing date prior to the filing of the lien in the office of the prothonotary for the
county where the property is located, the tax collecting authority may proceed to sell the property herein
mentioned or descried for the purpose of collecting the judgment for the taxes or assessments herein
stated, including accrued penalties and all costs incurred in the collections process.
Name of person
in whose name
Description Year Amount
of or of
Property is
•

11 :IP11::ill:114/

"

4. 1.4

"

property Years Judgment
assessed
Code VS, § 138IA; 46 DeL laws, c.1.33, § I; 9 DeL C. 1953, § 8723; 55 DeL Laws, c. 85, § 251r; 6o Del. Laws,
c. 675, §§ 3, 4; 71 Del. laws, c. 401, §§ 15, 1214
§ 8724 1Peating of monition; allterara return; alias or plories monition.
The monition, or a copy thereof, shall be posted by the sheriff upon same prominent place or part of tin
property against which the judgment for the taxes or assessment is a lien, and the sheriff shall make due
and proper return of his or her proceedings under the monition to the prothonotary, within ro days after
the posting of the monition.
Alias or pluries monition may issue upon like praecipe. The posting of the notice as herein required
shall constitute notice to the owner or owners and all persons having any interest in the property.
Code 1935, §1.381A; 46 Del. Laws, CAM, § 4 9 Del. C 1953, § 8724; 70 Del. Laws, c. 186, §
8725 Issuance and form of writ of vendidoni exponaa,

70-4v

(a) At any time after the expiration of 20 days following the return of the sheriff upon the monition, unless
before the expiration of the 20 days the judgment and cost on the judgment shall be paid or evidence of the
payment of such taxes evidenced by a receipted tax bill or a duplicate thereof bearing date therefor prior to
the firing of the lien for record in the office of the prothonotary, upon application in writing by the tax
collecting authority, a writ of venditicsai exponas shall issue out of the office of the prothonotary directed to
the sheriff commanding the sheriff to sell the property mentioned or described in the writ and make due
return of such proceedings thereunder in the same manner as is now applicable with respect to similar

Case: 21-1:3Case 1:18-ov-010214.

bactiawit

Document: 12 Page: 56
Document 14 Filed 12/13/7a

Case No. S17111-10-019
IN THE SUPERIOR COURT OF THE STATE OF DELAWARE
)th
-3
In The Matter of,
Case No.
:
Leroy William Harmon Her.,
Sr.
:
Harmon
Lefton
and
Harmon
J.
Sandra
Tax Map Parcel No: 3-34-19

gig

\0

PIOTICE QF LIEN AITIDAVIT; 5
STATE 01? DELAWARE. :
:
COUNTY OF SUSSEX :

SS

•1 \
.
IP

•

. %
ftl4),Y1
ew
4,PN, N
O gi'
i \\

BE IT MilEMBEMCD, that on this WdKy_d_Qctokr.2ejykersonally appeared
before me, the Subscriber, a Notary Public for the State and Comity aforesaid, Jason W.
Esquire lorover to me pasonally to be such, who, after having been duly sworn account* to law,
deposes and says:
I am an Assistant Attorney for Sussex County.

I

This Affidavit is filed pursuant to 25 Del. C. §§ 2901, 4601, and shall constitute a
Notice of Lien porn and to the aforesaid statutory provisions.
Leroy William Harmon Heirs, Lefton Harmon, Sr. and Sandra Harmon are
the assessed awn= of record on the tax assesSment rolls for Sussex County for Tax Map Parcel
No: 3-34-19.08-27.00, and against Leh certain dunes have been levied or imposed for the
Demolition of a structure punxiant to Article 111, §71-32 of m Susses County Code Ouseineer
the 'Chargeable").
Charges as set forth hereafter have been duly levied or imposed upon the
Chargeable.
- The type of charges and the amount of such charge as of the date of the filing of
this Notice of Lien are as follows: ,
rroperty Address: 37533 Oyster Howse Road, N/RD 273-C, NY/LEWBS-REHO
'e .4
CANAL, Rehoboth Beach, DE 19971
Tax Map Pared Number 3-34-19.118-27.00
„„n
ie,

)(

.5 CUI

ri.t

5,,(d

W qi 9 uwar

3

\idl
t A 4-

Sent 2017 DemolitiOn - .1 $7295.00
.):(1," [Idegai
Fees & Exoceses
23493.93
110.888.93
Total;

dr1/414
44/01.

via) rij
J II t

RHIBIT

D

Case:
Document: 12 Page: 57 Dat
Filed 12/13/18 Pi
21-1Z Document
Case 1:18-v-01021

-led: 03/92/20
.8 of Zb vage311 #: 22

6.
The Chargeable has failed to pay these charges despite notice thereof A
Demolition. Order was issued that acquired sedan on or before June 24.2017, a copy of which is
attached hearty as Exhrlit A, that sins served in accmdance with §71-27 of the Sussex County
last
the same via certified mail. return
Cbde
!1:.
ntied retinal— u steadied hereto
it.
address. as evidenced by
Sussex
demolition oaamteclon or a
- 1, 2017. A final invoice
Cmmty's intent to record this Notice alien. a copy ofwhich is attached hereto as Rdalit 4 was
seat to the owners using the addresses Wadded. in the rural Invoice. According to a search
peaftsmed by Sussex County, there were no valid lien holders of record that were required to have
received notice.
"

11

:Ole

"

"

Ibis Notice of Lien shall, as of the date of the filing these:4 be and ctmatitnte a lien upon
&real propenty of which the Maned& is gazed in Sussex County. Pursuantto25Pal. C. SectiOrt
2901(b), Article Ili §71-33 of the Sass= County Code, and 25 Del. § 2901(4(0(4 a tax lieu
is hereby established that is to be assessed and collected in the same manner as over real estate
taxes lathe amount of 810,888.93.

ason W. Adkins, Escluile
Assistrmt County Attorney
Bar Id 5859
S.

SWORN TO AND SUBSCRIBED before me on this 16th day of October, 2017.
lattii4o

...
-

-x
-

s%

V0,

F.

tictlit11,494

Director of Tmance &Sussex County, Delaware.

Taw JUDGMENT LIEN FULLY PAID AND SATISFIED ON THIS
OF

20

.

DAY

DIRECTOR OF FINANCE
2

Case: 21-1?'

DIed: 03/02/2021
e 1 of 9 PagelD #: 134
Case 1:18-cv-01021-RGA Document 11 Filed 10/26/18
Document: 12 Page: 58

yLiht.)D 19- 41-

On- /7- 0)-1 )(-114"

THRU: OFFICE OF THE US ATTORNEY- Delaware District
ATTN: David Weiss
1313 N. Market Street
Wilmington, De. 19801
THRU: Delaware State Department of Justice
ATTN: Matt Dehn
820 N. French Stieet
Wilmington, De. 19801

uu

OCT 26 2018

DISTRICT OF

THRU: US District Court- Delaware
ATTN: Judge Richard Andrews
844 N. King Street
Wilmington, Delaware 19801
TO: Sussex County Superior Court
ATTN: Judge Richard Stokes
1 The Circle, Ste. 2
Georgetown. De. 19947

RE: Intentional Misconduct, and Fraudulent Data recently entered on court
records. In case Dept. of Finance of Sussex County vs. LeRoy William Harmon
Heirs. C.A. No.: S18T-01-002

Please note that documents wezre recently uploaded under my deceased
husbands name that are false and misleading.
Specifically noted is Plaintiff Letter Exhibit No. 1, which notes a Judgment for
Water and Sewer in the name of LaMont Harmon taken from the Delaware Court
Website.
1. At the time of this alleged judgment, we were not required to pay water
nor sewer because the house used a private well and septic.

,

Case: 21-13'

Document: 12 Page: 59 Dallied: 03/02/2021

Case 1:18-cv-010,.....-RGA Document 11 Filed 10/26/18

ge 2 of 9 PagelD #: 135

The County did not require connection to the county utilities until around
2008, when they adopted their ordinance 12/16/2008. Plaintiff Ex. 2 (2
pages)
Therefore, the new docket entry is false and misleading.
Moreover, LaMont Harmon became a registered owner by deed after 2003,
when a land encroachment issue was settled with Hudson and Downs.
Prior to that date, the property was in the name of the Late LeRoy Harmon
heirs.
It appears as if someone inside the court is unlawfully tampering with court
records in a direct attempt to obstruct justice in this case.
Attorney Jason Adkins unlawfully sold my Rehoboth Beach property using a
monition petition although he was aware of my whereabouts, and the
unknown owner for 5 years, the 2 year tax lien all were disregarded, as he
sought full judgement of demolition costs within 32 days of the
demolitions— then obtained judgement within 4 months and unlawfully
sold my property at sheriff sale when I turned down a 300000.00 cash sell
offer from his friends. He apparently received a great deal of funds from
his unlawful conduct, as he was able to leave his law firm and open up his
own private practice firm according to the Oct. 2, 2018 newspaper article.
8:. However, the only Judgment against my deceased husband LaMont
Harmon was the Judgment listed on Plaintiff Letter Exhibit 3 From A local
bank, and it was not a judgment against the property because the property
was not in his name.
This conduct on behalf of Attorney Jason Adkins and his co-conspirators need
to be stopped/. It's extremely to stressing. It's the reason I filed federal action
that predated this state action that was filed only for the purpose of obstructing
justice and interfering with the previously filed federal action. I continue to
monitor the court docket weekly for changes, due to my distrust of the current
court climate in Sussex County. Yes, I understand Jason Adkin's grandfather
Served as a Judge in Sussex County Superior Court & my understanding the
Supreme Court in Delaware as well. Despite this fact, a lid needs to be placed on
the unconscionable, and unlawful conduct of Jason Adkins and the influence he
has with court personnel in the various departments of the Court. He is
committing crimes.

Case: 21-12'

• ed: 03/02/2021
Document: 12 Page: 60 Da0

Case 1:18-cv-01021-RGA Document 11 Filed 10/26/18

e 3 of 9 PagelD #: 136

Please look into this matter prior to the court hearing objecting to the
unlawful sheriff sale of my Rehoboth Beach, Delaware real estate set for
November 9, 2018 at 1:00pm.

Dated: October 21, 2018

irk-t-6411171)
Sandra Harmon
815 F Street
Hartsville, SC 29550
Sohara1966@aol.com

r.-

co

\,

c\i
EN

co

ii
0
co
rj

0W

cp t
cn
e

co
0 4.5
r-

Document: 12
Case: 2 1-13'

Case 1:1
8-cv-01Uzi
-RGA Document 11

co -0
ai
cs)
co

Case ID:
SS99G-09-007
Docket Start Date:
Docket Ending Date:

°)

t
v.

i

aio

Report Selection Criteria

"r
-.Art-S-6_
,_____ ____
(fingAA,

Case Description
Case ID: SS996-09-007 - SUSSEX COUNTY VS LAMONT HARMON
Filing Date: Monday , September 27th, 1999
Type:
JR - WATER & SEWER TAXES JUDGMENT
Status:
NEW NEW

Related Cases
No related cases were found.

Case Event Schedule
No case events were found.
Case Parties

Seq #

Assoc Expn Date

1
Address: unavailable

Type

Name

PLAINTIFF

SUSSEX COUNTY
Aliases: none

2

DEFENDANT

Address: unavailable

HARMON, LAMONT
Aliases: none

(Y)

a)
U)

co

Case 1:18-cv-010'zi-RGA Document 11

Document: 12

Docket Entries
Filing Date

Description

27-SEP-1999
12:00 AM

CASE CAPTION

Entry:

SUSSEX COUNTY — VS — LAMONT HARMON

27-SEP-1999
02:37 PM

JUDGMENT FILED

Entry:

SEWER AND WAil.R. LIEN FILED 9/24/99 - KDM SEE SEWER AND WATER LIEN BOOK 113

31-MAY-2008
08:00 AM

JUDGMENT BOOK AND PAGE

Entry:

Recorded Date: 9/27/1999 Recorded Book: 3 Recorded Page:

Name

Case: 21-1?

Document: 12 Page: 63

Da

- leig
e 1:18-cv-010.-RGA Document 11 FilWidP
itOoreil
41,‘

ed: 03/02/2021
ft: 199
V

asoft
)
if.L
fp

,c

A

B

Q.
fp
CO

3

14

es

3

Ic

a

lb

r.
0

•

Case: 21-13

10/202018

Document: 12 Page: 64

Daf -led: 03/02/2021
kNi .ervice
Case 1:18-cv-010‘1.-RGA Documennimunnlegnm
Page 7 of 9 PagelD #: 140

43'1APiitr 31V) Wato.4 arn3fi,:wory;

Article VII: Use of Public Water Service
§ 110-42 Connection required.
The owners of all houses, buildings or properties used for human occupancy, employment, recreation or other purposes situated
in an area served by a Sussex County water district and abutting on any street, alley or right-of-way in which there is now located
or may in the future be located a public water main of Sussex County are hereby required, at their expense, to connect, in
accordance with the Technical Bulletin for Building Sewer and Water Service and the provisions of this chapter, within 180 days
after the date of official notice to connect.

§ 110-43 Permit required.
No unauthorized person shall uncover, make any connections with or opening into, use, alter or disturb any public water main or
appurtenance thereof without first obtaining a permit from the Engineer.

§ 110-44 Permit application.
Application for a permit to install and connect a water service pipe shall be made by a plumber, licensed in the State of
Delaware, who will install or supervise the installation of the water service pipe. The application will be made on forms
provided by the County and shall be supplemented by any plans, specifications or other information considered pertinent in
the judgment of the Engineer. The application shall be signed by the licensed plumber and the owner or the owners
representative of the building having the water service pipe connected thereto. if approved, the application will be signed by
the Engineer or his authorized agent and will constitute a permit.
An application for a permit shall be made to increase the size of an existing service. The cost of increasing the size of the
service shall be borne entirely by the applicant.

§ 110-45 Separate water service required.
A separate and independent water service shall be provided for every dwelling, building or property used for human occupancy,
employment, recreation or other purpose. A water service, water meter and water service pipe shall not service more than one:
Dwelling house, either detached or one side of a double house or a house in a row of houses, provided that a garage, a
guesthouse and similar features incidental to the family fife shall be considered as a portion of the dwelling.
Industrial, commercial or manufacturing establishment.
Building separated from adjacent buildings by a party wall or walls and comprising apartments, stores, offices or a
combination thereof.
Detached building comprising apartments, stores, offices or any combination thereof.
Establishment consisting of individual dwelling units under the management of a single commercial or cooperative entity.
Unit of property commonly referred to as a "condominium unit" and/or "unit property," subject to the requirements Title 25
of the Delaware Code, Chapter 25.
Property which is converted from ownership by a single commercial or cooperative entity or from any other form of
ownership to condominium units shall comply with the requirements of this article.

§ 110-46 Use of water on premises.
bttpmiletozdt360.com/8883211

"4

Document: 12 Page: 65

Da

led: 03/02/2021
6/18 We 8 of 9 PagelD #: 141
Case 1:18-cv-01021-RGA Document 11 Filed 10/2
.0
Case: 21-1?

E

to

0*
I
a
1
,.
0
0

zi

r

23

o

0
7

a
SI
...

2

I

2
< .

••••..%

'7

go

I
•
)

Document: 12 Page: 66 Da0
• ed: 03/02/2021

Case: 21-1?

Case 1:18-cv-010i..-RGA Document 14 Filed 12/13/18

ge 1 of 26 PageiD #: 195

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE

.1

7
Sandra Harmon
Plaintiff

DEC 13 2018
Case #:

I :18-cv-01021

US DISTRICT cour.T
[DISTRICT OF DELPA::-.::E

vs.
Department of Finance Et. al
Defendants

BRIEF IN SUPPORT OF PLAINTIFFS' MOTION FOR SUMMARY JUDGEMENT

'Sandra Harmon, Plaintiff
Sohara1966@Aol.com

815 F Street
Hartsville, SC 29550

Dated: December 10, 2018

2

Case: 21-13'

Document: 12 Page: 67

Dat

03/02/2021

Case 1:18-cv-0102.., riGA Document 14 Filed 12/13/18 . ...ge 2 of 26 PagelD #: 196

TABLE OF CONTENTS

STATEMENT OF NATURE AND STAGE OF THE PROCEEDINGS

p.6

SUMMARY OF ARGUMENT

p.6-7

I.

FACTUAL BACKGROUND

p.7-8

IL

LEGAL BACKGROUND

p.8

III.

ARGUMENT

p.9-I2.1-}-

IV.

STANDARD OF REVIEW

p.9

PLAINTIFF CONTENTIONS

p.9-12

CONCLUSIONS

CERTIFICATE OF SERVICE

p.12-13
p.14

APPENDIX OF EXHIBITS ATTACHED
EXHIBIT NO.
I. Delaware State Law Title 9 Del. Code 8722(d). Monitions
Monition Description of Property dated Jan. 18, 2018
Notice of demolition Lien Affidavit
Excessive interest- Real Estate
June 18 Court Order authorizing sheriff sale.
Attorney Jason Adkins Exhibit A noting payment in full was recorded in advance of
the issuance of the court order authorizing sheriff sale.
Delaware State Law Title 25 Del. Code 2903(b). Duration of time for lien
Order of State Court staying decision to rulings by the federal court.

3

Case: 21-1?

Document: 12 Page: 68

Dat

Case 1:18-cv-0102,_ .-(GA Document 14 Filed 12/13118

03/02/2021
3 of 26 PagelD #: 197

TABLE OF AUTHORITIES
Cases
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-48 (1986
Celotex Corp v. Catrett, 477 US 317 (1986).
Jerdel Co., Inc. v. Hughes, 523 A.2d 518 (Del. 1987).
Littleton v. Young, 608 A.2d 728 (Del. 1992)
Van Heast v. McNeil, Inc. 624 F. Supp.891 (D.Del. 1985)
Federal Rules of Civil Procedure
Fed. R. Civ. P. 56(a)
Constitutional Amendments
Amendment 14 due process and equal protection under the law
United States Code
28:1332 Diversity of Citizenship
28:1331 Fed. Question: Civil Rights Violation
Delaware State Law
Title 9 Del. Code 8722(d)
Title 25 Del. Code 2903(b)
Additional
RULES OF CIVIL PROCEDURE FOR THE SUPERIOR COURT OF THE STATE OF
DELAWARE IL COMMENCEMENT OF ACTION; SERVICE OF PROCESS. Rule 3.
Commencement of action. (a) Complaint and praecipe.
Delaware Rules of Civil Procedure: Rule 202. Judicial Notice of Law. (a) Judicial Notice of
Laws.
MODEL RULES OF PROFESSIONAL CONDUCT FOR LAWYERS
Rule 3.3 (Candor toward the tribunal),
Rule 3.4 (fairness to opposing party, 4.1 (truthfulness in statements to others) and
Rule 8.40 (it is professional misconduct for a lawyer to engage in conduct involving dishonesty,
fraud, deceit or misrepresentation)
Rule 8.4. Misconduct
It is professional misconduct for a lawyer to:
(a) violate or attempt to violate the Rules of Professional Conduct, knowingly assist or induce
another to do so or do so through the acts of another;

4

Case: 21-1?

Document: 12 Page: 69

Da'

-led: 03/02/2021

Case 1:18-cv-010k.- rtGA Document 14 Filed 12/13/18 . _ge 4 of 26 PagelD #: 198

commit a criminal act that reflects adversely on the lawyer's honesty, trustworthiness or
fitness as a lawyer in other respects;
engage in conduct involving dishonesty, fraud, deceit or misrepresentation;
engage in conduct that is prejudicial to the administration of justice;
state or imply an ability to influence improperly a government agency or official or to achieve
results by means that violate the Rules of Professional Conduct or other law; or
knowingly assist a judge or judicial officer in conduct that is a violation of applicable rules of
judicial conduct or other law.

5

Document: 12 Page: 70
Dat
Case: 21-13
Case 1:18-cv-010'4_ ..GA Document 14 Filed 12/13/18

-led: 03/02/2021
de 5 of 26 PagelD #: 199

STATEMENT OF NATO AND STAGE OF THE PROCEEDINGS
On July 11, 2018, Plaintiff Sandra Harmon, initiated this civil action against Jason
Adkins, Dale Callaway, Department of Finance, Ellen Magee, J Bruce Mears, John Mills, Sussex
County Administration, Sussex County Board of Adjustment & Appeals Members, E. Brent
Workman.
The action was filed due to the escalating and uncontrolled conduct of Jason Adkins in
selling Plaintiff property at Sheriff Sale on June 19, 2018 in violation of my right to due process
both procedural and substantive, as well as Plaintiff right to equal protection under the law;
despite Plaintiff• water and sewer bill being paid in full, and the demolition cost currently being
challenged in US District Court Civil Action Number 1:17 CV 01817.
On September 7, 2018 Defendants answered by way of a Motion to Dismiss Based upon
Younger Abstention Doctrine.
On September 21, 2018 Plaintiff submitted an Answering Brief in Opposition of
Defendants' Motion to Dismiss.
On September 28, 2018 Defendants submitted a Reply Brief on the MOTION to Dismiss.
On November 9, 2018 Plaintiff submitted a Letter to Judge Andrews dated 11M18
regarding alleged fictitious State Court case used for sole purpose of obstructing justice.
Sussex County Administration Counsel Jason Adkins, who is at the core of action
necessitating court intervention in this case knowingly and intentionally engaged in acts that are
not ambiguous, and are clear abuses, as well as a degradation of the judicial system. that there
being no genuine issue of material fact between the parties Plaintiff and the Defendants', that this
case is now before the court for summary judgment Fed. IL Civ. P. 56(a); Celotex Corp v.
Catrett, 477 US 317 (1986).
SUMMARY OF ARGUMENT
Sussex County Counsel Jason Adkins knowingly and intentionally violated Delaware
State Laws and Rules of Court procedure, and in the process violated Delaware
Model Rules of Professional Conduct for Lawyers in the course and manner in which
he conducted the state and federal court proceeding engaging in blatant
misrepresentations, dishonesty, fraud, deceit, with the intentions of misleading the
court, which ultimately resulted in Plaintiff Property being sold at sheriff sale.
Jason Adkins defendants knowingly and intentionally violated the following model
rules of professional conduct for lawyers: Rule 3.3 (Candor toward the tribunal), 3.4
(fairness to opposing party, 4.1 (truthfulness in statements to others) and 8.40 (it is

6

Case: 21-13'

Document: 12 Page: 71

Dat

-led: 03/02/2021
Case 1:18-cv-0102... <GA Document 14 Filed 12/13/18 . je 6 of 26 PagelD #: 200

professional misconduct for a lawyer to engage in conduct involving dishonesty,
fraud, deceit or misrepresentation) see more rule violations listed below.
Defendant's misconduct irrevocably poisoned these proceedings, and could not have
been calculated to assist this Court in the administration of justice, but rather to win
an advantage over the Plaintiff in these proceedings.
I.

FACTUAL BACKGROUND

Delaware Superior Court dockets after June 17, 2018, a docket of entries was posted
to Civil Action Number S18T-01-002.
According to the entries on January 12, 2018, Sussex County Attorney Jason Adkins
filed an INITIAL COMPLAINT DATE DOCKETED: JANUARY 13, 2018
COMPLAINT FOR ENTRY OF JUDGMENT ON MONITION FILED. TAX MAP
PARCEL NO.: 3-3449.08-27.00 DESCRIPTION: 37533 OYSTER HOUSE ROAD,
N/RD 273-C, W/LEWES-REHO CANAL, REHOBOTH BEACH, DELAWARE
19971 TAX YEARS: 2013-2017 AMOUNT: $14,400.77 (JASON ADKINS)
EXHIBIT A TAX MAP EXHIBIT B BILLING PRAECIPE MONITION
The Prothonotary, signed the Monition on Jan. 18, 2018. See R. 56(a) Exhibit 2
The monition referenced a sewer & water bill for $3,021.84 & demolition
$11.378.93.
On October 16, 2017 Attorney Jason Adkins sought a lien for the sum of $10,888.93
for the cost of demolition and legal fees. See R. 56(a) Exhibit 3
Thereafter, and before 10/31/2017, $1323.76 in interest was attached to the sum of
$10,888.93 bringing the total due to 12,212.69 with and additional interest of $146.25
and $25.00 in fees bring the total to $12,237.69. See R. 56(a) Exhibit 4
In addition, Jason Adkins presented an order to the Judge for signature that was dated
by the court for 18 June 2018, again believing that Jason Adkins was being truthful in
his pleadings to the court, the court initially declined my Motion to Dismiss and
Transfer my case to Federal Court, alleging in this order that, " The monition sale
sought by Plaintiff is premised upon the defendants' alleged failure to pay sewer and
water...." It is time stamped on June 18, 2018 at 4:07pm. See R. 56(a) Exhibit 5
Yet, as noted by Sussex County's Attorney Jason Adkins own Exhibit A, The Jason
Adkins was aware that the water and sewer bill was paid in full, via a receipt
provided and docketed at I :38pm on June 18, 2018 in the Superior Court
Prothonotary Office, prior to him obtaining a court order for the June 19 Sheriff Sale
of my, petitioner's beach property. See R.. 56(a) Exhibit 6.

7

Case: 21-1?

Document: 12 Page: 72

Daf

-led: 03/02/2021

Case 1:18-cv-01G.--RGA Document 14 Filed 12/13/18. age 7 of 26 PagelD #: 201

Determined to take away Plaintiff property, Attorney Jason Adkins disregarded the
guidance of the court in the court's memorandum issued in related case no. 17-1817,
where the Judge noted, "the Court finds that Plaintiff would suffer irreparable harm
without injunctive relief based upon the unique nature of real estate and the fact that
she will lose her interest in the property should the scheduled Sheriffs sale take
place....the Court sees no substantial harm to Defendants as they already have a
monition that can be enforced by a future Sheriff's sale. Any damage in scheduling a
new Sheriffs sale is minimal when compared with Plaintiff's loss of her
property.....there is a significant public interest in maintaining home ownership...".
Petitioner's Harmon property was unlawfully sold at Sheriff sale on June 19, 2018.
Petitioner filed and objection, and despite the unlawful conduct, the judge did not
dismiss the case but instead stayed the state court proceeding pending the Federal
Court ruling, which the judge noted will be binding on the state court case. A case in
which Plaintiff seek of the court to rescind the order, as it was unlawfully obtained by
way of misrepresentation and fraud.
II.

LEGAL BACKGROUND

According to the American Bar Association PREAMBLE: A LAWYER'S
RESPONSIBILITIES: A lawyer's conduct should conform to the requirements of the law, both
in professional service to clients and in the lawyer's business and personal affairs. A lawyer
should use the law's procedures only for legitimate purposes and not to harass or intimidate
others. A lawyer should demonstrate respect for the legal system and for those who serve it,
including judges, other lawyers and public officials. While it is a lawyer's duty, when necessary,
to challenge the rectitude of official action, it is also a lawyer's duty to uphold legal process.
In this case the unlawfulness exists because the General Assembly consisting of the
Delaware State Legislatures promulgated state laws, with respect Monitions and the duration of
liens, as well as the requirements for commencing a civil action in the Delaware State Courts,
that were clearly established during the time Attorney Jason Adkins elected to engage in his
misconduct. Yet Attorney Jason Adkins knowingly and intentionally violated the laws and
attempted to cover up his wrong doings by altering the Superior Court Docket in an attempt
deceived the court for his own personal interest, and that of his business partners.

8

Case: 21-1.?

Document: 12 Page: 73

Dat

-led: 03/02/2021

Case 1:18-cv-0104...-RGA Document 14 Filed 12/13/18 , age 8 of 26 PagelD #: 202

HI. ARGUMENT
STANDARD OF REVIEW
"The court shall grant summary judgment if the movant shows that there is no genuine
issue of material fact and the movant is entitled to judgment as a matter of law." Fed. R. Civ. P.
56(a). The "mere existence of some alleged factual dispute between the parties will not defeat an
otherwise properly supported motion for summary judgment." Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 247-48 (1986).
PLAINTIFF CONTENTIONS:
When Attorney Adkins filed the monition, he was aware of the Delaware State Law
Specifically, Delaware State Law Title 9 § 8722 (d) Praecipe; judgment; monition.
Section (d) which states that "...The tax collecting authority for New Castle, Kent
and Sussex Counties may initiate and complete the monitions process against any
property designated by the authority as having an unknown owner for a continuous
period in excess of 5 years..."
He was also aware that the " unknown owner for a continuous period in excess of 5
years" provision was not met, and he could not use the monition process. Not even 4
months pasts, and Attorney Jason Adkins was in regular contact with me.
Jason Adkins conduct is a blatant misrepresentation to the courts, with the sole
purpose of misleading the courts to believe that the owners were unknown for a
continuous period in excess of 5 years, when in fact he was in contact with myself,
via entail as well as sending mail to my home address. Clearly he was knowingly and
intentionally being deceitful, misleading, and engaging in fraud. See R. 56(a) Exhibit
#1
The Prothonotary signed the order for the Monition on Jan. 18, 2018. See IL 56(a)
Exhibit 2; The monition referenced a sewer & water bill for $3,021.84 & demolition
SII.378.93.
On October 16, 2017 Attorney Jason Adkins sought a lien for the sum of $10,888.93
for the cost of demolition and legal fees. See R. 56(a) Exhibit 3
In this case the lien was in effect for less than 6 months prior to commencement of a
Sheriff sate on June 19, 2018.
Yet, Jason Adkins was aware of the Delaware State Law with respect to Liens,
specifically Title 25 Del. Code 2903 Duration of lien states, "b) In Kent and Sussex

9

Case: 21-13' - Document: 12 Page: 74

Dat' -led: 03/02/2021

..• Case 1:18-cv-0104..... rGA Document 14 Filed 12/13/18 —ge 9 of 26 PagelD #: 203

Counties the lien for county and state taxes shall remain a lien for the period of 2
years from July 1 of the year in which such tax has been imposed and no longer, and
the lien for school taxes shall remain a lien for the period of 2 years from August 10
of the year in which the tax has been imposed and no longer..."
Thereafter, and before 10/31f2017, continually abusing their discretion the defendants
attached a $1323.76 in interest to the sum of $10,888.93 bringing the total due to
12,212.69 with and additional interest of $146.25 and $25.00 in fees bring the total to
$12,237.69. See R. 56(a) Exhibit 4
In addition, Jason Adkins presented an order to the Judge for signature that was dated
by the court for 18 June 2018, again believing that Jason Adkins was being truthful in
his pleadings to the court, the court initially declined my Motion to Dismiss and
Transfer my case to Federal Court, alleging in this order that, " The monition sale
sought by Plaintiff is premised upon the defendants' alleged failure to pay sewer and
water...." It is time stamped on June 18, 2018 at 4:07pm. See IL 56(a) Exhibit 5
There was never a lien obtained for the water and sewer bill which was being paid
without cause to the Sussex County Utility Department.
Yet, as noted by Sussex County's Attorney Jason Adkins own Exhibit A, The Jason
Adkins was aware, via a receipt provided and docketed at 1:38pm on June 18, 2018 in
the Superior Court Prothonotary Office, prior to obtaining a court order for the June
19 Sheriff Sale of my, petitioner's beach property. See R. 56(a) Exhibit 6.
Yet, Petitioner's Harmon property was unlawfully sold at Sheriff sale.
There was no due process nor equal protection under the law afforded to me the
plaintiff in the course and manner in which the proceedings in the state court was
conducted.
The Fourteenth Amendment to the Delaware Constitution like the US Constitution is
clear that, "No state shall deny to any person within its jurisdiction the equal
protection and due process of the laws."
Petitioner filed and objection, and despite the unlawful conduct, the judge did not
dismiss the case but instead transferred it to Federal Court for proper ruling.
PLAINTIFF FURTHER CONTEND THAT THROUGHOUT THE COURSE AND
jvIANNER OF THE JUDICIAL PROCEEDINGS SUSEX COUNTY ATTORNEY
JASON ADKINS ENGAGED IN PROFESSIONAL MISCONDUCT AND VIOLATED
THE FOLLOWING RULES OF CQNDUCT FOR LAWYERS AND THE CURRENT
DEFENSE LAWYERS JOINED IN TO PROTECT HIM IN HIS UNLAWFUL AND

10

Case: 21-1?

Document: 12 Page: 75

Daf led: 03/02/2021

Case 1:18-cv-01023.-r<GA Document 14 Filed 12/13/18 1--.0 10 of 26 PagelD #: 204
•

UNETHICAL CONDUCT IN VIOLATION OF THE MODEL RULES OF
PROFESSIONAL c..9 NI) U C T FOR LAWYERI,
Attorney Jason engaged in intentional dishonesty, fraud, deceit, and misrepresentation to
the courts. His conduct ultimately resulted in the unlawful Sheriff sale of my privately owned
property, which Plaintiff seeks to have rescinded. He showed outright disregard to me and my
family human rights to enjoy our private property without the unlawful interference of the county
government, all of which reflects adversely on his honesty, trustworthiness, or fitness of a lawyer
in other respects
Attorney Jason Adkins defendants knowingly and intentionally violated the following
model rules of professional conduct for lawyers: Rule 3.3 (Candor toward the tribunal), 3.4
(fairness to opposing party, 4.1 (truthfulness in statements to others), and
Rule 8.4. Misconduct
It is professional misconduct for a lawyer to:
violate or attempt to violate the Rules of Professional Conduct, knowingly assist or induce
another to do so or do so through the acts of another;
commit a criminal act that reflects adversely on the lawyer's honesty, trustworthiness or
fitness as a lawyer in other respects;
engage in conduct involving dishonesty, fraud, deceit or misrepresentation;
engage in conduct that is prejudicial to the administration of justice;
state or imply an ability to influence improperly a government agency or official or to achieve
results by means that violate the Rules of Professional Conduct or other law; or
knowingly assist a judge or judicial officer in conduct that is a violation of applicable rules of
judicial conduct or other law.
Likewise, the Model Rules notes that (b) A lawyer who represents a client in an
adjudicative proceeding and who knows that a person intends to engage , is engaging or has
engaged in criminal or fraudulent conduct related to the proceeding shall take reasonable
remedial measures, including, if necessary, disclosure to the tribunal. Which aligns with ABA
Model Rules 8.4(c) ( an attorney shall not engage in conduct involving dishonesty, fraud, deceit
or misrepresentation.
To justify an award of punitive damages, the fact-finder must determine that the
defendant acted with a culpable state of mind, i.e., with evil motive or reckless indifference to
the rights of others. As noted above and throughout the pleadings in this case, the defendants
under color of state law intentionally inflicted emotional distress and acted with specific intent to
cause plaintiff harm, by committing tortious acts accompanied with fraud, ill will, recklessness,
wantonness, oppressiveness, willful disregard of plaintiff's constitutional rights, by engaging in
harassing tactics, and overall negative conduct to aggravate the injury they caused the plaintiff in
selling Plaintiff private property at sheriff sale in violation of Delaware State Laws &
Constitution, and preventing Plaintiff son from entering onto the property.
Punitive damages generally are available in Delaware. Littleton v. Young, 608 A.2d 728
(Del. 1992); Jardel Co., Inc. v. Hughes, 523 A.2d 518 (Del. 1987). An award of punitive

11

Case: 21-1?

Document: 12 Page: 76

Daf

Case 1:18-cv-01021. .GA Document 14 Filed 12/13/18

-led: 03/02/2021
11 of 26 PagelD #: 205

damages must subsist on grounds other than making the plaintiff whole. Jardel Co„ Inc. v.
Hughes, 523 A.2d 518 (Del. 1987); The standard for the imposition of punitive damages in
Delaware is well settled. "In tort actions[,] punitive damages are appropriately imposed in
situations where the defendant's conduct, though unintentional, has been particularly
reprehensible, i.e., reckless, or motivated by malice or fraud."6 "If the defendant's conduct
reflects a conscious indifference to a foreseeable resultt] punitive damages may be imposed to
punish such indifference and to deter others from similar conduct."? Punitive damages, however,
are not appropriate for the purpose of making the plaintiff "whole."8 "Thus, even though the
amount of compensatory damages claimed may be deemed slight in relation to the value of the
entire transaction in which the defendant's conduct was manifested, an award of punitive
damages is nonetheless appropriate if the defendant's state of mind meets the applicable
standard."
Atty IttA4,1.1 its' 6see% tlispic.4) 414
Ireirtfrkil
C
clGri•
d
Adienalitfiy0.
.
1
kfid,A.b.
0.01
as

„i c

IV. CONCLUSION
As a public citizen, a lawyer should seek improvement of the law, access to the legal
system, the administration of justice and the quality of service rendered by the legal profession.
In this case, the lawyers have engaged in acts which degrade the judicial system.
The conduct displayed in this case has irrevocably poisoned the judicial proceedings in
this case. None of the conduct displayed by the defendants and their counsel in this case could
not even be calculated to assist the court in the administration of justice, but only to use their
positions as attorneys to win the advantage of a pro se litigant.
The misrepresentations to the court in this case is an intentional egregious abuse of the
judicial system, and again acts only to degrade the judicial system.
Reality is, the public interest is served when Courts impose proper sanctions, which
demonstrates to members of the legal profession that such type of conduct as displayed in my
case will not be tolerated in courts of competent jurisdiction.
Moreover, it is on the Courts "to insist upon the maintenance of the integrity of the bar
and to prevent the transgression of an individual lawyer from bringing its image into disrepute."
After all the purpose of the sanction imposed on an attorney is to protect the public. Therefore,
the public interest is served when sanctions designed to effect general and specific deterrence are.
imposed on an attorney who knowingly and intentionally violate the disciplinary rules.
WHEREFORE, Plaintiff's Motion for Summary Judgment should be granted and that
Plaintiff be awarded the relief requested in her complaint, and that this court impose sanctions

12

Case: 21-13'
Case

Dal- "led: 03/02/2.021
Document: 12 Page: 77
.:GA Document 14 Filed 12/13/18
je 12 of 26 PagelD #: 206

against the defendant's, in this case via the imposition of monetary penalties, referral to the state
bar, and any other relief that this court deem appropriate.
Respectfully submitted this 10th day of December, 2018,

R

ectfu y subnOtted,

-1-tivvrin(rn

Sandra Harmon, Plaintiff
5_gbara1966(ii)aol.com
815 F Street
Hartsville, SC 29550

13

Case: 21-13 -

Document: 12 Page: 78

Da101
' ed: 03/02/2021

Case 1:18-cv-01021-UNA Document 1 Filed 07/11/18 age 1 of 14 PagelD #: 1

";Licv,

locwe
It)
LW E

IN THE UNITED STATES DISTRICT COURT OF THE STATE OF DE A AR
Sandra Harmon
Plaintiff

C.A.

18-1021

VS.
Department of Finance, Sussex Co. Delaware
Jason Adkins individually and in his capacity as defense counsel for
Sussex County Administration,
Sussex County Board of Adjustment & Appeals Members
Dale Callaway, Chairman individually and in his capacity as Chairman
Ellen Magee, individually and in his capacity as a board member
Bruce Mears, individually and in his capacity as a board member
John Mills, individually and in his capacity as a board member
E. Brent Workman, individually and in his capacity as a board member
Sussex County Administration
Defendants,
NOTICE OF COMPLAINT
(ALL ACTS COMMITTED IN THIS COMPLAINT WERE COMMITTED UNDER THE
COLOR OF STATE LAW).
STANDARD OF REVIEW " Abuse of Discretion"
Sandra Harmon, pro se files this notice of complaint against the defendants due to the
escalating and uncontrolled conduct of Jason Adkins in selling Plaintiff property at Sheriff Sale
on June 19, 2018 in violation of my right to due process both procedural and substantive, as well
as Plaintiff right to equal protection under the law; despite Plaintiff water and sewer bill being
paid in full, and the demolition cost currently being challenged in US District Court Civil Action
Number 1:17 CV 01817. In support of this complaint Plaintiff avers as follows:
JURISDICTION AND VENUE
This Court has Jurisdiction pursuant to Article III of the US Constitution & Title 28 USC
1332 Diversity of Jurisdiction
The events that gave rise to this action occurred in this district.

PARTIES
Sandra Harmon, Plaintiff, whose mailing address is 815 F Street, Hartsville, SC 29550
Jason Adkins. Defendant, individually and in his capacity as Sussex County Attorney
3.22 W. Market Street, Georgetown, De. 19947
Department of Finance, Sussex County, De. Defendant's individually and in each of their
capacities as employees in the Dept of Finance.

Case: 21-13'

Document: 12 Page: 79

Da lip
' ed: 03/02/2021

Case 1:18-cv-01021-UNA Document 1 Filed 07/11/18 age 2 of 14 PagelD #: 2

Gina Jennings, Defendant whose mailing address Is 2 The Orcie, Georgetown, DE. 19947
Kathy Roth, Defendant, whose mailing address is 2 The Circle, Georgetown, DE. 19947
4. Board of Adjustment and Appeals Members: Defendant's individually and in each of
their capacities as board members
Dale Callaway, Defendant whose mailing address is P.O. Box 321, Milton, De. 19968.
Ellen Magee, Defendant whose mailing address is 34857 Lighthouse Road, Selbyville,
De. 19975
J. Bruce Mears, Defendant whose mailing address is 31370 Railway Road, Unit 2, Ocean
View, De. 19970
John Mills, Defendant whose mailing address is 127 Oak Lane Drive, Laurel, De. 19956
E. Brent Workman, Defendant whose mailing address is 15376 Adams Road, Bridgeville,
De. 19933

CLAM
The defendants are violating Plaintiff right to due process and equal protection under
the law as guaranteed by the US Constitution by engaging in arbitrary conduct with
respect to the selling of Plaintiff property at Sheriff Sale on June 19, 2018.
According to a call from the County that Plaintiff Brother-n-law Lefton Harmon, and
Plaintiff Confirmation of the call July 6, 2018, Plaintiff property was unlawfully sold at
Sheriff Sale on June 19, 2018 in violation of her constitutional right to due process &
equal protection under the law by the defendants.
The Board of Appeals failed to monitor the unlawful conduct of Attorney Jason Adkins,
their employee and other defendants that violated Plaintiff Constitutional Rights.
Department of Finance violated Plaintiff right to equal protection and due process by
selectively seeking full judgement and inflating the interest cost within 32 days after the
demolition cost of her property, failing to have any kind of communication with respect
to the demolition cost by any county personnel, and failing to provide plaintiff a hearing
date and an opportunity to be heard.
The Defendants, failed to monitor the unlawful conduct of Attorney Jason Adkins, their
employee and other defendants that violated Plaintiff Constitutional Rights.
Defendant Jason Adkins is acting in a discriminatory manner by failing to adhere to the
rules of CM Procedure, stripping plaintiff property away for the personal benefit of his
wealthy friends, violating the model rules of conduct for lawyers , engaging in unlimited
and conflicting roles acting as defense counsel, data entry clerk, and Judge in the same
case which he is a plaintiff, in violation of plaintiff right to due process & equal
protection under the law.
Defendants are engaging in actions runs afoul of the Racketeer influenced and Corrupt
Organizations Act, and violates Title 18 Section 241, 242 of the United States

Case: 21-13

Document: 12 Page: 80

Dat'led: 03/02/2021

Case 1:18-cv-01u41-UNA Document 1 Filed 07/11/18 rage 3 of 14 PagelD #: 3

EACTIELOVILIMILLIMM
1, Plaintiff received a call today from a county official that informed co-owner Lefton
Harmon that the property was sold at sheriff sale to Hudson & Downs on June 19, 2018.
However, a Lis pen dens remain on the property.
Department of Finance, Sussex County, Delaware placed the Plaintiff Property up for
sheriff sale on,June 1.9, 2018.
The Department alleged that Plaintiff owed for a sewer and water bill which was paid in
full with the Cashier's Check dated June IS, 2018, attached as Plaintiff Exhibit No. 1.
S. Defendants also allege a deniolition cost from a demolition that tookplace on
September 14, 2017.
Department of Finance never consulted with the Plaintiff nor the Co-Owner Lefton
Harmon regarding payment for the demolition costs.
Plairdiff Sandra Harmon, paid $100 monthly toward the costs, but eventually stopped
until the District Court rules on the issue.
Costello first noted that the demolition fee will be no more than $7000.
Within 32 days of the demolition of my property, Superior Court Data Base on October
16, 2017 attempted to seek a Judgment for the full cost of demolition.
In addition, witidn 47 days, the Department of finance added an interest fee of 1323.76
to the total of demolition.
This conduct is very arbitrary.
Neither of the defendants filed a complaint in Superior Court nor served a complaint on
the Plaintiff, Lefton Harmon, nor in the name of LeRoy Harmon heirs with respect to
both the water and sewer, nor the demolition costs.
Attorney Jason Adkins engaging in racist conduct of undermining the property rights of
African American's like myself, decided that he would take away my rights to my beach
property by any means necessary.
IA. It appears from the Superior Court Data Base, that the defendants contemplated
obtaining judgment against the Plaintiff, Sandra Harmon, Lefton Harmon, and Heirs of
LeRoy Hormones early as October 16, 2018. However, a complaint was never
generated nor served on the Plaintiffs. See copy of information obtained from Superior
Court Data Base on 6/17/2018. Exhibit e2
IS. Further, a complaint was never filed nor served on the Plaintiff, Lefton Harmon, nor in
the name of LeRoy Harmon Heirs on January 12, 2018.
There was no due process neither procedural nor substantive given to Plaintiff, Lefton
Harmon, nor in the name of LeRoy Harmon Heirs.
On May 29,2018 Defendant Jason Adkins as Defense Counsel for Sussex County,
decided to engage in a conflicting role, by issuing an order, signing in the role as a Judge
to have the Plaintiff property sold at Sheriff sale, without due process of law.
Attorney Adkins racist conduct is clear, he doesn't seem to believe that African
Americans have rights at law. His racists, and arbitrary conduct is intentional, shocking,
and in disregard for the Federal Rights of myself the Plaintiff and my family.

Case: 21-13

Document: 12 Page: 81

Dat

-led: 03/02/2021

Case 1:18-m/-01021-UNA Document I Filed 07/11/18 r e 4 of 14 PagelD #: 4

Moreover, it's in disregard of the US District Court. His conduct and those that support
it shows that Sussex County Administration is knowingly engaging in corrupted actions
that may run afoul of the Racketeering and Corrupt Organization Act (RICO).
Plaintiff challenged the May 29, 2018 order, Plaintiff was baffled that an initial
complaint was not filed, a summons was not issued, and no other action was taken
affording the Plaintiff Sandra Harmon, Lefton Harmon, nor the Heirs of LeRoy Harmon
to properly respond with a day in court to address the matter.
It appears as If Jason Adkins reacted to Plaintiff refusal on May 27 to sale her property
to his wealthy colleagues.
Jason Adkins placed several false in misleading entries on the docket acting in his third
capacity or job as a data clef*, which were recently added after June 17, WU. See
previous information obtained from Superior Court Data Base if Exhibit 02
21 Jason Adkins conduct continues to cause plaintiff alarm, and emotional stress.
Plaintiff contend that the Younger Doctrine does not apply in this case because
Defendants failed to file an initial complaint in the Superior Court, so technically there Is
no case filed, nor pending. The S18T-01-002 case number is dearly bogus, and it's
unlawful generation represents racketeering and corruption at the hands of Sussex
County Officials.
Jason Adkins Court Order signed by him acting as a Judge of the Superior Court was
certainly fled out of compliance with court rules of civil procedure, as Plaintiff was
never afforded procedural due process i.e. served with a complaint and having an
opportunity to be heard in a court of law, on the issues raised by Attorney Jason Adkins.
Again, none of the defendants flied civil action in the state court- Superior Court in
compliance to the Case Filing Rules, required for the filing of a case. No complaint, no
summons issued nor served on the Plaintiff, Lefton Harmon, nor in the name of LeRoy
Harmon heirs.
It's been less than a year since the demolition. Dept of Finance, conduct In this case is
clearly arbitrary, and unreasonable.
Citizens are usually afforded a reasonable time and payments on bills such as the
demolition cost.
This case certainly required court intervention because the sale of Plaintiff property
violates Plaintiff Constitutional Rights to due process and equal protection under the
law.
With the high cost noted on the demolition, at the rate given, the monthly payment
would be well over $1000 a month, dearly 'unreasonable and unheard of.

WHEREFORE, Plaintift Sandra Harmon respectfully rawest of this court for the following
relief:
1. Request that this court issue an order, requiring Jason Adkins to halt his misconduct,
and find him in contempt and in violation of court rules of civil procedure.

Case: 21-13'

Document: 12 Page: 82

Dat' —led: 03/02/2021

Case 1:18-cv-0104.1.-UNA Document 1 Filed 07/11/18 t-

5 of 14 PagelD #: 5

That this Court award Plaintiff Sandra Harmon $1,000,000.00 against the defendants in
this civil action for the intentional infliction of emotional distress, and the violations of
Plaintiff Constitutional Rights to Due Process & Equal Protection Under the Law.
That the Illegal Sheriff Sale of Plaintiff Property be immediately rescinded.
That Defendants provide plaintiff with the equal protection of the law and afford her
the opportunity to make payments as any other resident if this court determine that
Plaintiff is responsible for the cost of demolition, after the adjudication of case number
1:17 CV 01817.
S. To not join the cases, in District Court, but to adjudicate them separately, as action
needed to be filed a result of the phone called received from the county today. July 6,
2018.
6. Award the Plaintiff Court Cost and other incidental fees related to having to file this
case.
7, Appoint the Plaintiff an attorney to aid in litigating this case to level the playing field for
justice in this case.
8. Award Attorney Fees in the event an attorney takes on this case for the Plaintiff.

Dated: July , 2018

Re¢pely sub itted,

815 F Street
Hartsville, SC 29550
Sohara1966@ael corn

Case: 21-13'

Document: 12 Page: 83

Da

ed: 03/02/2021

Case 1:18-cv-01021-UNA Document 1 Filed 07/11/18 Page 13

rN THE UNITED STATES DISTRICT COURT OF THE STATE OF DELAWARE
Sandra Harmon
C.A.
vs.
Department of Finance, Sussex Co. Delaware et. al.

CERTIFICATE OF. SERVICE
Plaintificertify that each of the defendants were provided 2 copies of the waiver of service
and a copy of the Notice of Complaint w/ exhibits at the following addresses.
Jason Adkins. Defendant,
122 W. Market Street, Georgetown, De. 19947
Department of Finance, Sussex County, De.
Gina Jennings, Defendant whose mailing address is 2 The Circle, Georgetown, DE. 19947
Kathy Roth, Defendant, whose mailing address is 2 The Circle, Georgetown, DE. 19947
Board of Adjustment and Appeals Members:
Dale Callaway, Defendant whose mailing address is P.O. Box 321, Milton, De. 19968.
Ellen Magee, Defendant whose mailing address is 34857 Lighthouse Road, Selbyville,
De. 19975
J. Bruce Mears, Defendant whose mailing address is 31370 Railway Road, Unit 2, Ocean
View, De. 19970
John Mills, Defendant whose mailing address is 127 Oak Lane Drive, Laurel, De. 19956
E. Brent Workman, Defendant whose mailing address is 15376 Adams Road, Bridgeville,
De. 19933
Sussex County Administration: Tod Lawson, Defendant, Sussex County Administration,
Office Bldg., 1r FL, 2 The Circle, Georgetown, De. 19947.

Dated: July , 2018

ectfully sub inert,
ja

i

WOO

ra — IA it .13
815 F Street
Hartsville, SC 29550
Sohara1966@aol .Cam

"01.021.7..k(PA Dbcinent:21 Filed 021.111119

s,.

, We"

Clit4i44,1!Vdileas
f#:

aturia6;4‘
12. „

3/0 021

ICA10.21-rGA Document 21 :Filed 02/11/19 We 39 of 51 PalDigf 353
-0407-RGA Oocment to Filed 159127/18 Page 2 of.13•PaiielD#:

ss,testImeny.

•••
* "•,7

• '

"

-

UCOreiblictid

74
"::11174

-)
.• • t
titai
••••

,..•

fl
d
skonm my sob,

pit

7

92.0
r poi:sy.,
40 of 51PagelD #: 354' „ .. .
ea 1:18-cy-01021-RGA Document 21 Filed 02/11/19 P
•
''';
' •
',534? -- .7t4 ,i4.'-',, ,
3 of 137pagelD'#;3587
m83.7-0GA - Document 55 Filed 09/27/18 Page
.S744 2casel.:0-cv.
1:
Case: 21- 3'

..

- • At.: 4' ,;.-- •
. ., .,:;.- ..,..1 •.-:-. .... , •-•:

.c.

....:
••••

.:.:

on' to day bass' in the stet* became air*, as my ten ant
qdlng the
,.• .joni pies, tp plac Seeking Shelter. Over a year after the burning 04 the hone, my sojwes , 4.. ... •••• t,
.
filthy it**pó,Wil.'J4;`
.
ocate Ifinoller for $600 e month for rent in a very shabby end
, Y*l
... • ,.: 0.
-..
habitable
„.
legally
not
is
sure
::....? •
am
1
that
housing
.
ard
substand
Ihrain
ti,
ieiiitilialis
,
!
but hp 641,1004:41because he can't afford housingelsewhere, and the oporittre*S4r00 ,; "'• '. , 7:-:. . : . .
prittO,
qiistodtki.Partingpf MY•ncr
' - to be thOnteery
..
., IA• year old gren4,4*;`ktictieo
,,,..,.: - 4-` '4 •., 10,,00 ihi primary ‘istocliatpatent'Of NS 9Year old son that ha Wittaitiiii iffaaEt; e
-:•,.
,
•olt *Otto Went
L
vi. - . •
. :!:
.,
,,,,
.
-,
t,ko,,i.
74.!
•
Astiossfie
emotional
seated
pooduct 0otttittwo tti:tesyk in deep
.t.
.
P
:.
,
,,
...
i:
'
•
,-,
son
f
resultetM
Ate
ndsons.
adult sons, My.ediih dAviiiierhsktfoygra
o
Infkill410 hotels, kei *1*d lts*iilqrallieltiOd lathe thildisipport
' robed In hire being arrested. A had to corms to fielewarotrienlfer0
ate soiffiat to, stiltdd bfimieased. In thif $ 04i 40 .14y SCiii f Ott
X
..Mitilkh VIPIOSS.,000WOrtgir.k
o.dorfolhhoutof nit% MLA
.
Iiirat
e
affordabl
an
lot*
hirnto
lam able to help
'•'
i -7:,i..
,
was able to locate another)** and my girlfriend foig•Nognnali ,
• . i-.'.
..
Miiiithie;#
fOr
esOli
Ahrarecti
Ms.
at
there
steridthedren hfrair my son was
,• •.,
1
„.•
.
tc,
tiogo
fi
to
had
Omit
6 place to flit so My soh and graudihO
,,,
••,.,
_ .
lit-, -.,. SOY gliffrieptGeorgia allowed my-34yearold grandsorite Tallniciffily
viiidten mother's boyMend didn't want her to keep heriithiO
his Carafes" days, and took my youngest grandson to wok with
4Aficruhtfa4ipanitson would then sieerilittido '
on him, fbarno bick up to Defineare, clean put the ;
i*0e4,Outchssed a refrigerator
Ut Boole* on the floor
soAtt It would Mare Muting wines; end purchased agaisiabar'
x
, " a feat dityikelteras conficteci hi the cops who'Settler*:
i ern the gloomy oymer.i was then
prOgrig, I shared With the
PassWtárnumbsrtocoMactShS. ,
Ifoilly
Vin
a166,6411
brelheno4
ivi
couldIva In die'iltsa4. It was a vialatiPti *the shed ieilie.thet*ITti0. *
1*
stk,Ort son was repeatedly confronted by the pops that &Arnie CÔ1d
Ihripothi
longer
nO
mghiresify
that
Aetliqpiaaltiwanted to Make sore
**Pit orfatinUotto result In trmi.terrn displacement of sUitablik

, •••

iiittioln*hadran,: •

ip4-44
, ,

,•••

•.:

•
—
4sildren and Minor grandpisildreacontInue to suffer as a iihwilTery*
conduct, my do-tighter %how pregnant and resides in the troller esti*
him arid his two hitYa. i had to purchase small foldable beditior:.nygrenttaan
:*epiiit. Also, whoh I comet° DelaWare now to visit I have no honw
hOowid had to deal with the lineVacitid 400/0
401110.,..14010.Ftg
ltiin Who 601 reSsrileM40- was unemployed et the time relyingon
IMMO/ inCOMitand monies from a *lend; I had funerif
began ttiongega In theirovii or)** I talt as 010%44
L.

r

•

•

—

-•

;
•t,

.

-.led: 03/02/2021
sps.L..„
.1pa51
I•ei
e 1:19-001021-ROA Document 21 Filed 02/11/19 Page 41 of 5I.PagelD,./t 355.
Document 55 Filed-09/27/18 Page 4 of ia:PageiD
1

wePP '4'04:k114
5- :
1 w,5c5
.

355

)41?.31 >?.- -

la's only so
a human be an take. labored with fdr.. Costeksild
that4, was unableto advance thethne because I Was tivint
son's funand expensies, making good on my protease to piths NA
didn't, hive life ingwarecit fialthriPof the defenttaneacruei about.
±w At*. time, 1 was Just dirolipitimitktob muih, but I kneWlecruldnitidee
have iiMiner daughter, end Minor grindchildren glen; with du t o
, I stilt have not recovered from the
of my baby boy. II,*
fib w watt and helping out with, student learning sal*** to lamikitehiarn
realities. The emotional toll tot/1;104th* Undue Iberia thatthedffitrodarthi
"serit)ii meta iiniPealueble; ".thought by filing action hi federal cieurt, theft
uttlawhiltactIcs andharassrient, but, it continued. Defendant lasin
r. law, a Practice that has been common in coup in Sussex
*Motional roller rooster, and the stress Inflicted continued
another complaint under' the standard of the continuing viola* thin*,
'.-.401014111)fidel*Otrion my son's obituary. Interrogatory Exhibit No.1
41'

zA

data

OWthivedimegesithe award Is generally &dried according to the quality of
conduct
#neu
tact* Aid harassment engaged in by the dehendintsire „
***414011, atteinify. capitols" none of their action are
le:orposet the defendants acted in total disregard of the Plaint/end
s constitutional tight tto privact procadinvi due prom* '
.the law.

iets elsoieted with, a culpable sunset Mind, with' Attedue,.
.,
to Meth* Plaintiff end trYodult thildmaid minor
-,
,
Ver goo.. v o
) ftiegifiree
, Plaintiff Is solid*
le oje pnititive dameiges, Tiqued
fit‘finder enlist determined* the defendant ivits4/
''''',-;etaltiarirshit.i.N with evil *die or redden indifference to therig14
abovekanirthronghtOt the pleadings inipive* the
Ude intentionally Infikt4riernotiOrta
:
distress and actedtv.fthaprOte
*ler Nistivby aaptitlitting tortioa seta litormivOed 'Akin

%itar4onhess, oppeisstweitep,

4nriarit fie harnsslitgtactics, and ovetell negative ionducl
iaee td tits`Plihdiff:in destroying mYltornes hrevinIthWsOlhAttrit*
and
and preventing me the olaireffilierin
tome to for theiumnier months.
are
genetaill
Liffician v; 'Y
Inc; v. nuabes. 323 42d SO (Dd. 01'4 An
on gniiendrother than making dm plaintiff whole
SI 8 {Da. .1 MI Tbe elanderdibr the imporitiou of

r",
-84` 21-44 ` t-99-cr41339,nt4X., Page 88„ p,a
ase:1'18,0-0102i-r(GA Document 21 Filed 02/11/19

043102/2921
42 of 51 PagelD #: 356.;

.1-cV-01817-RGA Document 55 Filed 09/27/18 Page 5 of 13 Page 9;#,

.

Delaware's well settled. "In tort &Wont) punitivorbonettea
Iteliosed in situations %Acre tbc'defendont's conduct
has babnpinficuiteslyrepielaiesible, it, Malta? or motivated by mince
tteitinlatteticonduct reflects a conscious indiffsonce to a fortseeibionsselitir
futiOlidkleesek Maybe /aimed, hit pi:ids/Panel) bnilfferetre and ttoleter
Oiiduct."7 Punitive damtkleti, booreoe5 ire not approprithe for
_ritaidus pinietlfrwholell "ins, evetrthettsh the anWarit of
•
bedionied slight in niacin tithe value &the entirentennieti
4:retaliate conduct v4statiftetett an sward of punitive danweerls t.
4prOlifisto Stile dnikndantl state of mind meets the applicable standard,"
1:
;i::littf-dbipforniterY— is stated, and the details are further explained in 2;
itOkraturd to the Own in this complaint.

of

& **WIT

Mdtetostello, Jason AdkinsA Todd lawscot
&fondant is listed on the initial Complaint
*ethnics subrietted to the court

SitrIbtplanetely as written, the defendants. wn Adkins, Mike,
itiridnistrotto pawes es entolosters of iussek
*Retied t atalittp Weter being cut off, antenna My additolthg
it lititinisible to connect-to My *net Suliily 04*e-slated On 07$11. c
Pass ter verbally informetpleintiff vle telenhone 'cob**
logiaisokter *Stirs Of** have **refer to 03010
itereeter litforined 'plaintiff that AsaViolated ems.
:its sanieloration'twer layout& My deceased hatber0
can property, ifhintiftimivo
and lison Adhins olati to prevent plaintiff from ,irriatirra use Of.
Patiwater istetatinfp Plaintiff • violation notice via
thred ficonfroiOnvito kenerlvi Atamover, it appeal%
reerodingthe bolmativiiandintentoftbothAetiniPi
'eft eL
. *do* eptrithCobandonedthiliveyt Wienbfl het *kit to
my i
lei/ 0*. prot** shed remains.on
bpd rat snowed* swld, in tittit4 X .24 thedivititent
art
1want.the court talsiAte on order for the county to leave etaStaid* Its
isaitaiX*Petiv obtained. fart"tomlial of
,Thttehed only beciine a proldem-thi. to Mike Costetio eh&ii
Plaintiff, spoke with Mike Costello, and he shared with me thatelli,i.
arty loose structures and cover the krurnt home with a tarp,

Case1:181:18-01021- GA Document 21 Filed 02/11/19 P

43 of 51 PagelD #: 357

Case 1:17-cv-01817-RGA Document 55 Flied 09/27/18 Page 6 of 13 Pigegikik 333
•••••;=:.

F,T •

:ti".'....
flatilint tar thiteltY/ county. Therefore, I had Deirnennt Waste Authority to titIng a
--,,:eanuttercia
lAiumpster at my home, and I paid a crew of work
the trash
.
'1011#0ther clabris ftorn my home, and ta
Iii ooli structures. After they '
'
-':,tc;. ::;f4. ..,...
,..; ._ cOnageted dri.wil, I purchased
inseilLestincs ttometrirpreeernent Stork i.
;
anti Owed the %list:MI my horne atia tfettholt **down securely.
4.1
pair, retell* call from my Issother-n-law regaraing a demolition order seiftirther
aasSanation In Plaintiff initial complaint o
t this W
WI t

.
, "..

. -•Is-;-,..:; : ; : i'•'..7.,,..45

•••••••••

•••

.

•I

•

•

.. , . . .:. ,. :,

. :t

.

•: •.•

r11:- 1148110/ W133 envy to hear about the house lire, : : :: . : H::: : ,,:.::::.,.;i: ; .. i......
: :-.::;4:r0.
, - . •,.• • 2 44Yb01
.-•:::- •..: •.::-..4,
,,....4,
...... ..... ...
,
.
::-:-• :- —
'.
..... ...... .
: • -::••.. •.1.4.
qe.. - ili,-.
• '... • .i'' ..,.,-:
• • • : ..... ••• : . . , ...
•
'
.:'•40i -407106elf..F4P"ehetory — esatataid
...'1:. ::I .: . ': '- • ''' . • • •••'• • '....1''See' tittscheatnnali and proposed order
i:t4. - - lior4: .
...

.„.

. ...

.

•

,..: •••• ••• •

.,•.• ..;.

.1:hrteli4 t‘lt as stated. A copy of the corresponding email Is Included In the exhibits flied

..

.. "..;.:..
- • •,..
.
,•.
,

-

•

411thihkell0f Vallibittt. Mike Costello at /*son AdkinS.

tifferett
-t"

4att
ed hfrrt
ftwri
artrnY
notifi
gctied
T1hIrrt
"thY
- thst
7pe
itlora'e
pi tvhD
wei:tea
lfed
ring
w7own
Irtettr
ie ha
orne
fne
,

:.
c;t1t
:hlsf1
• , 31, ;. ::
4

•

‘‘•'::?0331,44:s.t":,:Ai51

:pilAffTecio A copy of the corresponding erns', is included In the exhIblta filed

•

,

ternitteint, Mike Costello & Jason Adkins
as statedlikeopy of the corresponding email Is included In the tpthl)rtjsfilot,
4h*

WaJ 0737)*Itt. Mike Castello & _lawn Atildrus

-

as saatad. A copti4jile cortesponding email Is Included gte4
eempiaint. Mike Costello & Jason Adkins

• '::::-", '
,

= -..... .,..,
, . :: 44'',,--in-'

• ,

4:''''''"'.;

' .-

11'

betatron, as stated. A eopy,of the corresponding entail is Included In the exiitlits'inad giiith
the Initial cotrtbitint. Mike Costello & Jason Adkins
:4 ,,,,,
•„;.5- ,.:-,•:•• .•.,-p. „,
-U. 114 Inforrruitton was cotornunicated to me by my neighbor Mr. Lynch.
..l . ' 1 , --k- • :::.:=. ' `''' r;''.•'-,1 '
was eommT,44ad to me by my neighbor Mr, Lyftek
5",:.4.-,,42'-,,
.,
atkatitesed on Info/notion that was shared to me by Mr. L
:1
. - ,..t.
2Iysuiertsj010.1itiebted.ors the•iei* that Mr, Costello stated all I need to do wtó'"
103,Se itrdittragio iiiaan up thetiesIti detbris, and pint a tarp over the iit:tnett altd'thlswould be

'?!.1.-it, '''..., ,: t I. - ••,,,..
.-,. 1.0.4v.„. la,ti- f!
.,•*,.... ..,•;•!-,,d...
'.•,,..:',i''''• •
*: i --•:•4...,,•, ,::-:1-• , ,
,
lil. •
• s• T' :••, .) • *
',*: -4-, .
:.
''.• 4 • "•.
'• ,,'
4;j,
'

,s4tP

1,4- •

''''''%...

• ,4:tt'

-t.k."4'‘...:.. • ...

'

••••

•

• ••

':1.:
.

•
.. ' :

4:

z
r •

...F.'

•

:

47',4••.'•

lippRagatielLosifsmg:Iira D
g;,,Z7:114A
:
ase'1:18-cv-0102i-r<GA Document 21 Filed 02/11/19

ed: 03/02/2021
%.,,.;;Aattaittesselateakloist.
e 44 of 51 PagelD:t.*9::

Case 1:17-ov-91817-RGA Document 55 Filed 09/27118 Page 7 of 13

sofflOgint, since no one Iheid near my holm; es 04
_ home is In a sewn•wtwit Isitate4ccomm
23. Thkefait is provided by me. Hudson & DOins,for wars tow have been trying to
Property se diet they could build more cotiddittltidera units to sale. In addition, Wag ?.!
Rehoboth Lend Trust talked with my hiiiiband tryintto seek my husband to Minster title of
:111.4 l
ora community land trust fdr‘99 MKS- fiadon and Downi own the meiWit,
property. Me and my husband rehired towels and/ or tilogla4hrt,
jpain possession of my property by any means necastatiititition and
,ikison Adkins, and Adkins appear to have recruited Mike Coatsilo, and Mike
Catell0 theipeily Passwater, with Todd Lawson standing back with knowledge of
.7*
. actions of thsiulprits, but allowing the unlawfulness to continue as noted by t,he Conduct :••?;.•••-•
•t,
••••••'
thedeferidents as disclosed in the pleadings to this court.
..••••

'

.
24, 2018

Re ectfuHy subm

r

•
• '.4...,•••olA

813 F Street
Hartsville, SC 29S5O
SoherA.1965

!Wilk L/N1140 STATES DISTRICT COURT FOR THE DISTRICT& DEtAWARC'

-41
CA No.: 11T-ov-01117

'.‘.t•••

CEKDFICAU co_gRoc;E

Harmon certify that a true and correct copy of the
13)P3 ES Was mailed US Mail prepaid postage to the following

C. Aranilla, 1007 N. Orange Street, Suite 600 , WilminitOt4 DIK121191)

. • .
.1 4. •

SaipteMber 24, 2018

Respectfully submitted,
'::

I

:

; "
••

••

. I;
•

••;:;.
5

•

,

'

• ri-1;

.

-:'*1
•
•

••••...:,:

jit

ate • r.

••

•

Case: 21-13. Document: 12 Page: 91
From: sohara1966@aol,com,
To: jacfains@rnooleandrutt.com,
Subject: RE: Notice of Cancellation of Board of Appeals Hearing
Date: Fri, Sep 15, 2017 7:40 am

Dat ' ed: 03/02/2021

-"‘iditl)eoi

11\ab

14- g

4A-6,

6.01

rA. was IA (letor 113y. v)k.
WaY‘I-1-itAn -C-itr vet i v; Duirk,,-

Please take this as notice that 1 will be filing for an injunction against the demolition as well as an appeal of the fee waiver denial
-4:),,erey edit
WO 40
Sent from AOL Mobile Mail
141,2.,eNot
k\ Ad/C"' S
#21-4d
cLe-se‘v
On Thursday, September 14, 2017 Jason Adkins <jadkins@mooreandrutt.com> wrote:

Ms. Harmon,

-ept 5c451

@'d
e.xe0474.4,-, 0 &-ci,14

Please see the attached letter, a copy of which is also being mailed via first class mail this afternoon.

cal/
Thank you,

el- 4dz_
4/,,
alba
ArY6/

-4,;/A-75. 5-

NAB k,e/014174fAge(41-4-••••••••• ....4-••••••••••.

Jason W Adkins, Esquire
Moore and Rut& P.A.
122 W. Market Street
Gcotgetown. DE 19947
(302) 856-9568
JAdkins@mooreandrutteoni

Moore and Rutt. P.A. is not providing any advice with respect to any federal tax issue in connection with this matter. The information contained in this e-mail message is intended only for
the use of the individual or entity named above and may be privileged and/or confidential. If reader of this message is not the intended recipient, you are hereby notified that any
unauthorized dissemination, distribution or copying of this communication is strictly prohibited by law. If you have received this communication in error, please immediately notify us by
return e-mail or telephone (302) 856-9568 and destroy the original message. Thank you.

Case: 21-131-

PATRICIA S. DODSZUWEIT
CLERK

Document: 39-2 Page: 1

Date

06/09/2021

OFFICE OF THE CLERK
OF APPEALS
UNITED STATES COURT
IT
FOR THE THIRDS CIRCU
COURTHOUSE
21400 UNITED STATE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

June 9, 2021

Kevin J. Connors
Marshall Dennehey Warner Coleman & Goggin
1007 North Orange Street
Nemours Building, Suite 600
Wilmington, DE 19801
Sandra uarmon

Walter F. Kawalec III
Marshall Dennehey Warner Coleman & Goggin
15000 Midlantic Drive
Suite 200, P.O. Box 5429
Mt. Laurel, NJ 08054

et al
RE: Sandra Harmon v. Department of Finance,
Case Number: 21-1317
District Court Case Number: 1-18-cv-01021
ENTRY OF JUDGMENT
sitive order in the above-captioned matter
Today, June 09, 2021 the Court issued a case dispo
P. 36.
which serves as this Court's judgment. Fed. R. App.
you may file a petition for rehearing. The
If you wish to seek review of the Court's decision,
set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
procedures for filing a petition for rehearing are
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
the United States is a party.
45 days after entry of judgment in a civil case if

Case: 21-13' Document: 39-2 Page: 2

Da* —pled: 06/09/2021

Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en bane are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en bane in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk

By: s/ Anthony •
Case Manager
267-299-4916

Case: 19-31'

Ddcument: 45-2 Page: 1

Da*

06/04/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3191

SANDRA HARMON,
Appellant
v.
DEPARTMENT OF FINANCE, Sussex Co. Delaware; JASON ADKINS, individually
and in his capacity as defense counsel for Sussex County Administration; SUSSEX
COUNTY BOARD OF ADJUSTMENT & APPEALS MEMBERS; DALE
CALLAWAY, Chairman individually and in his capacity as Chairman; ELLEN MAGEE,
individually and in her capacity as a board member; J. BRUCE MEARS, individually and
in his capacity as a board member; JOHN MILLS, individually and in his capacity as a
board member; E. BRENT WORKMAN, individually and in his capacity as a board
member; SUSSEX COUNTY ADMINISTRATION
On Appeal from the United States District Court
for the District of Delaware
(D.C. Civil Action No. 1-18-cv-01021)
District Judge: Honorable Richard G. Andrews
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 20, 2020
Before: SHWARTZ, RESTREPO and. NYGAARD, Circuit Judges
(Opinion filed: April 27, 2020)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-31' - Document: 45-2 Page: 2

De 1Ied: 06/04/2020

PER CURIAM
Pro se appellant Sandra Harmon appeals the District Court's order dismissing her
complaint. For the reasons detailed below, we will vacate the District Court's judgment
and remand for further proceedings.
Harmon owned real property in Rehoboth Beach, Delaware. In January 2018,
Sussex County commenced a monition' action against Harmon to collect delinquent
sewer and water bills and costs incurred when it demolished her fire-damaged home.
Harmon claims that she paid the sewer and water bills, but that Sussex County and the
individual defendants never consulted with her about the demolition costs, failed to give
her notice of the monition action, charged excessively high interest on the demolition
costs, and sold the property at a sheriff's sale without providing her with a reasonable
time to pay the outstanding costs. She filed a complaint in District Court under 42 U.S.C.
-§ 1983 alleging that the defendants had violated her constitutional rights.
The defendants filed a motion to dismiss arguing that, because the state monition
action remained ongoing, the District Court should abstain under Younger v. Harris, 401
U.S. 37 (1971). The District Court granted the motion. Harmon filed a timely notice of
appeal.2

"Monition" is "a legal process in the nature of a summons or citation to appear and
answer (as in default of performing some certain act)." Monition, Merriam-Webster's
Unabridged Dictionary (2016).
1

Harmon also filed a motion for reconsideration, which the District Court denied.
Because Harmon did not file a timely new or amended notice of appeal encompassing the
order denying her motion for reconsideration, we lack jurisdiction to consider that order.
See Fed. R. App. P. 4(a)(4)(B)(ii); Carrascosa v. McGuire, 520 F.3d 249, 253-54 (3d Cir.
2

2

Case: 19-31'

Document: 45-2 Page: 3

D2' "lied: 06/04/2020

We have jurisdiction pursuant to 28 U.S.C. § 1291. "We exercise plenary review
over whether the requirements for abstention have been met." Miller v. Mitchell, 598
F.3d 139, 145-46 (3d Cir. 2010).
We will vacate the District Court's judgment. The Court concluded that
abstention under Younger was appropriate because "(1) there are ongoing state
proceedings that are judicial in nature; (2) the state proceedings implicate important state
interests; and (3) the state proceedings provide an adequate opportunity to raise the
federal claims." ECF No. 23 at 6. These factors were set forth in Middlesex County
Ethics Committee v. Garden State Bar Association, 457 U.S. 423, 432 (1982).
However, in Sprint Communications, Inc. v. Jacobs, 571 U.S. 69 (2013), the
Supreme Court "narrowed Younger's domain." Malhan v. Sec'y U.S. Dep't of State, 938
F.3d 453, 462 (3d Cir. 2019). "The Court explained—and we have stressed several times
since-that the 'three Middlesex conditions' are no longer the test for Younger
abstention." Id. (quoting Sprint, 571 U.S. at 81). Rather, courts must first analyze
whether the parallel state action falls within one of "three exceptional categories": (1)
criminal prosecutions, (2) "certain civil enforcement proceedings," and (3) "civil
proceedings involving certain orders uniquely in furtherance of the state courts' ability to
perform their judicial functions." Sprint, 571 U.S. at 78 (quotation marks, alteration
omitted).

2008).
3

Case: 19-31' l Document: 45-2 Page: 4

De' 7iled: 06/04/2020

The District Court therefore failed to apply the proper standard. See Hamilton v.
Bromley, 862 F.3d 329, 337 (3d Cir. 2017) (explaining, in similar circumstances, that
"[b]y not applying the correct test for Younger abstention, the District Court erred").
Accordingly, we will vacate the District Court's judgment and remand so that it can
decide, in the first instance, whether the state monition action falls within one of the three
classes of cases described by Sprint.3

We express no opinion about whether the monition action does fall within one of these
classes of cases, whether Harmon's claims have merit, or whether the defendants have
other meritorious defenses.

3

4

Case: 19-31'

Page: 1

Document: 45-1

Da' ' filed: 06/04/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3191

SANDRA HARMON,
Appellant
v.
DEPARTMENT OF FINANCE, Sussex Co. Delaware; JASON ADKINS, individually
and in his capacity as defense counsel for Sussex County Administration; SUSSEX
COUNTY BOARD OF ADJUSTMENT & APPEALS MEMBERS; DALE
CALLAWAY, Chairman individually and in his capacity as Chairman; ELLEN MAGEE,
individually and in her capacity as a board member; J. BRUCE MEARS, individually and
in his capacity as a board member; JOHN MILLS, individually and in his capacity as a
board member; E. BRENT WORKMAN, individually and in his capacity as a board
member; SUSSEX COUNTY ADMINISTRATION
On Appeal from the United States District Court
for the District of Delaware
(D.C. Civil Action No. 1-18-cv-01021)
District Judge: Honorable Richard G. Andrews

Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 20, 2020
Before: SHWARTZ, RESTREPO and NYGAARD, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the District of Delaware and was submitted pursuant to Third Circuit L.A.R.
34.1(a) on April 20, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered August 20, 2019, be and the same is hereby vacated and the matter remanded.

Case: 19-31'

Page: 2
) Document: 45-1

De "'lied: 06/04/2020

Each side shall bear its own costs. All of the above in accordance with the opinion of this
Court.
ATTEST:
s/Patricia S. Dodszuweit
Clerk
Dated: April 27, 2020
oko'
1/.4k,

•

-•
L-4
tz •
Certalid.
4, •
of a for

P,
•
:
•

yid issued in lieu
06/04/20
ate_'
v35.11 ,0
;Th
.LA./4410e. 6-

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

Case: 19-31r

Document: 40-1 Page: 1

Da+ —led: 04/27/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3191

SANDRA HARMON,
Appellant
v.
DEPARTMENT OF FINANCE, Sussex Co. Delaware; JASON ADKINS, individually
and in his capacity as defense counsel for Sussex County Administration; SUSSEX
COUNTY BOARD OF ADJUSTMENT & APPEALS MEMBERS; DALE
CALLAWAY, Chairman individually and in his capacity as Chairman; ELLEN MAGEE,
individually and in her capacity as a board member; J. BRUCE MEARS, individually and
in his capacity as a board member; JOHN MILLS, individually and in his capacity as a
board member; E. BRENT WORKMAN, individually and in his capacity as a board
member; SUSSEX COUNTY ADMINISTRATION
On Appeal from the United States District Court
for the District of Delaware
(D.C. Civil Action No. 1-18-cv-01021)
District Judge: Honorable Richard G. Andrews

Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 20, 2020
Before: SHWARTZ, RESTREPO and NYGAARD, Circuit Judges

JUDGMENT
This cause came to be considered on the record from the United States District
Court for the District of Delaware and was submitted pursuant to Third Circuit L.A.R.
34.1(a) on April 20, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered. August 20, 2019, be and the same is hereby vacated and the matter remanded.

Case: 19-31r— Document: 40-1 Page: 2

Dat--'ijed: 04/27/2020

Each side shall bear its own costs. All of the above in accordance with the opinion of this
Court.
ATTEST:
s/Patricia S. Dodszuweit
Clerk
Dated: April 27, 2020

Case: 19-3" -

Document: 39 Page: 1

Date —id: 04/27/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3191

SANDRA HARMON,
Appellant
v.
DEPARTMENT OF FINANCE, Sussex Co. Delaware; JASON ADKINS, individually
and in his capacity as defense counsel for Sussex County Administration; SUSSEX
COUNTY BOARD OF ADJUSTMENT & APPEALS MEMBERS; DALE
CALLAWAY, Chairman individually and in his capacity as Chairman; ELLEN MAGEE,
individually and in her capacity as a board member; J. BRUCE MEARS, individually and
in his capacity as a board member; JOHN MILLS, individually and in his capacity as a
board member; E. BRENT WORKMAN, individually and in his capacity as a board
member; SUSSEX COUNTY ADMINISTRATION

On Appeal from the United States District Court
for the District of Delaware
(D.C. Civil Action No. 1-18-cv-01021)
District Judge: Honorable Richard G. Andrews

Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 20, 2020
Before: SHWARTZ, RESTREPO and NYGAARD, Circuit Judges
(Opinion filed: April 27, 2020)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-34- , Document: 39 Page: 2

Date —"?d: 04/27/2020

2

PER CURIAM
Pro se appellant Sandra Harmon appeals the District Court's order dismissing her
complaint. For the reasons detailed below, we will vacate the District Court's judgment
and remand for further proceedings.
Harmon owned real property in Rehoboth Beach, Delaware. In January 2018,
Sussex County commenced a monition' action against Harmon to collect delinquent
sewer and water bills and costs incurred when it demolished her fire-damaged home.
Harmon claims that she paid the sewer and water bills, but that Sussex County and the
individual defendants never consulted with her about the demolition costs, failed to give
her notice of the monition action, charged excessively high interest on the demolition
costs, and sold the property at a sheriff's sale without providing her with a reasonable
time to pay the outstanding costs. She filed a complaint in District Court under 42 U.S.C.
§ 1983 alleging that the defendants had violated her constitutional rights.
The defendants filed a motion to dismiss arguing that, because the state monition
action remained ongoing, the District Court should abstain under Younger v. Harris, 401
U.S. 37 (1971). The District Court granted the motion. Harmon filed a timely notice of
appeal.2

"Monition" is "a legal process in the nature of a summons or citation to appear and
answer (as in default of performing some certain act)." Monition, Merriam-Webster's
Unabridged Dictionary (2016).
Harmon also filed a motion for reconsideration, which the District Court denied.
Because Harmon did not file a timely new or amended notice of appeal encompassing the
order denying her motion for reconsideration, we lack jurisdiction to consider that order.
See Fed. R. App. P. 4(a)(4)(B)(ii); Carrascosa v. McGuire, 520 F.3d 249, 253-54 (3d Cir.
2

2

Case: 19-3'' ) Document: 39 Page: 3

Date —"ed: 04/27/2020

We have jurisdiction pursuant to 28 U.S.C. § 1291. "We exercise plenary review
over whether the requirements for abstention have been met." Miller v. Mitchell, 598
F.3d 139, 145-46 (3d Cir. 2010).
We will vacate the District Court's judgment. The Court concluded that
abstention under Younger was appropriate because "(1) there are ongoing state
proceedings that are judicial in nature; (2) the state proceedings implicate important state
interests; and (3) the state proceedings provide an adequate opportunity to raise the
federal claims " ECF No. 23 at 6. These factors were set forth in Middlesex County.
Ethics Committee v. Garden State Bar Association, 457 U.S. 423, 432 (1982).
However, in Sprint Communications, Inc. v. Jacobs, 571 U.S. 69 (2013), the
Supreme Court "narrowed Younger's domain." Malhan v. Sec'y U.S. Dep't of State, 938
F.3d 453, 462 (3d Cir. 2019). "The Court explained—and we have stressed several times
since—that the 'three Middlesex conditions' are no longer the test for Younger
abstention." Id. (quoting Sprint, 571 U.S. at 81). Rather, courts must first analyze
whether the parallel state action falls within one of "three exceptional categories": (1)
criminal prosecutions, (2) "certain civil enforcement proceedings," and (3) "civil
proceedings involving certain orders uniquely in furtherance of the state courts' ability to
perform their judicial functions." Sprint, 571 U.S. at 78 (quotation marks, alteration
omitted).

2008).
3

Case: 19-3"

1 Document: 39 Page: 4

Datr —"ed: 04/27/2020
;

The District Court therefore failed to apply the proper standard. See Hamilton v.

Bromley, 862 F.3d 329, 337 (3d Cir. 2017) (explaining, in similar circumstances, that
"[b]y not applying the correct test for Younger abstention, the District Court erred").
Accordingly, we will vacate the District Court's judgment and remand so that it can
decide, in the first instance, whether the state monition action falls within one of the three
classes of cases described by Sprint.'

We express no opinion about whether the monition action does fall within one of these
classes of cases, whether Harmon's claims have merit, or whether the defendants have
other meritorious defenses.

3

4

